<html>
<title> - EXAMINE THE CONDITION OF OUR NATION'S BRIDGES</title>
<body><pre>[Senate Hearing 110-1154]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1154

 
             EXAMINE THE CONDITION OF OUR NATION'S BRIDGES 

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

73-570 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming<SUP>1</SUP>
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

<SUP>1</SUP>Note: During the 110th Congress, Senator Craig 
    Thomas, of Wyoming, passed away on June 4, 2007. Senator John 
    Barrasso, of Wyoming, joined the committee on July 10, 2007.



                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 20, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...    11
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    12
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    14
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....    15
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    16
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    18
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    18
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    19
Sanders, Hon. Bernie R., U.S. Senator from the State of Vermont..    21
Bond, Hon. Christopher, U.S. Senator from the State of Missouri..   105
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................   105

                               WITNESSES

Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     2
    Prepared statement...........................................     4
Coleman, Hon. Norm, U.S. Senator from the State of Minnesota.....     6
    Prepared statement...........................................     9
Peters, Hon. Mary E., U.S. Department of Transportation..........    22
    Prepared statement...........................................    24
    Responses to additional questions from:
        Senator Boxer............................................    29
        Senator Cardin...........................................    29
        Senator Lieberman........................................    30
        Senator Inhofe...........................................    32
Scovel, Calvin L. III, Inspector General, U.S. Department of 
  Transportation.................................................    34
    Prepared statement...........................................    37
    Responses to additional questions from:
        Senator Cardin...........................................    55
        Senator Lieberman........................................    56
        Senator Inhofe...........................................    56
Steudle, Kirk T., Director and CEO, Michigan Department of 
  Transportation on Behalf of the American Association of State 
  Highway and Transportation Officials...........................    73
    Prepared statement...........................................    75
    Responses to additional questions from:
        Senator Cardin...........................................    87
        Senator Lieberman........................................    88
Herrmann, Andrew, P.E., Managing Partner, Hardesty and Hanover, 
  on Behalf of the American Society of Civil Engineers...........    90
    Prepared statement...........................................    92
    Responses to additional questions from:
        Senator Cardin...........................................    97
        Senator Lieberman........................................    98
        Senator Inhofe...........................................    99

                          ADDITIONAL MATERIAL

Statements:
    Frevert, Larry W., P.E., President, American Public Works 
      Association................................................   106
    The Associated General Contractors of America................   108
Letter, Brassard, Trini, Special Projects Manager, State of 
  Vermont Operations Division, Vermont Agency of Transportation..   111
Map, Department of Transportation, Research and Innovative 
  Technology Administration, Bureau of Transportation Statistics, 
  Structurally Deficient Bridges on the National Highway System 
  Georgia........................................................   112
Chart, Bridge Condition Rating Categories........................   113


             EXAMINE THE CONDITION OF OUR NATION'S BRIDGES

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Senate Dirksen Building, the Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Lieberman, Carper, 
Lautenberg, Cardin, Sanders, Klobuchar, Warner, Isakson, 
Vitter, Craig, Alexander, Bond, and Barrasso.
    Also present, Senator Coleman.
    Senator Boxer. The meeting shall come to order. I welcome 
you all here.
    What we are going to do, Senator Inhofe and I have 
discussed this, is we are going to do something a little 
different. Because we have this business meeting, we need 10, 
and we are up to 9. So as soon as we get the tenth, we will 
just pause for a moment from our very important hearing and get 
the business meeting over with. I don't think there is anything 
controversial in it. It is just a question of going through the 
motions.
    What I would like to do because this hearing is so 
important and I so appreciate everyone being here, we are going 
to look at the condition of our Nation's bridges. Of course, 
for those who may not know this, it includes the overpasses as 
well. The highway overpasses are included in the definition of 
bridges.
    Because during the evening rush hour on August 1st, the I-
35 West bridge in Minneapolis collapsed, sending dozens of cars 
into the Mississippi River, we all focused and prayed for that 
tragedy to cause minimal loss of life. Sadly, 13 people lost 
their lives, but it did serve as an urgent wake-up call to us 
that we cannot neglect our Nation's infrastructure.
    Senator Klobuchar has been talking to me since the minute 
that happened to have this type of hearing, and we are very 
pleased that she and Senator Coleman are here.
    Rather than call on all of us first, I thought I would do 
something a little different and ask Senator Klobuchar to give 
her opening remarks, then Senator Coleman. At that point, we 
will continue in the regular order.
    So, Senator Klobuchar.

STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Klobuchar. Well, thank you, Chairman Boxer and 
thank you, Senator Coleman, for joining us today and thank you 
for holding this important hearing.
    The horrific collapse of the I-35W bridge has provoked 
concern among all Americans, not just Minnesotans, that the 
bridges they drive across each day may not be safe.
    As I said the day after our bridge collapsed, in America, a 
bridge just shouldn't fall down especially not an eight-lane 
interstate highway, especially not one of the most heavily 
traveled bridges in the State, especially not at the rush hour 
in the heart of a major metropolitan area, but the I-35W bridge 
in Minneapolis did fall down on August 1st.
    From what we know so far, this wasn't a bridge over 
troubled waters. It was a troubled bridge over waters.
    I can't even begin to count the many times that my husband, 
my daughter and I drove across the I-35W bridge. That bridge 
was not just in back yard. It was in my front yard. It was 
eight blocks from our house.
    It was one of the most heavily traveled bridges in our 
State. An estimated 140,000 vehicles crossed that bridge every 
day, and our State's economy loses an estimated $400,000 in 
revenue each day the bridge cannot be used.
    When I watched what unfolded that night, I was shocked and 
horrified. But on that evening and in the days that followed, 
the whole world watched as our State came together. I was proud 
to be a Minnesotan. We saw true heroes in the face of 
unimaginable circumstances.
    We saw an off-duty Minneapolis firefighter who grabbed her 
life jacket and was among the first at the scene. Tethered to a 
yellow life rope in the midst of broken concrete and tangled 
rebar, she swam from car to car, searching for survivors.
    We saw that school bus perched precariously on the fallen 
bridge deck. I call it the miracle bus. Inside were dozens of 
kids from a local neighborhood who had been on a swimming field 
trip. Their bus was crossing the bridge when it dropped. Thanks 
to the quick action of responsible adults and the kids 
themselves, they all survived.
    Now, with the perspective of over a month, we can begin to 
look at this catastrophe and what can we take away. First, we 
must get to the bottom of this tragedy and why this enormous 
bridge fell down into the Mississippi River, killing 13 people 
and injuring 123. It didn't happen because of an earthquake or 
a barge collision. Something went terribly wrong, and we need 
to get the answers.
    As a former prosecutor, I know we must wait until all the 
evidence is in before we reach a verdict. We will need to be 
patient as the investigation continues. It will take time, but 
we need to know.
    Second, the emergency response to the bridge collapse 
demonstrated an impressive level of preparedness that should be 
a model for the Nation. So many more people could have died. 
You can never feel good about a tragedy like this, but I feel 
good about our police officers, our firefighters, our 
paramedics and our other first responders.
    Third, we need to move ahead to build a new safe bridge. 
Although the recovery and rebuilding efforts have only just 
begun, fast action in Washington has already helped pave the 
way. In just 3 days, Senator Coleman and I worked together in 
the Senate to secure $250,000 million in emergency bridge 
reconstruction funding. Representative Oberstar led the way in 
the House.
    Approval of this funding came with remarkable speed and 
bipartisan action. Capitol Hill veterans tell me it was a rare 
feat aided by the unity among Minnesota's elected leaders 
across the political spectrum.
    Finally, America needs to come to grips with broader 
questions about our deteriorating infrastructure. Although we 
do not yet know the causes of the I-35W bridge collapse, this 
disaster has shocked Americans into a realization of how 
important it is to invest in safe, sound infrastructure. 
Unfortunately, it has taken a disaster to put the issue of 
infrastructure investment squarely on the national agenda. We 
must take steps to make sure no other bridge falls down like 
this in Minnesota or anywhere else in the Nation.
    I would also like to thank Secretary Peters for her efforts 
in the immediate aftermath of the bridge collapse. The early 
relief of the Department provided help to Minnesota and with 
the money that we appropriated last week with the Klobuchar 
amendment to the transportation bill, Minnesota now has the 
initial funds to begin the rebuilding process.
    When the new bridge is completed, I know it will serve as 
model of structural integrity and engineering for years to 
come.
    A critical investment in maintenance and major 
reconstruction of our Nation's transportation infrastructure, 
especially our bridges, is needed. As this map shows, of the 
almost 600,000 bridges listed in the National Bridge Inventory, 
roughly 12 percent are classified as structural deficient. That 
is almost 74,000 bridges.
    Now, what does structurally deficient mean? When inspectors 
evaluate a bridge, they examine the bridge's deck, the 
superstructure and the substructure. Each of these components 
are ranked on a scale of zero to nine, with zero being failed 
and nine being excellent. If the deck, superstructure or 
substructure is given a four or less, the bridge is classified 
as structurally deficient.
    We have actually sent around for each Senator a map of 
their State with the number of structurally deficient bridges 
in their State. As my colleagues can see, a rating of four or 
less includes corrosion or movement of key support beams or 
advanced cracking and deterioration in the bridge foundation.
    In June 2006, the I-35W bridge's superstructure, meaning 
the physical condition of all structural members, was rated at 
a four. The bridge's deck was rated five. The substructure, 
comprised of the piers, the footings and other components, was 
rated a six.
    The Minnesota Department of Transportation was in the 
process of completing their 2007 inspection when the bridge 
collapsed.
    As today's panelists will be able to tell us, there are 
plenty of bridges throughout the Country with worse inspection 
records than the I-35W bridge. When almost 12 percent of all 
the American bridges are in need of serious repair, it is time 
to act. When the Highway Trust Fund is projected to go into 
deficit in Fiscal Year 2009, there is a serious funding 
problem.
    When we are building new bridges and not properly 
maintaining the ones we already have, there is a problem with 
our priorities. When the American people question the integrity 
of the bridges they cross each and every day, it is a national 
embarrassment.
    Put all of this together, and it is a call for action. It 
underlines the fact that my colleagues and I on this Committee, 
which has been entrusted with the responsibility of building 
and maintaining our infrastructure, have a lot of work ahead of 
us.
    With that in mind, I look forward to hearing from the 
panelists and working with my EPW colleagues to get this work 
done so that we ensure our national transportation system has 
the confidence of the American people as well as being the envy 
of the rest of the world.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Klobuchar follows:]
        Statement of Hon. Amy Klobuchar, U.S. Senator from the 
                           State of Minnesota
    Thank you Chairman Boxer for holding this important hearing.
    The horrific collapse of the 1-35W Bridge has provoked concern 
among all Americans--not just Minnesotans--that the bridges they drive 
across each day just may not be safe.
    As I said the day after the bridge collapse: In America, a bridge 
should not fall down. Especially not an eight-lane interstate highway . 
. . Especially not one of the most heavily traveled bridges in the 
state . . . Especially not at rush hour in the heart of a major 
metropolitan area.
    But the I-35W Bridge in Minneapolis did fall down on August 1.
    I can't even begin to count how many times that my husband, my 
daughter, and I drove across the I-35W Bridge.
    That bridge was not just in my backyard; it was actually in my 
front yard. It was only eight blocks away from my from door. It was one 
of the most heavily traveled bridges in our State; an estimated 140,000 
vehicles crossed that bridge every day, and our slates economy loses an 
estimated $400,000 in revenue each day the bridge cannot be used.
    When I watched what unfolded that night. I was shocked and 
horrified. But on that evening and in the days that followed, the whole 
world watched as our state came together. I was proud to be a 
Minnesotan.
    We saw true heroes in the face of unimaginable circumstances.
    We saw off-duty Minneapolis firefighter Shanna Hanson, who grabbed 
her life jacket and was among the first at the scene. Tethered to a 
yellow life rope, in the midst of broken concrete and tangled rebar she 
swam from car to car searching for survivors.
    We saw that school bus perched precariously on the fallen bridge 
deck. I call it the Miracle Bus. Inside were dozens of kids from a very 
poor neighborhood who had been on a swimming field trip. Their bus was 
crossing the bridge when it dropped. Thanks to the quick action of 
responsible adults and the kids themselves, they all survived.
    Now, with the perspective of a few weeks' time, what can we begin 
to take away from this catastrophe?
    First, we must get to the bottom of why this enormous bridge 
suddenly fell down into the Mississippi River.
    It didn't happen because of an earthquake or a barge collision. 
Something went terribly wrong and we need to get answers.
    Past inspection reports show that the bridges condition had been a 
subject of growing concern for many years. This wasn't a bridge over 
troubled waters; it was a troubled bridge over the water.
    Still, as a former prosecutor, I know we must wait until all the 
facts and evidence are in before we reach a verdict. We will need to be 
patient as the investigation continues. It will take time but we need 
to know.
    Second, the emergency response to the bridge collapse demonstrated 
an impressive level of preparedness that should be a model for the 
notion.
    You can never feel good about a tragedy like this. But I feel good 
about our police officers, firefighters, paramedics and other first 
responders.
    As Hennepin County Attorney for eight years, I remember meeting 
with the sheriff, police chief and other officials as we planned and 
practiced disaster preparedness drills. We learned the lessons from 9/
11.
    Even though no one ever imagined a major bridge would collapse, the 
results of all that planning and preparation were evident on the night 
of August 1. It saved lives.
    Third, we need to move ahead to build a new, safe bridge.
    Although the recovery and rebuilding efforts have only just begun, 
fast action in Washington has already helped pave the way.
    In just three days, Senator Coleman and I worked together in the 
Senate to secure $250 million in emergency bridge reconstruction 
finding. Representative Jim Oberstar led the way in the House.
    Approval of this funding came with remarkable speed and 
bipartisanship. Capitol Hill veterans tell me it was a rare feat, aided 
by the unity among Minnesota's elected leaders across the political 
spectrum.
    Finally, America needs to come to grips with broader questions 
about our deteriorating infrastructure.
    Although we do not yet know the exact causes for the I-35W bridge 
collapse, this disaster has shocked Americans into a realization of how 
important it is to invest in safe, sound infrastructure.
    Unfortunately, it has taken a disaster to put the issue of 
infrastructure investment squarely on the national agenda. We must take 
steps to make sure no other bridge falls down likes this, in Minnesota 
or anywhere else in our nation.
    But sadly, it did collapse. It wasn't sturdy enough to hold: Sherry 
Engebretsen, Artemio Trinidad-Mena, Julia Blackhawk, Patrick Holmes, 
Peter Hausmann, Greg Jolstad, Scott Sathers, Christina Sacorafas, 
Sadity and Hanah Sahal, or Vera Peck and Richard Chit the 13 people who 
lost their lives or any of the other 123 people injured, when the 
bridge collapsed.
    It was an unforgettable tragedy; but it was not unimaginable.
    The tragic collapse of the I-35W Bridge was caused by our neglect, 
and Mute collapses will only be prevented by our diligence.
    So on behalf of all Minneaotan's--I thank Senator Boxer for holding 
this hearing. I look forward to working with you, and all of my EPW 
colleagues as we move forward to strengthen our national 
infrastructure--and prevent another tragic event from happening.
    I would also like to thank Secretary Peters for her efforts in the 
immediate aftermath of the bridge collapse. The early relief the 
Department provided helped Minnesota:
    <bullet> increase transit options to serve commuters;
    <bullet> set up detours to restore traffic flow;
    <bullet> clear structural debris; and
    <bullet> begin to lay the general groundwork for rebuilding.
    And with the money that we appropriated last week with the 
Kobucher-Coleman Amendment to the Transportation Bill, Minnesota now 
has the initial funds to begin the rebuilding process.
    When the new bridge is completed, 1 know it will serve as a model 
of structural integrity and engineering for years to come.
    A critical investment in maintenance and major reconstruction of 
our nation's transportation infrastructure--especially our bridges--is 
needed.
    As this map shows, of the almost 600,000 bridges listed in the 
National Bridge Inventory roughly, 12% are classified as structurally 
deficient. That is almost 74,000 bridges.
    <bullet> Total Bridges in U.S.: Almost 600,000
    <bullet> Structurally Deficient Bridges: 73,784
    <bullet> Estimated Cost to fix all Bridges: $65 Billion
    What does ``structurally deficient'' mean?
    When inspectors evaluate a bridge they examine the bridges deck, 
superstructure, and substructure. Each of these components are ranked 
on a scale of 0 to 9, with 0 being ``failed'' and 9 being 
``excellent.'' If the deck, superstructure, or substructure is given a 
4 or less, the bridge is classified as ``structurally deficient''.
    As my colleagues can see, a rating of 4 or less includes corrosion 
or movement of key support beams, or advanced cracking and 
deterioration in the bridges foundation.
    In June of 2006, the I-35W Bridge's superstructure--meaning the 
physical conditions of all structural members--was rated at a 4. The 
bridge's deck was rated 5, and the substructure, comprised of the 
piers, abutments, footings and other components, was rated a 6.
    The Minnesota Department of Transportation was in the emcees of 
completing their 2007 inspection when the Bridge collapsed.<plus-minus>
    As today's panelist will be able to tell us--there are plenty of 
bridges throughout the country with worst Inspection records than the 
I-35W Bridge.
    When almost 12% of all American bridges are in need of serious 
repair--it is time to act.
    When the Highway Trust Fund is projected to go into deficit in 
FY09--there is a serious fulling problem.
    When we are building new bridges, and not properly maintaining the 
ones we already have, there is a problem with our priorities.
    And when the American people question the integrity of the bridges 
they cross each and every day--it is a national embarrassment.
    Put all of this together, it is a call for action.
    It underlines the fact that my colleagues and I on this Committee--
which has been entrusted with the responsibility of building and 
maintaining our infrastructure--have a lot of work ahead of us.
    With that in mind, I look forward to hearing from the panelists and 
working with my EPW colleagues to get this work done; so that we ensure 
our national transportation system has the confidence of the American 
people, as well as being the envy of the rest of world.
    Thank you Madame Chairman.

    Senator Boxer. Thank you, Senator Klobuchar. I really want 
to thank you for your leadership because what you have done is 
beyond the collapse of one bridge. You have looked at the 
Nation.
    We all have these in front of us for our States, and it is 
shocking to see--I am sure each of our States--the problems 
that we do face and why this hearing is important and, more 
importantly, what follows it.
    Following what we said before, we are going to take a brief 
moment here to do our business meeting, and I would call that 
business meeting to order. Any opening statements will be 
placed in the record.
    [Whereupon, at 10:13 a.m., the committee proceeded to other 
business.]
    Senator Boxer. We will continue, after the eloquent 
statement of our colleague from Minnesota, with Senator Coleman 
from Minnesota.
    We welcome you, sir.

STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Coleman. Thank you, Madam Chairman, Senator Inhofe 
and members of the Committee, for the opportunity to testify 
this morning.
    I often feel like an honorary member of this critical 
Committee because of the vision I share with so many of you 
about the importance of national infrastructure from Senator 
Carper's and Senator Voinovich's National Infrastructure 
Improvement Act, which Senator Klobuchar and I proudly co-
sponsor, to the bipartisan work on the Water Resources 
Development Act that we all worked so hard to pass. It feels 
good to sit before a group of Senators who truly understand the 
significance of a viable infrastructure network.
    I thank you and your staffs for all of your assistance and 
support in the wake of our tragic bridge collapse, and I 
appreciate the opportunity to discuss this topic with you 
today.
    I would also like to thank my friend, Secretary Mary Peters 
who is seated behind me, for participating in this hearing 
today. The response from the Secretary and her entire 
Department to the collapse of the I-35W bridge is something 
that the people of the Twin Cities and all of Minnesota will 
remember for years to come. I will outline these efforts in 
greater detail in my testimony, but I wanted to begin by 
recognizing the Secretary's exemplary efforts and thanking her 
for her tireless service.
    I would also want to say a brief word about the true 
meaning of bipartisanship in the Senate which is often embodied 
in our response to great tragedy, in particular, my friend and 
colleague from Minnesota, Senator Amy Klobuchar, whom I have 
the pleasure of testifying alongside today, continues to 
demonstrate the value of working with both sides of the aisle 
to best serve our State.
    If my colleague doesn't mind, I would recite a quote she 
had in a local paper back home this week where she said, ``I 
thought the Senate was going to be more partisan like you see 
on TV.''
    Thankfully, because of the efforts of Senator Klobuchar and 
her staff, real life in the Senate is much cooperative than 
most of the punditry would have us believe. I thank her for her 
continued efforts to do the best by the people of Minnesota.
    Madam Chairman, most of us in the North Star State will 
never forget the tragic event that befell our largest city on 
8/1 of this year. Just after 6 p.m. on that day, the main 
transportation artery in the heart of Minneapolis, the 
Interstate 35W bridge fell into the Mississippi River, as the 
Chairman noted, killing 13 people and injuring more than 100 
others.
    The images that began to appear on national news within 
minutes of the collapse are still too difficult to describe 
with words, and the panoramic photograph in front of the dais 
here only begins to outline the magnitude of this disaster's 
impact on the Twin Cities and the entire region.
    As I mentioned on the Senate floor, when Senator Klobuchar 
returned from surveying the damage of the bridge collapse 
firsthand with Secretary Peters on the day after the tragedy, 
this area of the Mississippi River is one of Minnesota's most 
historic. It was here that Father Louis Hennepin named the 
Falls of St. Anthony pictured behind me, upstream from the 
wreckage.
    You can also see from here, Charles Pillsbury's flour mills 
that sprang up along these falls, defining an era of growth in 
our State and earning Minneapolis the title of the Mill City. 
Closer yet, you can see the Guthrie Theater, something showing 
the new generation of growth in this historic corridor.
    These structures, these falls and this river include so 
much of our State's history and identity, sitting on the 
headwaters of North America's greatest waterway. This is truly 
the heart of the Heartland. So, as I said on August 2d on the 
Senate floor, Madam Chairman, when the bridge fell, part of 
Minnesota's identity fell with it.
    Within 60 hours of the bridge's collapse, we in the U.S. 
Senate took decisive action. Senator Klobuchar has detailed the 
speed of the Federal response, the speed of the response in 
terms of funding. While we still need to work to see this 
funding across the President's desk, to say that congressional 
response to this tragedy has been excellent would be an 
incredible understatement.
    The response of our local officials has also been equally 
commendable. I would be remiss if I failed to acknowledge the 
skill, coordination and courage of those responding to the 
scene of this horrific event.
    Madam Chair, I was Mayor of St. Paul, Minnesota, on 9/11, 
and I remember on 9/11 the inability. I didn't know how many 
hospital beds we had available in our community. We did not 
have the ability at that time for State and local law 
enforcement to communicate with other counties and other 
jurisdictions.
    So, we learned from 9/11, if there is a lesson to go out to 
local units of government, training makes a difference. All the 
preparation we did post 9/11, training, training, training made 
a difference.
    The Secretary and Senator Klobuchar saw that morning when 
we arrived and we came upon the scene of the mayor, the 
Governor, the local first responders discussing what they 
needed to do next. As an ex-mayor, I watched it, and it was 
seamless. So training made a tremendous difference.
    We saw also the local response of the folks on the scene, 
and Senator Klobuchar also talked a little bit about that.
    The reality is that when the disaster struck, people ran 
toward the danger. They ran toward the school bus that was 
perched precariously. If it had been a foot and a half over to 
the right, it would have gone. It fell, I think, 20 feet. It 
would have fallen much further. There would have been great 
death and destruction. The miracle bus, as Senator Klobuchar 
talked about it.
    People ran toward the disaster. So the response to the 
collapse, I believe, has been successful.
    The question before this Committee today is how do we 
ensure that something like this tragedy never happens again 
anywhere in our Nation. We need to maintain a bridge program 
that establishes the most fundamental element of our 
transportation network, and that is safety.
    We realize the challenge is great. Terms like structurally 
deficient and functionally obsolete have become everyday 
language for most Americas in the last 2 months. We have over 
150,000 bridges in this Country that fit one of those two 
categories with a great many of them included in the national 
highway system.
    It is our responsibility as legislators to thoughtfully and 
carefully craft a strategy to improve our bridge program. We 
need to look at all the options, but I think it is important 
that we start by analyzing the shortfalls of our current 
program. To this end, in my capacity as Ranking Member of the 
Permanent Subcommittee on Investigations, I have joined my 
Chairman, Senator Carl Levin, in asking the Government 
Accountability Office to conduct a full review of our national 
bridge program. The GAO has not conducted a study of this 
program since 1991, and they agree that the time is now for 
this careful and thorough examination.
    Madam Chairman, I would like to have entered into the 
record a copy of the letter.
    [The referenced material was not available at time of 
print.]
    Senator Coleman. In the letter, we lay out three specific 
objections for the GAO to inspect in their investigation. 
First, we have asked that they measure our effectiveness and 
maintenance, prioritizing, investing in needed bridge repairs. 
Second, we have requested they research into the States' use of 
Federal funds and whether they have been prioritized toward 
necessary bridge projects. Finally, we have tasked GAO with 
inspection of Federal funding for bridges, including the 
effects of earmarks, DOT formula grants and the frequently 
cited equity provision.
    I look forward to working with members of the Committee to 
engage GAO as their review moves forward, and I hope their 
findings can be a valuable asset to this Committee as we deal 
with the issue in the months to come.
    We have many challenges before us, but I believe, Madam 
Chair, that we can succeed in our attempts to better our 
infrastructure. We should start by making our bridges safe for 
generations to come.
    I thank you once for having me, giving me this opportunity 
to come before the Committee today.
    [The prepared statement of Senator Coleman follows:]
         Statement of Hon. Norm Coleman, U.S. Senator From the 
                           State of Minnesota
    Thank you Madam Chairman, Senator Inhofe, and members of the 
committee for the opportunity to testify this morning. I often feel 
like I am an honorary member of this critical committee because of the 
vision 1 share with so many of you on the importance of national 
infrastructure. From Senator Carper and Senator Voinovich's National 
Infrastructure Improvement Act that Senator Klobuchar and I proudly 
cosponsored, to the bipartisan work on the Water Resources Development 
Act that we have all worked so hard to pass, it feels good to sit 
before a group of Senators who truly understand the significance of a 
viable infrastructure network. I thank you and your staffs for all of 
your assistance and support in the wake of our tragic bridge collapse, 
and I appreciate the opportunity to discuss this topic with you today.
    I would also like to thank my friend Secretary Mary Peters for 
participating in this hearing. The response from the Secretary and her 
entire Department to the collapse of the I-35W bridge is something that 
the people of the Twin Cities and all of Minnesota will remember for 
years to come. I will outline these efforts in greater detail in my 
testimony but wanted to begin by recognizing the Secretary's exemplary 
efforts and thanking her for her tireless service.
    I also want to say a brief word about the true meaning of 
bipartisanship in the Senate which is often embodied in our response to 
great tragedy. In particular, my friend and colleague from Minnesota, 
Senator Amy Klobuchar, who I have the pleasure of testifying alongside 
today, continues to demonstrate the value of working with both sides of 
the aisle to best serve our state If my colleague doesn't mind, I would 
recite a quote she had in a local paper back home this week where she 
said ``I thought the Senate was going to be more partisan--like what 
you see on TV.'' Thankfully, because of the efforts of Senator 
Klobuchar and her staff, real life in the Senate is much more 
cooperative than most of the punditry would have us believe. I thank 
her for her continued efforts to do best by the people of Minnesota.
    Madam Chairman, most of us in the North Star State won't ever 
forget the tragic event that befell our largest city on ``eight one'' 
of this year. Just after six p.m. on that day, the main transportation 
artery in the heart of Minneapolis, the Interstate 35W bridge, fell 
into the Mississippi River killing 13 people and wounding more than 100 
others. The images that began to appear on national news within minutes 
of the collapse are still too difficult to describe with words, and the 
panoramic photograph next to the dais only begins to outline the 
magnitude of this disaster's impact on the Twin Cities and our entire 
region.
    As I mentioned on the Senate floor when Senator Klobuchar and I 
returned from surveying the damage of the bridge collapse firsthand 
with Secretary Peters on the day after the tragedy, this area of the 
Mississippi River is one of Minnesota's most historic. It was here that 
Father Louis Hennepin named the falls of St. Anthony, pictured behind 
me upstream from the wreckage. You can also see Cadwallader Washburn's 
and Charles Pillsbury's flour mills that sprang up along these falls 
defining an era of growth in our state and earning Minneapolis the 
title of ``The Mill City.'' Closer yet, you see the Guthrie theater, 
showing the new generation of growth on this historic corridor. These 
structures, these falls, and this river include so much of our state's 
history and identity, sitting on the headwaters of North America's 
greatest waterway. This is truly the heart of the heartland.
    So as 1 said on August second on the Senate floor, Madam Chairman, 
when this bridge fell, part of our Minnesota identity fell with it.
    Within 60 hours of the bridge's collapse, we in the United States 
Senate took decisive action. We committed the necessary federal 
resources to rebuild this structure and to rebuild it quickly. The 
actions we took in this body before recess set out a blueprint for the 
future of the I-35W bridge and the entire Twin Cities region. We 
provided authorization for emergency finding, $55 million of which was 
sent by Secretary Peters to the Minnesota Department of Transportation 
almost immediately to begin reconstruction of the bridge. We provided 
immediate assistance in transit funding including $5 million to assist 
the Twin Cities in their most immediate transportation needs including 
detours and temporary busing. And other federal resources from Navy 
dive teams to regional transportation administrators from the U.S. 
Department of Transportation--including Federal Highway Administrator 
Rick Capka--have descended on the Twin Cities to assist in recovery and 
rebuilding.
    Last week we took an additional step, providing $195 million in 
emergency funding for the bridge to ensure that the Minnesota 
Department of Transportation has the resources they need to proceed 
with clean up and construction. In speaking with representatives of 
MNDOT, we understand that without this funding, rebuilding this 
critical artery could halt as early as October, thwarting the otherwise 
amazing progress we are making in recovery from this horrible tragedy. 
While we still need to work to see this funding across the President's 
desk, to say that Congressional response to this tragedy has been 
excellent would he an incredible understatement.
    The response of our local officials has been equally commendable. I 
would be remiss if I failed to acknowledge the skill, coordination, and 
courage of those responding on the scene of this horrific event. Madam 
Chairman, I was the mayor of St. Paul, Minneapolis' twin city and proud 
neighbor, when we experienced the tragedy that will define our era--the 
attacks of 9/11. I remember the challenges we had with communication, 
with logistics, and with overall preparedness. We couldn't get the 
Ramsey County Police Department to talk to the Hennepin County Police 
Department. Minneapolis, St. Paul and the State of Minnesota learned 
the lessons of preparation that day and set out to ensure that if any 
major emergency should happen again, that we would be ready You always 
hope that day never comes, but on August first it came for Minneapolis.
    Governor Tim Pawlenty, Mayor R.T. Rybak, the Hennepin County 
Sheriff's office, local firefighters, first responders, and hundreds of 
Twin Cities residents responded in a manner which those of us who 
witnessed will carry with us forever. Madam Chairman, Senator Klobuchar 
and I saw the living definition of heroism and leadership that day.
    We saw and heard stories of bystanders linking arms to pull victims 
from submerged automobiles. Rescue divers braving the dangerous current 
of the Mississippi to reach vehicles beneath the shredded of concrete 
and jagged steel. And the faces of Moms and Dads reunited with their 
children after their miraculous escape from a trapped school bus. These 
images will reverberate across our state for years to come, and we owe 
all of those who contributed to these stories of survival our eternal 
gratitude.
    But while the emergency response to the I-35W bridge collapse has 
been successful, the question before this committee today is how we 
ensure that something like this tragedy never happens again anywhere in 
our nation. We need to maintain a bridge program that establishes the 
most fundamental element of our transportation network: safety.
    We realize the challenge is great. Terms like ``structurally 
deficient'' and 'functionally obsolete'' have become everyday language 
for most Americans in the last two months. We have over 150,000 bridges 
in this country that fit one of those two categories, with a great many 
of them included in the National Highway System.
    It is our responsibility as legislators to thoughtfully and 
carefully craft a strategy to improve our bridge program. We need to 
look at all options, but I think it is important that we start by 
analyzing the shortfalls of our current program.
    To this end, in my capacity as Ranking Member of the Permanent 
Subcommittee on Investigations, I have joined my Chairman Senator Carl 
Levin in asking the Government Accountability Office to conduct a full 
review of our national bridge program. The GAO has not conducted a 
study of this program since 1991, and they agree that the time is now 
for this careful and thorough examination.
    We have laid out three specific objectives for GAO to inspect in 
their investigation: First, we have asked that they measure our 
effectiveness in maintenance, prioritizing, and investing in needed 
bridge repairs. Second, we have requested their research into states' 
use of federal funds and whether they have been prioritized toward 
necessary bridge projects. Finally, we have tasked GAO with inspection 
of federal funding for bridges including the effects of earmarks, DOT 
formula grants, and the frequently cited ``equity provision.'' I look 
forward to working with members of the committee to engage GAO as their 
review moves forward, and I hope their findings can be a valuable asset 
to this committee as you deal with this issue in the months to come. We 
know we have challenges in front of us Madam Chairman, but it certainly 
isn't the first time. I'd like to conclude my remarks this morning by 
reminding my colleagues of another time in our history when we faced 
what seemed like an insurmountable challenge to our nation's 
infrastructure.
    In 1859, the year before he became president, Abraham Lincoln 
traveled the country. One of his stops was Omaha. On August 13, 1859, 
he was staying in the famous Pacific Hotel in Council Bluffs, Iowa 
across the River. He came to give a campaign speech, but he had more on 
his mind. He gathered there with the top railroad people to ask them a 
question: What was the best route from Omaha to the Pacific Ocean?
    As they stood on the front porch of the hotel, Grenville Dodge, the 
most knowledgeable railroad engineer in the country, pointed Northwest, 
the path of the Platte River. Lincoln made a decision that day. Nine 
and a half years later, the golden spike was driven, and for the first 
time in history a railroad spanned an entire continent.
    We, too, can succeed in our attempts to better our infrastructure. 
We should start by making our bridges safe for generations to come. I 
thank you once again for having me before the committee today.

    Senator Boxer. Thank you very much, Senator. We don't plan 
to ask you any questions, I don't believe, unless someone has a 
question.
    What I plan to do now is just ask members to keep opening 
statements, and that includes myself and Senator Inhofe, to 3 
minutes because we have such important people to come before 
us, plus we will have some votes in the near future here.
    By the way, colleagues, thank you so much for being here 
for the business meeting, so we can get the business of the 
Committee done. Thank you.
    Thank you, Senator Bond.
    Senator Bond. Thank you, Madam Chair.
    Senator Boxer. I will start my 3 minutes.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    It shouldn't take a tragedy like the one in Minneapolis to 
remind us that safety of our bridges, highways and other 
infrastructure is a matter of life and death.
    Half of all the bridges in this Country were built before 
1964--think about it--and the average age of a bridge in the 
National Bridge Inventory is 43 years old. This means we need 
to make significant investments in our bridges just to retain 
them at safe, functioning levels followed by even larger 
investments over the next 20 to 30 years to completely replace 
our aging bridges.
    In August, I went to California and held a field briefing 
in Sacramento, our State's capital, to discuss the condition of 
our bridges with our officials. The amazing thing about 
California voters is they voted in a $20 billion bond measure 
to deal with infrastructure, but they cannot do this alone. The 
problem is way, way too big.
    Following the bridge collapse in Minnesota, I am sure a lot 
of my colleagues here today have asked officials in their own 
States for information on the condition of the bridges at home.
    I want to show you a pie chart here in my remaining time. I 
have just a couple of things to show you.
    Here is the story. There are approximately 600,000 bridges. 
Approximately 72,000 are structurally deficient, and 81,000 are 
functionally obsolete. So the total deficient bridges is 
153,000 or, actually to round it up, 154,000. These are the 
facts, and we can't stick our heads in the sand and wish it 
away or say, oh, we can do this if we just got our priorities 
straight.
    The fact is this needs attention. No great Country can 
remain great if its infrastructure cannot keep up with its 
growth and also its infrastructure cannot keep up with its 
economy and its infrastructure is unsafe. This picture that is 
in front of us here is a stark reminder of that.
    I also wanted to just give you one more chart, and then I 
am done with my statement. I will turn it over to Senator 
Inhofe.
    This is a statement by the U.S. Department of 
Transportation. They estimate that $65.2 billion could be 
invested immediately in a cost-beneficial fashion to replace or 
otherwise address current existing bridge deficiencies, and 
that is the U.S. Department of Transportation 2006 Status of 
the Nation's Highways, Bridges and Transit Conditions and 
Performance Report to the Congress.
    We have had our wakeup call. Now it is up to us. We have 
been warned. I hope that this Committee in the most bipartisan 
fashion will respond just as we did with the WRDA bill which is 
coming, finally, to the Senate on Monday.
    Senator Boxer. Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    I am going to be even briefer because several of us have to 
leave at 11. So I am going to make sure we have a chance to ask 
Mary Peters a couple questions.
    Let me just say this. I agree with the comments you made in 
the sense of urgency that came by the tragedy in Minnesota, but 
I am a little bit concerned by all the rush to the call for 
dramatic increases in the amount of money we spend on bridges. 
I appreciate that may be a natural response, but I would 
suggest that the Committee, our Committee as Committee of 
jurisdiction on this issue, needs to look at the entire 
picture.
    When we went through our transportation reauthorization, 
here I am ranked as the most conservative member and yet I am 
still critical that we didn't spend more money on the 
transportation bill. That amount of money only maintained what 
we have today, and so other priorities are really important.
    I have to say that certainly I am probably as sensitive as 
anyone on this Committee because the 2006 Report on 
Structurally Deficient and Functionally Obsolete Bridges ranked 
Oklahoma at No. 1. We have more than any other State. It is 
huge, a huge problem there. So we want to respond to it.
    I would say this, as Secretary Peters knows, that I-40 is 
exactly about the same age and same structural design is this 
bridge that we are looking at up here, that we are seeing the 
picture of. I am very much concerned about that.
    I would say also you rushed to help us on the I-40 thing on 
the other side of the State when we had the barge incident, and 
I appreciate that.
    So let me just say, Madam Chairman, that I will put the 
rest of my statement in the record and hope we can move on with 
these things.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator From the 
                           State of Oklahoma

    Thank you Madame Chairman. I am pleased that you have 
called this hearing to examine the state of our Nation's bridge 
infrastructure. As I'm sure you remember, I suggested back in 
February that we hold a hearing on the Emergency Relief Program 
because of the funding and how the eligibility works.
    The catastrophic failure of the I-35 bridge in Minnesota 
was a tragedy for the families of the 13 victims as well as the 
people of Minnesota, and I hope a wake-up call for all of us. 
Our infrastructure is crumbling and we cannot afford to ignore 
it. We have been enjoying investments made 50 years ago and 
have not been giving enough attention to replacement, or even 
adequate maintenance, of the very infrastructure that has 
fueled unprecedented economic prosperity. As I have stated many 
times, the primary responsibility of government is to provide 
for the defense of the country and infrastructure. We have done 
an inadequate job maintaining and expanding our infrastructure.
    I do have one concern that I would like to put on the 
table. Following the tragedy in Minnesota, many have rushed to 
call for dramatic increases in the amount of money we spend on 
bridges. While I appreciate that may be a natural response, I 
would suggest that as the committee of jurisdiction on this 
issue, we need to look at the entire picture before we make 
decisions on how to spend additional scarce resources. Please 
do not misunderstand me, I am not saying that we do not need to 
devote more resources to bridges. In fact my home state leads 
the nation in structurally deficient and functionally obsolete 
bridges. If anyone understands the need for increased attention 
on bridges, I do. But I believe when we examine the state of 
our infrastructure in its entirety, we will find that it is not 
just bridges but everything that needs attention. The 
investment needs for aging bridges are staggering, but we 
cannot let this overshadow the overwhelming needs on all 
aspects of our nations highways.
    Additionally, I am concerned about the potential impact on 
repairing our aging infrastructure if the Chairman's proposals 
on climate change were to become law. The production of cement 
produces a lot of CO<INF>2</INF> emissions. A tight Cap and 
Trade program, such as the Boxer/Sanders Bill, will force most 
of our American cement production to go overseas, where their 
environmental procedures are not as good as ours. This will 
result not only in higher CO<INF>2</INF> emissions world-wide, 
but also higher costs for cement here in the U.S. and supply 
delays. This will mean our highway dollars will be stretched 
even thinner.
    SAFETEA provided $22 billion for the Highway Bridge 
program, and added the ability for states to use bridge funding 
on preventative maintenance. As we consider higher funding for 
bridges, we cannot forget that is only part of the solution. We 
also need to examine further programmatic changes that will 
improve our nations bridges and ensure that we get the most for 
our limited dollars.
    So, Madame Chairman, I hope this will be just one of many 
oversight hearings in the next year on the state of 
infrastructure and what needs to be done to address it. 
Reauthorization of SAFETEA is coming up quickly and if we are 
going to be prepared, we must start today.
    I want to welcome our witnesses today and thank them for 
taking time out of their schedules to share with us their 
thoughts. I am anxious to hear from the two Senators from 
Minnesota. Their insight, and perhaps frustrations, into how 
resources were pulled together to respond to the disaster will 
be most instructive to the committee. My own experience 
following bridge failure is that you are never too prepared and 
I know we can all benefit from what you learned.
    It is always a pleasure to hear from Secretary Peters. I 
know from personal experience that you are a critical partner 
in a disaster. So, thank you for coming and I am looking 
forward to your testimony.
    It is my hope that from both Secretary Peters and the 
Inspector General, Calvin Scovel, we will learn exactly what 
the classifications of structurally deficient and functionally 
obsolete does and does not mean and how the current program is 
designed to encourage states to address bridge maintenance and 
replacement.
    Finally, we will be hearing the state perspective from the 
Director of the Michigan DOT, Kirk Steudle and the nuts and 
bolts, so to speak, of building and maintaining bridges from 
Mark Hermann on behalf of the American Society of Civil 
Engineers.
    Again, thank you to all of our witnesses and I look forward 
to hearing what you have to say.

    Senator Boxer. Absolutely.
    Let us see. Do I have a list of order or arrival? If I 
don't have such a list, we will just start with Senator 
Lieberman.

  OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks very much, Madam Chairman.
    My sympathy, I suppose I would say, to Senator Klobuchar 
and Senator Coleman. I know how they feel.
    I remember in 1983, as some of you may remember, the Mianus 
River bridge on Interstate 95 near Greenwich, Connecticut, 
collapsed and three people were killed, three people were 
seriously injured but by fate, a twist of fate, we were 
fortunate this collapse happened sometime after midnight. So 
there were relatively few people on the bridge, but it could 
have been devastating if it had happened as it did in Minnesota 
at a busier hour.
    I will put my statement in the record.
    I just want to say very briefly that we have a problem, and 
I think what we really have to figure out how to do is to 
prioritize. We have a large number of bridges that are denoted 
now under the current system as structurally deficient. Within 
that, I know there is a rating system, and those rated under 
the 50 percent have special urgency to them. We have to react 
to that with a sense of urgency.
    In Connecticut, we have a number of bridges denoted as 
structurally deficient, but we have 12 bridges that are really 
in the urgent category, and a lot of people go over those 
bridges every day. We have to figure out, Governor Rell has put 
together State pot of money which she is prepared to invest in 
fixing those 12 bridges, but she needs Federal help to make it 
happen.
    I think we have to both identify the problem, figure out a 
system for prioritizing and then guarantee that there is a 
Federal funding stream to match the State effort to make this 
happen. This is a matter of necessity and isn't at all partisan 
as we see by the bipartisan response of our colleagues from 
Minnesota.
    So I thank you, Madam Chair and Senator Inhofe, for 
initiating this hearing, not just going on after this tragedy, 
because if we don't act with a sense of urgency, this tragedy 
is going to be repeated and none of us want that to happen.
    Thank you.
    [The prepared statement of Senator Lieberman follows:]

     Statement of Hon. Joseph I. Lieberman, U.S. Senator from the 
                          State of Connecticut

    Thank you, Madam Chairman.
    And thank you for holding this important hearing on the 
safety of our nation's bridges. I want to begin by extending my 
sympathy to the families who lost loved ones in the tragic 
Minneapolis bridge collapse last month. This awful event 
illustrates the need for strong federal leadership in the 
maintenance and repair of our transportation infrastructure.
    Some may recall the tragedy that happened in 1983, in my 
home state of Connecticut, when a 100-foot section of the 
Minaus Bridge on Interstate 95 near Greenwich, Connecticut 
failed, killing three people and seriously injuring three 
others. Fortunately, this incident happened in the very early 
morning and not at the height of traffic as it did in 
Minneapolis.
    The National Transportation Safety Board determined that 
water damage, due to drainage problems, was the cause of that 
collapse. At that time, Connecticut only had 12 engineers to 
inspect over 3000 bridges.
    12% of our nation's 600,000 public road bridges are 
classified as structurally deficient. I understand this number 
has decreased considerably since 1990, but we must not forget 
that our infrastructure--just like all of us--continues to age. 
With the majority of the nation's bridges constructed prior to 
1964 and over 90% of the average daily traffic crossing over 
interstate bridges, we need to increase our vigilance and 
maintenance to prevent this type of tragedy from happening 
again.
    Legislation such as the National Infrastructure Improvement 
Act, introduced by Senator Carper, which I was proud to co-
sponsor, is a step toward ensuring the safety of our bridges. 
It establishes a national commission to assess the current 
condition of our nation's infrastructure, the expenditures 
needed to maintain to it, and potential methods to finance 
these improvements and repair.
    The legislation also requires an examination of the impact 
of deferred maintenance on structurally deficient bridges. This 
is a question that needs immediate attention. While only 4.2% 
of Connecticut's bridges are classified as structurally 
deficient; Connecticut is ranked 17th amongst all states for 
the total average daily traffic that crosses theses structures 
placing approximately 2.6 million travelers in potential harm 
every day in Connecticut. If we continue to delay repairs for 
structurally deficient bridges, we may be treading on dangerous 
territory.
    Funding the repair of our nation's bridges is a contentious 
issue. According to the Department of Transportation, it would 
take $65 billion to replace or otherwise address existing 
bridge deficiencies across the country.
    In comparison, the federal government spent $75 billion for 
both highways and bridges in FY 2005. Clearly, we must add to 
that figure if we want to comprehensively address the 
widespread structural deficiencies that exist. I hope we will 
hear testimony today about how we can determine which bridges 
require immediate attention and repair.
    Strong federal leadership will be needed to maintain the 
critical network of highways and bridges which are vital to our 
economy. This Committee will play a central role in creating 
those policies. I commend the leadership Senator Klobuchar and 
Senator Coleman have shown in the wake of the Minneapolis 
bridge collapse and I look forward to working with them and the 
other members of this Committee as we begin to evaluate the 
state of our transportation policies and work toward the 
reauthorization of the federal highway bill next year.
    Thank you, Madame Chairman.

    Senator Boxer. Thank you so much.
    Senator Isakson. Thank you, Madam Chairman. I would ask my 
entire statement be submitted for the record.

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    I want to congratulate Secretary Peters on the outstanding 
job and the outstanding response in this terrible tragedy, and 
I think Senator Klobuchar and Senator Coleman have been 
exemplary in the way they have worked together in the Senate in 
response to this tragedy.
    As for myself, immediately I looked to my State when this 
happened. We have 9,000 bridges in Georgia; 1,100 of them rated 
structurally deficient; 1,700, functionally obsolete, which is 
not necessarily a safety issue but is a consideration. It is 
about $2.5 billion price tag.
    We have two bridges that are the deck truss systems, one of 
them on Highway 53, one of the most traveled bridges over Lake 
Lanier which is the largest reservoir east of the Mississippi 
River. So I think it is very appropriate that we have this 
hearing today.
    I think our departments of transportation are doing, in 
everything I can tell, an excellent job in the States of doing 
the inspections and looking for problems to correct them before 
they come. The problem is the volume. In Georgia, we have 9,000 
bridges, an average age of 36 years old.
    I think it is very appropriate that this Committee today 
look to creative solutions from a standpoint of finance as well 
as any recommendations the Secretary might have with regard to 
engineering so that hopefully a tragedy like this will never 
happen again.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you for your eloquent statement, 
Senator.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thank you, Madam Chair. I thank you and 
Senator Inhofe for holding the hearing.
    To Senator Klobuchar and Senator Coleman, thank you for 
suggesting that we do so. I want to echo the comments of 
Senator Isakson, how refreshing it is to hear the bipartisan 
way that the two of you have approached this issue in your home 
State, this tragedy.
    I believe it is essential as others have said this before, 
and I am sure others will say it after me. It is essential that 
we look at what is working in the Federal bridge program and, 
more importantly, what is not working in light of the tragedy 
that occurred in Minneapolis.
    As is the case with other types of infrastructure, it is 
often easier, maybe more popular to fund new roads and bridges 
than to maintain what we already have. Just think about this. 
When funding for a new project is freed up, newspapers write 
about it. There are ribbon-cuttings. TV crews show up to record 
it all. People like us show up to be on TV, and most everyone 
is excited about the new service.
    On the other hand, when maintenance is scheduled, lanes are 
narrowed or closed, detours are sometimes necessary and 
temporary inconvenience to commuters and travelers is likely, 
people like us don't show up and take credit for the 
inconvenience it has caused. In fact, the inconvenience and 
resulting traffic tieups are often the focus of the media and 
the community rather than the good that flows out of that 
maintenance work.
    About $4.3 billion is allocated to the highway bridge 
program each year for the replacement and rehabilitation of 
bridges. Sometimes this money is transferred to other road 
programs or, worse, not spent at all. It would be interesting 
for us to look at our respective States to see how much is 
actually transferred, Federal dollars that are transferred out 
of the bridge work, that can be funded legally, can be 
transferred legally to other transportation needs.
    I think in our State, we transferred about a year ago 
$28,000. I think in one State, the largest State that is 
represented here, they transferred in the same $120 million. I 
am sure there are different levels between different States, 
and each State has its own priority, but that is a lot of 
money.
    I think this raises questions, all this in its entirety 
raises questions about our priorities. Clearly, there are major 
demands for additional roads and bridges to meet the needs and 
growing needs throughout our Country.
    We have to keep in mind that when we are unable to build 
new bridges, at worst, people are inconvenienced. When we fail 
to maintain our existing bridges, people can die.
    I am happy to say that Delaware's bridge program is among 
the best in the Nation. Less than 3 percent of our bridges are 
structurally deficient and, of those, more than half are 
actually roadways that go over pipes, that most people wouldn't 
recognize as a bridge. Anyway, we have put a lot of emphasis on 
this and we are proud of the work that our Delaware Department 
of Transportation has done. None of our bridges that are 
deficient are on the national highway system.
    The U.S. Department of Transportation says that the average 
annual cost to simply maintain the highways and bridges at the 
current level for the next 20 years is--get this--$78.8 billion 
per year--$78.8 billion. That is not my number. That is the 
number from the U.S. Department of Transportation.
    At the same time, a report from the Texas Transportation 
Institute points out that traffic tieups cost the average 
traveler in the urban areas about 38 hours of their lives per 
year. That is not just transit time, commuting time. That is 38 
hours per year where they are not going anywhere. They are just 
sitting in their car, truck or van.
    For areas like Washington, DC, to fix the problem, the 
region will need to build some additional 218 mile lanes. That 
is staggering even if it is possible and it probably isn't.
    My friend, Senator Coleman, mentioned this in his remarks. 
My friend and our colleague, George Voinovich and I have called 
for the creation of a commission to look at the current State 
of our infrastructure and our need for additional investments 
and the factors that impact these needs. The commission would 
make recommendations to the next President and to the next 
Congress about the resources and policy changes needed to 
address all of these needs by 2009.
    Here, in this Senate, we passed that bill, the National 
Infrastructure Improvement Act of 2007. We passed it 
unanimously. We did so last month. I thank my colleagues for 
doing that.
    I hope the Senate will act expeditiously so that we can 
take a serious and comprehensive look at this important issue.
    This hearing is a good first step, Madam Chair, in looking 
at the State of our infrastructure, particularly our bridges, 
but we all know that we need to do more than just hold a 
hearing. We have to take serious look at our spending 
priorities and funding needs for all infrastructure, not just 
bridges but levees and water treatment, wastewater treatment 
and on and on, and not just in the wake of catastrophes like 
Hurricane Katrina and the collapse of I-35 West.
    After we have taken that serious look, we need to get 
started.
    I will close with this word. One of my friends has a church 
in Wilmington, Madam Chair. He likes to say to his 
congregation: It doesn't matter how high we jump up in church. 
The important thing is what we do when our feet hit the ground.
    On the heels of this tragedy, it is not a church, it is not 
a synagogue, but we are jumping high. The key is what are we 
going to do when our feet hit the ground.
    Senator Boxer. Thank you very much.
    I wanted to say that Senator Lautenberg, 2 days ago, held a 
hearing on the State revolving fund under water quality 
infrastructure. So we are moving on a lot of fronts, water, 
certainly WRDA, and we are going to move forward in every way 
that we can with the help of this Committee and the bipartisan 
support.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.

OPENING STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    I appreciate the opportunity to be here and to comment on 
this very important topic. Congratulations to Senator Klobuchar 
as well Senator Coleman for their fine work in a bipartisan way 
in the interest of all of the folks, not just of Minnesota but 
also America.
    Madam Chairman, I had been the Chair of the Transportation 
Committee in the State of Wyoming just prior to my selection to 
serve in the U.S. Senate, and we talked frequently about the 
issues, as Senator Carper, of bridges and highways. Our Wyoming 
Department of Transportation has estimated we could spend $3.5 
billion in current dollars just to bring our bridges and 
highways up to good condition.
    I agree with Senator Inhofe. We have to be able to 
prioritize the best way to do that.
    While bridges are certainly an important, critical 
component of our own State's infrastructure in Wyoming, really 
our No. 1 priority in terms of safety is maintaining Interstate 
80 in regard to the interState system which runs the whole 
length of the State, starting with the ports in San Francisco 
and Los Angeles, all the way across to Chicago and beyond for 
trucks as well as passenger cars across America. So while 
bridges are important, it is the entire, as Senator Carper 
said, the highways and the bridges.
    One size doesn't always fit all in rural States, and we see 
that certainly in Wyoming. So we need some flexibility and 
appropriate prioritization, as Senator Inhofe has said.
    I appreciate your holding this important hearing today. I 
look forward to working with you on the issue of bridges but 
also highways as we best prioritize these for all of our 
citizens.
    Thank you.
    Senator Boxer. Certainly, and in 2009 we have to write a 
new transportation bill. So 2008 is going to be used to debate 
these very questions, and we have a very serious job ahead of 
us.
    Senator Lautenberg, again thank you for your work on the 
water infrastructure, and we recognize you.

 OPENING STATEMENT OF HON. FRANK LAUTENBERG, U.S. SENATOR FROM 
                    THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you. Thank you very much, Madam 
Chairman, and we thank you for energizing this Committee. It 
isn't the Energy Committee, but this Committee has plenty of 
energy, and we thank you for your leadership there.
    We look at the tragedy that befell Minnesota, Minneapolis, 
and listen to our colleagues and our sympathies go out to the 
families that lost loved ones and that are still suffering from 
those who were injured in recovery.
    But each one of us has a State that we know where the same 
kind of problems exist. In my State, 34 percent of our bridges 
are structurally deficient, and we shouldn't wait for another 
bridge collapse to get going on what we have to do to fix 
whatever we can with the priority of the most dangerous first 
regardless of what formulas say.
    We have to look at what could happen in our own States, 
realize what it does not only to the terrible loss of life, 
injury, et cetera, but what it does to the economy. This 
situation cries out for help from the President of the United 
States.
    Repairing our bridges will cost nearly $10 billion a year 
for the next 20 years according to the American Society of 
Civil Engineers, and it is time that we reordered our 
priorities. The President recommends that we spend $3 billion a 
week in Iraq and tells us to prepare ourselves for a giant 
supplemental as well.
    Well, if you ask the American people where they think the 
importance of our spending is, they will tell you: Protect our 
families at home. Protect our economies at home. Protect our 
lives at home and, Mr. President, step up to this.
    When the transportation bill was proposed, the word came 
out from the White House. Rather repetitious, it said too much 
money, we are going to veto it. Then the President stood within 
a few days after the collapse and challenged the Congress to 
produce a bill that would give the Government the money to get 
on with fixing the bridges but that under a veto threat.
    There is a great deal of confusion here, but I think it is 
time for us to put our money where our bridges are.
    Thank you very much.
    Senator Boxer. Thank you, Senator, very much.
    Senator Alexander.

 OPENING STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM 
                     THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chairman. Thanks to you 
and Senator Inhofe for doing this.
    I have three quick points about money which is what the 
Senator from New Jersey was talking about.
    One, I would be interested to hear what Secretary Peters 
has to say about what Missouri is doing, and we ought to watch 
it because they have a plan to do all their structurally 
deficient bridges within 5 years in a way that avoids the 
inefficiencies of annual Federal funding but apparently costs 
about the same. So they are going to get done in 5 years what 
otherwise would take 20 years, and if that works and if it is 
true and there are no holes in it, we ought to make sure we 
don't stand in the way of it. It allows States to do that.
    I won't go into detail about it now, but I would be very 
interested in what the Federal authorities have to say, that 
Missouri would do its plan by using one-third of its Federal 
transportation funds over the next 5 years to pay for repairing 
all of its structurally deficient bridges. If it is good for 
Missouri, it might be good for other States as well.
    The second place to get the money is to remember that 
States have the ability to raise money to build bridges. When I 
was Governor, we doubled the gas tax in order for three big 
road programs and built some roads that the Federal Government 
usually helps pay for. We did it so we could recruit the auto 
industry, and now we have a third of our manufacturing jobs are 
auto jobs. So States have the capacity to fix bridges as well 
as the Federal Government.
    As far as money goes, the President can't appropriate any 
money. The Congress is the appropriator of money.
    Finally, I think we should look to see where we divert 
money from the Highway Trust Fund that ought to be going for 
roads and bridges and make sure we know what that amount is. 
This would be a good time to highlight that. Senator Carper 
mentioned that. We should know exactly what that dollar figure 
is and how far it would go to help do this before we raise 
further funds.
    Thank you very much.
    Just to say, Tennessee only has 6 percent of its bridges 
structurally deficient, but we have 1,200 bridges that are 
structurally deficient. So we may have more bridges per person 
than any State in terms of number although we don't have the 
most. We have a low percentage of structurally deficient 
bridges.
    Senator Boxer. Senator, I just wanted to ask you a 
question. At first, you said Missouri was going to fix their 
bridges with no Federal funds, and then you said they are going 
to use their Federal funds.
    Senator Alexander. I am sorry. If I said that, I was wrong.
    Missouri's plan is the legislature has approved offering 
for bid a contract to fix all their structurally deficient 
bridges, which are 800 bridges, over 5 years. Some private 
contractor would win that award, and Missouri would then 
reserve, it estimates, about one-third of its Federal funds, 
Federal transportation funds over that 5 years, pay for those 
bridges at the end of the 5-years. The contractor would also 
have a responsibility for 25 years of maintenance.
    So if I said that, I misspoke.
    Senator Boxer. Yes, you did, and I thought, wow, I never 
heard of a State telling us not to give money for bridges.
    Senator Alexander. No. They would use one-third of their 
money, but the advantage might be, if it works out the way they 
hope, is that they get it done in 5 years instead of 20 years.
    Senator Boxer. In other words, you want us to look at 
flexibility to the States.
    Senator Alexander. Yes, and we might learn something from 
Missouri about how to get this done in 5 years across the 
County instead of twenty.
    Senator Boxer. We might. Yes, it is a very attractive idea.
    Senator Sanders.
    Senator Sanders. Thank you, Madam Chair, and thanks for 
holding this important hearing.

OPENING STATEMENT OF HON. BERNIE SANDERS, U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    I think Senator Alexander is right. I think you have 50 
States in this Country. Some of them are innovative, and I 
think we should steal every good idea that we can.
    I speak not just as Vermont's Senator but also as a former 
mayor, and I know that I speak for people all over this Country 
who understand that we have enormous infrastructural needs.
    Madam Chair, it is important not just to segregate each 
particular part of the infrastructure. For example, we should 
also be talking about rail and the need for massive investments 
in upgrading our rail system in order to get large trucks, in 
many cases, off of our roads, off of our bridges because these 
huge trucks lead to the deterioration of our bridges and our 
roads. So I would hope that when we talk about infrastructure 
and the $1.7 trillion in need, we look at it in a comprehensive 
manner.
    I think the $64 dollar question here, unfortunately, which 
is going to be a lot more than $64, is how we raise the money 
that we need. I guess the Administration is talking about toll 
roads. Count me in as somebody strongly opposed to that as a 
regressive form of taxation. In rural States like Vermont, we 
have people who make $20,000, $25,000 a year, traveling 100 
miles to and from work, and I will not support them paying more 
in tolls.
    I think Senator Lautenberg is more appropriate in 
addressing where we might be able to get some of this enormous 
amount of money, and I think it speaks to not giving tax breaks 
to billionaires and not fighting an unnecessary war.
    The bottom line here is we are doing a disservice to our 
kids and our children when we simply delay investing in 
infrastructure. The reason that mayors and Governors look the 
other way is not because they don't know what is going on. It 
is that infrastructure is enormously expensive.
    As Senator Carper indicated before, it makes a lot of sense 
to do maintenance rather than allow your infrastructure to 
collapse and then you repair it. That is just dumb. It is like 
letting your car fall apart, your teeth fall apart.
    Maintenance makes sense, but mayors and Governors are not 
doing maintenance because they lack funding. We need to address 
this very difficult problem. It ain't going to be easy, and 
there will be differences, but we need to raise hundreds and 
hundreds of billions of dollars in a secure way so that cities, 
counties, towns, States know that they can go forward, build 
and maintain their infrastructure, not just bridges, wastewater 
systems, water plants, dams. We have enormous needs.
    I conclude simply by saying that when we do that, Madam 
Chair, you know what else we do? We then create a whole lot of 
good paying jobs in this Country. It makes a lot of sense to me 
to go forward in that way.
    Thank you.
    [The prepared statement of Senator Sanders follows:]

        Statement of Hon. Bernie Sanders, U.S. Senator from the 
                            State of Vermont

    As we consider the General Services Administration 
resolutions, I would like to thank the chair for her strong 
leadership and all of the hard work she does for this committee 
on this and many other important issues. Thank you.
    The Derby Line Port of Entry project will expand an already 
existing border station.
    This is very important to Vermont and the region as a 
critical gateway for commerce and travel and to ensure border 
security.
    Before we vote on the GSA resolutions, there is a point 
with the financing that must be clarified between GSA and the 
Vermont Agency of Transportation.
    The Vermont Agency of Transportation has notified GSA that 
it does not agree with the financing that GSA has stated in the 
prospectus for the Derby Line Port of Entry. GSA has 
miscalculated the funding it will receive from the state of 
Vermont and the matching funding that is required for the Derby 
Line Port of Entry project. A letter from the Vermont Agency of 
Transportation to GSA explains this matter in detail. I ask 
that the letter be entered into the record. [See page 111.]
    I support the position that the Vermont Agency of 
Transportation takes in its letters and I ask that the chair 
and the committee to support its position. I hope that this 
matter can be worked out in a timely manner with the General 
Services Administration.
    Thank you for your time and consideration on this important 
matter.

    Senator Boxer. Thank you so much, Senator.
    I was sorry that Senator Warner had to leave, but we are 
happy to see that the Hon. Mary E. Peters, Secretary of 
Transportation--please come forward--and the Hon. Calvin 
Scovel, Inspector General, U.S. Department of Transportation.
    Secretary Peters, we will put your whole statement in the 
record. If you could possibly finish in about 5 minutes, that 
would be good. We are looking for an overview here, and then we 
will move on to our second panel. So, welcome.

STATEMENT OF HON. MARY E. PETERS, SECRETARY, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Peters. Chairman Boxer, Ranking Member Inhofe and 
members of the Committee, thank you for the opportunity to be 
here with you today.
    Accompanying me is Bud Wright who is the Executive Director 
of the Federal Highway Administration in the seat behind me.
    America, as was discussed earlier, was stunned on the 
evening of August 1, 2007, when the I-35W bridge over the 
Mississippi River in Minneapolis collapsed. Numerous vehicles 
were on the bridge at the time and, tragically, there were 13 
fatalities and 123 persons injured.
    On behalf of the President, I would like to personally 
extend our deepest sympathy to the loved ones of those who died 
and to the injured.
    I also want to note that in my four visits to Minneapolis, 
the first being the morning after the collapse with Senator 
Klobuchar, Senator Coleman and Congressman Ellison, I have been 
very impressed and very inspired by the local response and the 
many very dedicated public servants from all levels of 
government to this terrible tragedy.
    We don't yet know why the I-35 bridge failed, and our 
Department is working very closely with the National 
Transportation Safety Board as it continues its investigation 
to determine the cause or the causes. In the interim, we are 
taking steps to make sure that America's infrastructure is 
safe.
    I have issued two advisories to States in response to what 
we have learned so far, asking States to reinspect their steel 
truss arch bridges and that they be mindful of added weight 
that construction projects and maintenance projects may place 
upon bridges, and I have asked our Department's Inspector 
General, Cal Scovel, who you will also hear from this morning, 
to conduct a very rigorous assessment of the Federal Aid Bridge 
Program and the National Bridge Inspection Standards. I have 
asked him to look at the relationship between the inspection of 
bridges, the ratings and then how money is spent or prioritized 
for those bridges.
    In the aftermath of this tragedy, some are calling for 
renewed focus on our Nation's highway infrastructure. I agree 
with such calls and applaud people including Minnesota Senators 
Klobuchar and Coleman and other members of this Committee who 
are truly thinking about the long term viability of the 
Nation's transportation system. It is imperative, however, that 
when determining what our future transportation system should 
look like, we actually focus on the right problem.
    Since 1994, the percentage of the Nation's bridges 
classified as structurally deficient has improved from almost 
19 percent to 12 percent. While we can and must do more to 
improve the quality of our Nation's infrastructure, it would be 
both irresponsible and inaccurate to say that the Nation's 
transportation system is anything but safe.
    Some say we are not spending enough on highways, roads and 
bridges. Other data suggest this argument couldn't be further 
from the truth. Federal Highway estimates that it would cost 
approximately $40 billion a year to maintain the physical 
condition of our Nation's highways and bridges and another $60 
billion a year to substantially improve that physical 
condition.
    In 2005, government at all levels spent far more, nearly 
$153 billion on highways and bridges, including over $75 
billion in capital investment to rehabilitate highways and 
bridges and to improve their operational performance.
    Under-investment is not causing the network to 
underperform. Our failure to correctly prioritize 
transportation investments is.
    The answer is not to spend more. It is to spend more 
wisely. Increasing Federal gas taxes and spending would likely 
do little, if anything, to address either the quality or the 
performance of our roads. Instead, we need a more basic change 
in how we analyze competing spending options and to manage 
existing systems much more efficiently.
    The gas tax also does little to directly address the 
growing cost of congestion and system unreliability. Indeed, 
the Government Accountability Office recently released a report 
arguing that gas taxes are fundamentally incapable of balancing 
supply and demand during heavily congested periods.
    Finally, it makes no sense to raise the gas tax at a time 
when we are rightfully exploring every conceivable mechanism to 
increase energy independence, to promote fuel economy in 
automobiles, to stimulate the development of alternative and 
renewable fuels and to reduce emissions. We should be 
encouraging States, States like California, States like 
Minnesota, to explore alternatives to petroleum-based taxes, 
not expand the Country's reliance on them by increasing the gas 
tax.
    The I-35W bridge collapse was both a tragedy and, as has 
been said by our Chairwoman, a wakeup call to the Country. Our 
Nation's economic future is tied in large part to the safety 
and the reliability of our transportation infrastructure. 
However, before we reach the conclusion that additional Federal 
spending and taxes is the right path, we must--we owe it to the 
American people--to critically examine how we establish 
spending priorities today with the money already sent to 
Washington by hardworking Americans.
    Madam Chairman, members of the Committee, I look forward to 
working with you to address these priorities and would be 
pleased to answer any questions that you may have.
    Thank you.
    [The prepared statement of Secretary Peters follows:]

   Statement of the Hon. Mary E. Peters, Secretary of Transportation
    Chairman Boxer, Ranking Member Inhofe, and Members of the 
Committee, I am honored to be here today. Accompanying me is Frederick 
G. (Bud) Wright, Executive Director of the Federal Highway 
Administration.
    America was stunned on the evening of August 1, 2007, when the 
Interstate 35 West (I-35W) bridge over the Mississippi River in 
Minneapolis, Minnesota, collapsed. Numerous vehicles were on the bridge 
at the time and there were 13 fatalities and 123 people injured. We 
extend our deepest sympathy to the loved ones of those who died and to 
the injured.
    We do not yet know why the I-35W bridge failed. Something went 
terribly wrong. Bridges should not fail, and no one who is using them 
responsibly should be hurt because of an infrastructure failure. Our 
Department is working closely with the National Transportation Safety 
Board (NTSB) as it continues its investigation to determine the cause 
or causes of this failure. In the interim, we are taking every step to 
ensure that America's infrastructure is safe. I have issued two 
advisories to States in response to what we have learned so far, asking 
that States re-inspect their steel deck truss bridges and that they be 
mindful of the added weight construction projects may bring to bear on 
bridges.
    Immediately upon learning of the collapse, at the direction of 
President Bush, I deployed a team, led by Federal Highway Administrator 
J. Richard Capka, to coordinate the Federal response on-site in 
Minneapolis. The morning of August 2, I was at the scene with them. The 
DOT team, including the continuous on-site support of the FHWA 
Minnesota Division Office and Deputy Federal Transit Administrator 
Sherry Little, is providing expertise in bridge engineering and 
construction, environmental assessments and planning, transit programs, 
and Federal contracting, to assist State and local officials in the 
recovery, debris removal, temporary traffic rerouting, and restoration 
of transportation services. This team is also working with the State to 
expedite the process for reconstructing the bridge. Administrator Capka 
continues to visit with officials in Minneapolis to ensure that 
progress is being made.
    Federal support has included a quick release of $5 million in 
Emergency Relief Federal-aid Highway funding to the State of Minnesota 
to initiate recovery operations. Those funds were made available the 
day after the disaster to help restore the traffic flow, to clear the 
debris, to set up detours, and to begin the repair work.
    President Bush signed legislation on August 6 authorizing $250 
million for the replacement of the bridge. The legislation also made 
available $5 million to reimburse Minneapolis for increased transit 
operations to serve commuters until highway traffic service is restored 
on the bridge. Fifty million dollars in Emergency Relief funds were 
released on August 9 to ensure the State's recovery efforts can proceed 
without delay. As the State completes the assessment of the total 
damage and the ultimate cost to replace this bridge, we stand ready to 
ensure that appropriate funding is made available to replace it. 
Indeed, with Congress' assistance, we are committed to making funds 
available to the State as they are needed to ensure that the bridge is 
rebuilt as quickly as possible.
    While not part of the emergency response funding, we have also 
provided an additional $13.2 million in immediately available transit 
funds in connection with our announcement of Minneapolis as an ``Urban 
Partner'' under our Congestion Initiative, a broad initiative for 
managing surface transportation in the Minneapolis area.
    The I-35W bridge over the Mississippi River in Minneapolis 
originally opened in November 1967 and became one of the critical 
facilities in a vital commercial and commuting corridor. The bridge was 
an 8-lane, steel deck truss structure that rose 64 feet above the river 
before its collapse. The main span extended to 456 feet to avoid 
putting piers in the water, which would have impeded river navigation. 
As of the 2004 count, an estimated 141,000 vehicles traveled per day on 
the bridge.
    FHWA is assisting the NTSB as they conduct a thorough 
investigation, which includes a structural analysis of the bridge. 
Within days of the collapse, development of a computer model based upon 
the original design drawings for the bridge began at FHWA's Turner 
Fairbank Highway Research Center in McLean, Virginia. This model can 
run simulations to determine the effect on the bridge of removing or 
weakening certain elements to recreate, virtually, the actual condition 
of the bridge just prior to and during its collapse.
    By finding elements that, if weakened or removed, result in a 
bridge failure similar to the actual bridge failure, the investigators' 
work is considerably shortened. While examination of the physical 
members of the bridge being recovered from the site provide the best 
evidence of why the bridge collapsed, the analytical model allows the 
evaluation of multiple scenarios which can then be validated against 
the physical evidence. This work is expected to take several months and 
my forensic experts have been on site continuously since the day after 
the collapse providing their expertise and assistance. We need to fully 
understand what happened so we can take every possible step to ensure 
that such a tragedy does not happen again. Data collected at the scene, 
with the help of the Federal Bureau of Investigation's 3-D laser 
scanning device, are being used to assist in the investigation.
    On August 2, the day after the collapse, I requested that the DOT 
Inspector General conduct a rigorous assessment of the Federal-aid 
bridge program and the National Bridge Inspection Standards (NBIS). The 
NBIS, in place since the early 1970s, generally requires safety 
inspections at least every two years for all highway bridges in excess 
of 20 feet in total length on public roads. Safety is enhanced through 
hands-on inspections and rating of components, such as the deck, 
superstructure, and substructure, and the use of non-destructive 
evaluation methods, and other advanced technologies. The composition 
and condition information is collected in the national bridge inventory 
(NBI) database, maintained by FHWA.
    The I-35W bridge has been inspected annually by the Minnesota 
Department of Transportation (MNDOT). The most recent inspection was 
begun by MNDOT on May 2, 2007. No imminent dangers were observed and 
MNDOT planned to continue inspecting the bridge in the fall following 
completion of construction work on the bridge.
    Federal, State, and local transportation agencies consider the 
inspection of our nearly 600,000 bridges to be of vital importance and 
invest significant funds in bridge inspection activities each year. We 
strive to ensure that the quality of our bridge inspection program is 
maintained at the highest level and that our funds are utilized as 
effectively as possible. The Inspector General will be monitoring all 
of the investigations into the collapse and reviewing our inspection 
program to decide and advise us what short- and long-term actions we 
may need to take to improve the program. Although we will have to wait 
for the NTSB's report before we can conclude if the inspection program 
played any role in this collapse, we must have a top-to-bottom review 
to make sure that everything is being done to keep this kind of tragedy 
from occurring again.
    In the aftermath of this tragedy, a necessary national conversation 
has begun concerning the state of the Nation's bridges and highways and 
the financial model used to build, maintain and operate them. It is 
important to understand that, while we must do a better job of 
improving the Nation's transportation systems, we do not have a broad 
transportation infrastructure ``safety'' crisis. We agree that the 
condition of our infrastructure requires on-going attention, but I want 
to emphasize that we will not allow the public safety to be put at 
risk. We would limit the use of a bridge or close a bridge rather than 
let the public safety be put at risk.
    Since 1994, the percentage of the Nation's bridges that are 
classified as ``structurally deficient'' has declined from 18.7% to 
12.0%. The term ``structurally deficient'' is a technical engineering 
term used to classify bridges according to serviceability, safety, and 
essentiality for public use. The fact that a bridge is classified as 
``structurally deficient'' does not mean that it is unsafe for use by 
the public. Since 1995 the percentage of travel taking place on roads 
that are considered ``good'' has increased from 39.8% to 44.2%. 
Overall, approximately 85% of travel takes place on pavement that is 
considered ``acceptable.''
    FHWA estimates that if we pursued a cost beneficial investment 
strategy, it would cost approximately $40 billion a year to maintain 
the physical condition of our Nation's highways and bridges and 
approximately $60 billion a year to substantially improve the physical 
condition of current roads and bridges. In 2005, Federal, State, and 
local governments together made over $75 billion in capital investment 
to rehabilitate highways and bridges in the U.S. and improve their 
operational performance. If we include operational, administrative, and 
debt service costs in addition to capital investments, the U.S. spent 
nearly $153 billion on highways and bridges in 2005.
    These infrastructure quality numbers should and can be improved 
with more targeted investment strategies, but it is inaccurate to 
conclude that the Nation's transportation infrastructure is unsafe. We 
have quality control systems that provide surveillance over the design 
and construction of bridges. We have quality control systems that 
oversee the operations and use of our bridges. And we have quality 
control over inspections of bridges to keep track of the attention that 
a bridge will require to stay in safe operation. These systems have 
been developed over the course of many decades and are the products of 
the best professional judgment of many experts. We will ensure that any 
findings and lessons that come out of the investigation into the I-35W 
bridge collapse are quickly learned and appropriate corrective actions 
are institutionalized to prevent any future occurrence.
    A more accurate description of our current and broader problem is 
that we have an increasingly flawed investment model and a system 
performance crisis. Many are calling for a renewed national focus on 
our Nation's highway infrastructure. And while I agree that our 
infrastructure models need to be reexamined, it is imperative that we 
actually focus on the right problem.
    When faced with an underperforming division, the response of any 
credible business organization is to assess the cause of 
underperformance and to implement policies and practices intended to 
reverse performance declines. In my assessment, the underperformance in 
the highway sector is fundamental, not incremental. In other words, 
increases in Federal taxes and spending would likely do little, if 
anything, without a more basic change in how we analyze competing 
spending options and manage existing systems more efficiently.
    Because tax revenues are deposited into a centralized Federal trust 
fund and re-allocated on the basis of political compromise, major 
decisions on how to prioritize investments--and thus spend money--are 
made without consideration of underlying economic or safety merits. The 
degree to which one capital investment generates more returns than a 
competing investment is the most basic question asked in virtually 
every other capital intensive sector of the economy. Yet, when it comes 
to some of our largest and most critical investments we make as a 
Nation--highways and bridges--there is virtually no analysis of this 
question. There is no clearer evidence of this failure to prioritize 
spending than the disturbing evolution of the Federal highway program. 
This program has seen politically-designated projects grow from a 
handful in the surface transportation bill enacted in the early 1980s 
to more than 6,000 enacted in SAFETEA-LU. The cost of these earmarks 
totaled $23 billion--a truly staggering figure.
    The real cost of these earmarks is much higher. Looking at a sample 
of various recent earmarks, we found that the Federal earmark amounts 
themselves comprised on average only 10% of the total project cost. 
Because of this, State departments of transportation will typically 
either delay the earmarked project indefinitely or re-allocate 
resources from higher priorities to fill the funding gap. In addition, 
earmarks present extra administrative burdens for States that must 
dedicate scarce personnel resources to managing lower priority projects 
that are subject to earmarking. In short, earmarks ripple through the 
entire Federal-aid program structure.
    In addition to earmarks, there are more than 40 special purpose 
programs that provide funding for projects that may or may not be a 
State or local priority. The statewide and metropolitan planning 
processes are comprehensive and inclusive, and a proliferation of 
categorical programs further reduces State and local ability to best 
use available funds to meet the priorities identified through those 
processes. As a former State DOT director, I have had first-hand 
experience with the difficulties created when Washington mandates 
override State priorities.
    While many of these investments may have worthy purposes, virtually 
no comparative economic analysis is conducted to support these spending 
decisions. No business could survive for any meaningful period of time 
utilizing a similar investment strategy. Not surprisingly, new economic 
literature reveals that the returns on our highway investments have 
plummeted into the low single digits in recent years.
    The Department is working with States to encourage them to 
regularly use benefit cost analysis (BCA) when making project selection 
decisions. Currently, approximately 20 States make some use of BCA, 
while 6 States use the technique regularly. The Government 
Accountability Office (GAO) recently conducted two studies to identify 
the key processes for surface transportation infrastructure planning 
and decisionmaking, with a particular emphasis on the role of economic 
analysis methods and the factors that affect the use of such methods.
    These studies are Highway and Transit Investments: Options for 
Improving Information on Projects' Benefits and Costs and Increasing 
Accountability for Results (GAO-05-172); and Surface Transportation: 
Many Factors Affect Investment Decisions (GAO-04744). The former report 
noted that ``the increased use of economic analytical tools, such as 
benefit-cost analysis, could improve the information available to 
decision makers and, ultimately lead to better-informed transportation 
investment decision making'' (GAO-05-172, p. 6).
    Among other reasons, GAO cited ``political concerns'' for why BCA 
is not more widely utilized in U.S. public sector surface 
transportation decisionmaking. GAO observed that a project may be 
important for a particular interest group or constituency even though 
it is not efficient from an economic standpoint. At a minimum, BCA 
would provide additional transparency to decisions that are less cost-
beneficial. Ideally, BCA would actually begin to prevent inefficient 
decisions from being made in the first place.
    GAO also noted that BCA results are rarely reviewed in light of 
actual project outcomes. In other words, not only is BCA underutilized 
in the project planning process, but it is also rarely utilized to 
assess the efficacy of previous investments. This is in stark contrast 
to typical capital investment models employed in the private sector. It 
is important that Congress and the Department work together to 
establish far more productive means to ensure that scarce resources are 
flowing to projects that benefit the public the most. BCA is likely to 
be one of our most effective tools to advance that objective.
    Moreover, since Federal transportation funding levels are not 
linked to specific performance-related goals and outcomes, the public 
has rightfully lost confidence in the ability of traditional approaches 
to deliver. Performance-based management can help establish and 
maintain accountability. As former Washington State DOT Secretary Doug 
MacDonald noted, ``transportation agencies need to demonstrate to 
taxpayers that they get a dollar's worth of value for a dollar's worth 
of tax.'' The use of performance measures, by helping to identify 
weaknesses as well as strengths, can improve the transportation project 
selection process and the delivery of transportation services.
    In addition to an insufficient performance and cost-benefit focus, 
the current gas tax-dependent model does virtually nothing to directly 
address the growing costs of congestion and system unreliability. 
Indirect taxes on gasoline, diesel fuel, motor vehicles, tires, 
property and consumer products--the dominant means of raising revenues 
for transportation--are levied regardless of when and where a driver 
uses a highway. This leads to a misperception that highways are 
``free,'' which in turn encourages overuse and gridlock at precisely 
the times we need highways the most. Consistent with the views of 
almost every expert that has looked at the issue, GAO recently released 
a report arguing that gas taxes are fundamentally incapable of 
balancing supply and demand for roads during heavily congested periods.
    The data simply do not lie in this case. Relying extensively on gas 
and motor vehicle taxes, virtually every metropolitan area in the U.S. 
has witnessed an explosion in traffic delays over the last 25 years. 
Meanwhile, in recent years, the increase in surface transportation 
funding has significantly outpaced the overall growth of non-defense, 
non-homeland security Federal discretionary spending. And, since 1991, 
capital outlays for surface transportation at all levels of government 
have nearly doubled. Economists have long understood the connection 
between payment mechanisms and system performance, but technology and 
administrative complexities limited the ability of policymakers to 
explore alternatives. Today, those barriers no longer exist.
    This is one of the main reasons that our Department has been 
strongly supporting States that wish to experiment with electronic 
tolling and congestion pricing. Nationwide, the majority of projects in 
excess of $500 million currently in development are projected to be 
financed at least in part with electronic tolls. In the middle of 
August, we announced Federal grants in excess of $800 million to some 
of the country's largest cities to fully explore the concept of 
electronic tolling combined with expanded commuter transit options and 
deployment of new operational technologies. Nationwide, the trends are 
encouraging.
    We believe that to the extent feasible, users should finance the 
costs of building, maintaining and operating our country's highways and 
bridges. It is increasingly clear that directly charging for road use 
(similar to the way we charge for electricity, water, and 
telecommunications services) holds enormous promise to both generate 
large amounts of revenues for re-investment and to cut congestion. 
Equally important, however, prices send better signals to State DOTs, 
planners, and system users as to where capacity expansion is most 
critical. Prices are not simply about demand management, they are about 
adding the right supply.
    Congestion pricing can also provide substantial environmental and 
energy benefits, conclusively demonstrated by recent evaluations of 
cordon-pricing programs in Stockholm and London.
    <bullet> In London, motor vehicle-related emissions of urban air 
pollutants declined by 13-15 percent in the year following the 
introduction of congestion pricing, while fuel consumption and 
emissions of the greenhouse gas carbon dioxide declined by 16.4 
percent.
    <bullet> In Stockholm, emissions of vehicle-related urban air 
pollutants declined by 10-14 percent, while fuel consumption and 
greenhouse gas emissions declined almost 3 percent.
    British authorities estimate that 46-87 percent of the reduction in 
fuel consumption and emissions are attributable to vehicles traveling 
at higher, steadier, and hence more efficient speeds. Urban air 
pollutant reductions are particularly valuable, because they reduce 
emissions inside large urban areas where large populations are exposed 
to the highest concentrations of pollutants.
    More than 40 percent of the vehicle miles traveled in the United 
States are driven in the 85 largest urban areas, and likely more than 
half of gasoline and diesel fuel consumption. Potential reductions in 
fuel consumption and emissions from congestion pricing programs in 
major urban areas could contribute to achieving our energy, 
environmental, and public health goals.
    While the traveling public's saving of time is the single largest 
benefit, gasoline savings could also help to offset the cost of tolls, 
and the potential environmental benefits could yield private and public 
health dividends.
    The current financial model is also contradictory to other critical 
national policy objectives. As a country, we are rightfully exploring 
every conceivable mechanism to increase energy independence, promote 
fuel economy in automobiles, stimulate alternative fuel development, 
and also to reduce emissions. President Bush has urged Congress to pass 
laws that will substantially expand our alternative energy capabilities 
and increase Corporate Average Fuel Economy requirements for 
automobiles and light trucks. The Federal Government should be strongly 
encouraging States to explore alternatives to petroleum-based taxes, 
not expanding the country's reliance upon such taxes.
    The current highway and bridge financial model also fails to 
provide strong incentives for technology development and deployment, 
particularly when contrasted to other sectors of the economy. It is 
imperative that we find more effective means to ensure that the rewards 
of a given advancement--for example, in extended life pavements or more 
sophisticated traveler information systems--can accrue in part to those 
firms or individuals that come forward with creative ideas. It is no 
coincidence that we are seeing a technology boom in markets that have 
pricing structures that reward innovation. Pricing infrastructure usage 
more closely to its true costs will not only reduce congestion and more 
appropriately target resources, it will also provide new incentives for 
innovation.
    Finally, from a Federal investment policy perspective, it is also 
important to understand that States may simply react to higher Federal 
spending by reducing their own spending. A 2004 GAO report entitled 
Federal-Aid Highways: Trends, Effect on State Spending, and Options for 
Future Program Design looked at this exact issue and found that 
``significant substitution has occurred and that the rate of grant 
substitution increased significantly over the past two decades, rising 
from 18 percent in the early 1980s to about 60 percent during the 
1990s--the periods that ISTEA and TEA-21 were in effect.'' The report 
also concluded that ``the structure of the federal grant system as a 
whole may encourage substitution.''
    The I-35W bridge collapse was both a tragedy and a wake-up call to 
the country. We have a duty to ensure a safe transportation system for 
all who use it. Moreover, our country's economic future is tied in 
large part to the safety and reliability of our transportation 
infrastructure. Before reaching the conclusion that additional Federal 
spending and taxes are the right approaches, we should critically 
examine how we establish spending priorities today. We need a data-
driven, performance based approach to building and maintaining our 
Nation's infrastructure assets--a process where we are making decisions 
based on safety first, economics second, and politics not at all. And 
we need an underlying framework that is responsive to today's and 
tomorrow's challenges, not those of the 1950s.
    I look forward to working with you and would be pleased to answer 
any questions you may have.
                                 ______
                                 
       Responses by Mary E. Peters to Additional Questions from 
                             Senator Boxer
    Question 1. During the hearing I expressed concern to Inspector 
General Scovel about a suggestion, which I heard in California, that 
the Department of Transportation change the term structurally deficient 
to something that sounds less alarming. Is the Department of 
Transportation considering changing the current terminology used to 
classify bridges? If so, what is the rationale for such a change?
    Response. The Department of Transportation is not currently 
considering changes to the terminology used to classify bridges; 
however, the Office of Inspector General and the Government 
Accountability Office are conducting thorough audits of our bridge 
program. Recommendations resulting from these audits will be carefully 
considered, including any recommended changes to current terminology 
that benefit the overall program. It should be noted that two of the 
technical program terms, structurally deficient and functionally 
obsolete, appear in 23 U.S.C. 144. These terms originated nearly thirty 
years ago for utilization by engineers who are closely involved in the 
administration of the Federal bridge program. Their meaning is well-
understood in the bridge engineering community.

    Question 2. Please provide a list of bridges on the National 
Highway System that have been closed or weight limited as a result of 
inspections that have taken place since the collapse in Minneapolis.
    Response. Following the collapse of the I-35W Bridge, the Federal 
Highway Administration (FHWA) issued an advisory for States to re-
inspect all steel deck truss bridges with fracture critical members 
(FHWA Technical Advisory 5140.27, issued on August 2, 2007). As of 
Wednesday, October 10, more than 96% of the reevaluations of steel deck 
truss bridges had been completed. From this national reevaluation, to 
date only three States have reported findings that required immediate 
action, and the States have taken appropriate actions to assure the 
bridges are safe for motorists.
    Currently, there are no bridges on the National Highway System that 
have been closed or had weight limit restrictions imposed as a result 
of inspections that have taken place since the collapse in Minneapolis.

    Question 3. In your oral testimony you mentioned that some 40 
programs are diverting funds away from core needs. Has the Department 
done any analysis of these programs that indicate they should not be 
supported? Please provide a list of the 40 programs, as well as an 
explanation for where the Department of Transportation stands on these 
programs.
    Response. Roughly 60% of the funding in the current Federal surface 
transportation bill is used for formula funds under the highway program 
that provide States the maximum flexibility to build, maintain and 
ensure the safety of highways and bridges. These programs include the 
Interstate Maintenance, National Highway System, the Highway Bridge 
Program, the Surface Transportation Program, the Highway Safety 
Improvement Program, the Congestion Mitigation and Air Quality Program 
and the Equity Bonus Program. The annual average authorized level for 
these programs under SAFETEA-LU, removing setasides and takedowns, is 
$30,777 million, or a little more than 60% of the overall SAFETEA-LU 
annual average authorization level of $50,540 million.
                                 ______
                                 
Responses by Mary E. Peters to Additional Questions from Senator Cardin
    Question 1. Does FHWA have enough bridge engineers in the Division 
offices? Has the number of engineers changed over the last few years?
    Response. We believe that FHWA has enough Division Bridge Engineers 
and Assistant Division Bridge Engineers in the Division offices. 
However, all of them have non-bridge related collateral duties that 
also require their attention.
    While the number of Division Bridge Engineers has been stable over 
the years, the number of Assistant Bridge Engineers has been reduced.

    Question 2. As part of their state oversight responsibilities, do 
the FHWA Division Office bridge engineers primarily conduct desk audits 
of state programs or do they have a robust field review program? Given 
the inevitable variability among state programs, how does FHWA assure 
that national standards are uniformly applied?
    Response. Each FHWA Division Bridge Engineer conducts a 
comprehensive annual review of all areas of his/her corresponding State 
Department of Transportation's National Bridge Inspection Standards 
(NBIS) Program, as required by FHWA administrative policy. The annual 
review covers State overall compliance with the NBIS as well as the 
quality of bridge inspection. The review normally consists of the 
following:
    <bullet> A field review of bridges to compare inspection reports 
for quality and accuracy;
    <bullet> Interviews with inspectors and managers to document NBIS 
procedures; and
    <bullet> An office review of various reports of data from the 
inventory to assess compliance with frequencies, posting, and data 
accuracy.
    FHWA assures that national standards are applied uniformly for all 
State departments of transportation by setting and updating national 
standards for the proper safety inspection and evaluation of all 
structures defined as highway bridges located on all public roads. 
These standards are updated periodically in the NBIS regulation, 23 CFR 
650 Subpart C.
                               background
    FHWA Division Bridge Engineers supplement the annual reviews with 
periodic in-depth review of specific parts of the State bridge program 
such as inspections of fracture critical members, underwater elements, 
scour, and movable bridges; inspection support of bridge management; 
the quality assurance program; follow-up on critical findings and 
recommendations; and special inspections, for example steel fatigue 
cracking or post-tensioning corrosion.
    The FHWA Resource Center (RC) assists in oversight by: (1) 
providing expert technical assistance to FHWA Division Offices and 
their partners; (2) assisting Headquarters program offices in 
development and deployment of new policies, technologies, and 
techniques; and (3) taking the lead in deployment of leading edge, 
market ready technologies. The RC also assists in coordinating and 
conducting bridge inspection peer reviews and program exchanges, as 
well as delivering and updating training.
    The FHWA Headquarters' oversight responsibilities include issuing 
bridge inspection policies and guidance; maintaining the National 
Bridge Inventory; monitoring and updating our array of bridge 
inspection training courses; collecting, reviewing, and summarizing the 
Division Office annual reports; and monitoring overall NBIS compliance.
                                 ______
                                 
       Responses by Mary E. Peters to Additional Questions from 
                           Senator Lieberman
    Question 1. Some may remember the tragic collapse of the Mianus 
bridge in my home state of Connecticut in 1983, in which three people 
lost their lives. Water build up, due to drainage problems, was 
eventually determined as the cause of that collapse. At that time in 
Connecticut, we only had 12 engineers to inspect over 3000 bridges in 
Connecticut.
    We found out, obviously after the fact, that Connecticut simply did 
not have enough engineers to inspect adequately and routinely all the 
state's bridges, particularly as these structures start to age and show 
evidence of wear and tear. In its final report after the Mianus 
collapse, the National Transportation Safety Board (NTSB) issued this 
top recommendation: ``Improve the quality of review of bridge 
inspection reports.'' I am concerned by Inspector General Scovel's 
findings that FHWA engineers are often stretched thin and cannot spend 
the bulk of their time on bridge inspections. One FHWA engineer 
reported he only spent 15% of his time on examining bridges.
    Do you agree with Inspector General Scovel's findings in this 
regard? What can be done to make sure our FHWA engineers have the time 
to focus on bridge inspection? Do the Division Offices, which exist in 
every state, need more personnel resources to fulfill their mission? I 
think this Committee genuinely wants to hear what the Department of 
Transportation needs to perform its duties comprehensively, so please 
tell us if you need more resources in this important area.
    Response. We agree that FHWA Division Office engineers involved in 
the bridge program have many responsibilities, including some non-
bridge related duties that also require their attention. The challenge 
is to identify the program areas that require the greatest level of 
oversight and to devote sufficient resources to those areas. Efficient 
and effective use of limited time becomes very important. In recent 
years, FHWA Division Offices have applied risk management practices to 
assist in targeting oversight resources to the areas of greatest need.
    FHWA continually seeks ways to improve our oversight of bridge 
inspection activities and to develop tools that facilitate this 
process. Examples include the recent development of standardized 
National Bridge Inventory data reports that enable our Division Offices 
to take a data-driven approach to targeting specific areas of the 
program that may need attention.
    Understand that it is the States, local governments, and other 
bridge-owning agencies who are responsible for actually staffing the 
inspections of bridges. FHWA's role is to ensure that adequate 
inspection programs are in place and that Federal inspection standards 
are followed. Under this arrangement, FHWA employees are effectively 
monitoring and overseeing the work of thousands of State, local, and 
other agency bridge inspection personnel.
    The ongoing Office of Inspector General and Government 
Accountability Office audits of the bridge program will likely evaluate 
the level of FHWA resources dedicated to oversight of the program. We 
will take action to address any resulting recommendations for 
adjustments in the resources devoted to bridge inspection program 
oversight by FHWA.

    Question 2. In your written testimony, you admit that ``we must do 
a better job of improving our nation's transportation systems.'' That 
being said, you also testified that ``we do not have a broad 
transportation infrastructure safety crisis.'' The I-35W bridge in 
Minneapolis was built in 1967, and over half of our bridges in the 
United States were built before 1964. As the opening statements of my 
colleagues have outlined, there are well over 6,000 National Highway 
System bridges that are structurally deficient. With these facts, I'm 
unsure how you are able to conclude that we do not have a 
transportation infrastructure safety crisis on our hands. Half of our 
bridges are close to 50 years old in this country, and we know that a 
significant number of them are classified as structurally deficient. We 
don't know how many of those older bridges are operating at 50%, the 
rating given to the Minneapolis bridge.
    Given these facts, do you still think that we do not have a crisis 
on our hands? Do you recognize the large task ahead of us to 
rehabilitate the most vulnerable bridges in our country in a timely 
manner?
    Response. It would be hard to overstate the importance of our 
transportation systems to the economic and social well-being of this 
Nation. Yes, we must do a better job of improving those transportation 
systems--that is what good stewardship is all about. It is imperative 
that we improve the safety of those systems, while reversing the 
decline in overall transportation system performance that is 
increasingly imposing costs on American families and businesses.
    Recognizing the need for improvement, however, does not mean that 
we have a transportation infrastructure safety crisis on our hands. 
Aging of infrastructure is an ongoing process, and requires ongoing 
attention--it is not something that can be ``fixed'' by an influx of 
funds. Billions of dollars each year are devoted to maintaining, 
rehabilitating, and replacing the infrastructure as needed. For 
bridges, SAFETEA-LU added systematic preventive maintenance as an 
eligible use of funds.
    Federal, State, and local transportation agencies consider the 
inspection of our nearly 600,000 bridges to be of vital importance, and 
invest significant funds in bridge inspection activities each year. 
Bridges are classified according to serviceability, safety, and 
essentiality for public use. The fact that a bridge is classified as 
``structurally deficient'' does not mean that it is unsafe for use by 
the public.
    As good stewards of both the safety and the tax dollars of the 
American people, what we need to do is very carefully examine the 
criteria used to determine which bridges are repaired or replaced. The 
C&P report estimates that approximately $8.7 billion will need to be 
spent annually for the next 20 years by all levels of government to 
keep the size of the bridge investment backlog from growing. Actual 
spending in 2004 was $10.5 billion, so we are making progress in 
reducing the backlog of bridge needs. The percentage of the Nation's 
bridges that are classified as ``structurally deficient'' has declined 
from 18.7% to 12.0% since 1994.
    We don't know yet why the I-35W bridge failed. When we do know, we 
will be able to make informed decisions about appropriate corrective 
actions to prevent a future occurrence. In addition to monitoring all 
of the investigations into the collapse, the DOT Inspector General is 
conducting a rigorous assessment of the Federal-aid bridge program and 
the National Bridge Inspection Standards and will be advising us on 
what short-term and long-term actions we may need to take to improve 
the programs. In the meantime, we are taking every step to ensure that 
our transportation infrastructure is safe.

    Question 3. Of course, the ten-ton elephant in the closet is how 
the federal government is going to fund a large-scale rehabilitation of 
our nation's bridges. While I know that a prioritization scheme is 
needed to identify the structures with the most eminent and critical 
need, I do not think we can simply fix the weakest links and ignore the 
rest with patchwork fixes. After all, the I-35W bridge in Minnesota was 
listed as structurally deficient since 1990. I know there are different 
numbers out there for the funding we need, and it may be that we need 
to wait until the FHWA and the states provide additional data on the 
costs to finance the repair of structurally deficient bridges. But we 
might as well start to talk about creating a dedicated funding stream 
that is available solely for NHS bridge reconstruction initiatives. It 
is not responsible to talk about solving this problem without figuring 
out a way to pay for it.
    From reading your testimony, Secretary Peters, I know that you are 
not a supporter--along with the President--of adding one or two pennies 
temporarily to the gas tax to fund these infrastructure improvements. 
Instead you advocate electronic tolling and congestion pricing. I 
understand these ways of generating funds are very important--perhaps 
even crucial--to the goal of reducing and controlling traffic 
congestion in the United States. Tolling can also send important 
signals about where we need to expand capacity. But I am uncertain how 
congestion pricing in New York, for example, will be used to fund a 
structurally deficient bridge in Minnesota, for example. Forgive me, 
but I am just trying to understand the connection between tolling and 
congestion pricing and raising the required funds for bridge 
improvements across the nation.
    Do you suggest that all NHS bridges should be required to institute 
tolling, and that part of the proceeds from such tolling will serve as 
a dedicated source of funding for a national initiative on bridge 
infrastructure? Can you explain the precise connection between your 
support of congestion pricing and tolling and the funding needed for 
comprehensively fixing our nation's deficient bridges? Would tolling 
quickly generate the $65 million needed to address current and 
widespread bridge deficiencies in this country? How would tolling 
ensure that bridges with the most acute problems are addressed first?
    Response. A necessary national conversation has begun concerning 
the state of the Nation's bridges and highways and the financial model 
used to build, maintain and operate them. As a Nation, we do, indeed, 
have a problem--one even larger than the ``ten-ton elephant.'' The 
broader problem is an increasingly flawed investment model and a system 
performance crisis in transportation.
    The transportation policies and programs we have relied on in the 
past are failing on multiple levels. They are failing to make efficient 
capital investments and allocate resources based on highest returns to 
the taxpayer and the customer. They are failing to sufficiently reward 
innovation and technology development. They are failing to align prices 
and charges with true costs.
    Charging directly for road use holds enormous promise both to 
generate large amounts of revenue for reinvestment and to cut 
congestion. The Government Accountability Office recently released a 
report saying that direct pricing of road use, similar to how people 
pay for other utilities, holds far more promise in addressing 
congestion than do traditional gas taxes. And thanks to new 
technologies that have eliminated the need for toll booths, the concept 
of road pricing is spreading rapidly around the world. What I advocate 
is for States to have the full range of options at their disposal to 
deal with the many challenges facing them. Tolling and congestion 
pricing are options and, in the right situations, can have dramatic 
economic, environmental, and societal benefits. But there is no one-
size-fits-all solution, and I do not advocate tolling as the only 
funding option for infrastructure improvements. I would note that use 
of tolling and congestion pricing where they make the most sense could 
reduce the demands on traditional funding sources.
    The National Surface Transportation Policy and Revenue Study 
Commission, established by Congress, is examining not only the 
condition and future needs of the Nation's surface transportation 
system, but also short- and long-term alternatives to replace or 
supplement the fuel tax as the principal revenue source to support the 
Highway Trust Fund over the next 30 years. Our transportation networks 
need improvement, but the challenge is not to simply spend more and 
more money. The key is to utilize Federal resources with an eye to the 
performance improvements that we urgently need. We need innovation and 
creativity. We should embrace real solutions, such as advanced 
technology, market-based congestion tools, private sector financing, 
and flexibility for State and local partners.
                                 ______
                                 
Responses by Mary E. Peters to Additional Questions from Senator Inhofe
    Question 1. As I mentioned in my statement, there are several in 
Congress that seek a tax on CO<INF>2</INF> emissions, such as the 
Chairman's proposed cap and trade bill. Given that infrastructure 
material costs, including those that emit CO<INF>2</INF> when produced 
like asphalt, cement and steel, have skyrocketed over the last decade, 
are you concerned that such a proposal would make our existing 
infrastructure funding crisis even worse?
    Response. Climate change requires an integrated response--
encompassing environmental stewardship, the security of energy supply, 
and economic growth and development. Since 2001, the United States 
Government has invested nearly $18 billion to develop cleaner and more 
efficient sources of energy.
    President Bush's ``Twenty In Ten'' plan to reduce U.S. gasoline 
consumption by 20 percent over the next 10 years will help ensure cost-
effective new technologies reach the market. With the U.S. 
Environmental Protection Agency and the U.S. Departments of Energy and 
Agriculture, the Department is cooperating to develop regulations to 
cut gasoline consumption and greenhouse gas emissions from motor 
vehicles. DOT has proposed legislation to reform the passenger car 
Corporate Average Fuel Economy Program (CAFE). If enacted, together 
with increasing the fuel economy standard for light trucks, this reform 
will reduce gasoline consumption by 5 percent by 2017.
    At the September Major Economies Meeting on Energy Security and 
Climate Change, the U.S. committed to work to agree on a new path 
forward to reduce greenhouse gas emissions in a way that does not 
undermine economic growth.

    Question 2. Visual and other low-tech methods may always have a 
role in bridge inspection. However, it is my understanding that the 
Minneapolis bridge was inspected not long before its collapse. While we 
don't yet know the reason for the collapse, it is clear that critical 
stress points in many bridges are shielded from view or unattainable 
for visual inspection. The inspection of connection details, wrapped 
cables, underwater foundations and other points could benefit from the 
utilization of high-powered imaging or other modern technologies. Given 
the decentralized nature of bridge and transportation programs, how 
does the Department plan to encourage the adoption of more modern 
inspection methods and technologies? Does the Department have the 
authority needed, or is legislative language required?
    Response. FHWA has developed a multi-faceted approach to 
encouraging the acceptance and adoption of modern inspection methods 
and technologies:
    <bullet> FHWA shares the results of completed research projects, 
and supports and facilitates technology and innovation deployment, 
through outreach programs and collaborative efforts with stakeholders 
ranging from the Transportation Research Board to State departments of 
transportation.
    <bullet> The FHWA Resource Center serves as a central location for 
obtaining highway technology deployment assistance.
    <bullet> Education and training programs are provided through the 
FHWA National Highway Institute, and modern methods and technologies 
are introduced through these training courses.
    <bullet> Demonstration projects and case studies that provide hard 
quantitative data can help to tip the scale so that stakeholders are 
willing to apply innovative technologies to long-standing safety and 
asset measurement and protection problems.
    Through these and other mechanisms, FHWA supports the development 
and implementation of innovative technology deployment practices and 
processes throughout the highway community.
    Taken together, these activities often encourage broad adoption of 
highway technologies by increasing stakeholder familiarity with new 
technologies. However, it is important to recognize that technology 
deployment is often slowed by residual uncertainties about performance, 
reliability, installation and maintenance costs; availability of the 
next generation of the technology; and the need for the necessary 
technical and physical infrastructure to support the technology in 
question. Additional legislative language cannot resolve most of these 
uncertainties.

    Question 3. There has been a lot of media attention lately on the 
infrastructure needs of our nation's bridges. In recognizing that 
tolling is not the right fit for all states, what innovative solutions 
can you offer to address these critical needs? Is the Missouri DOT's 
recent infrastructure financing initiative a model for similarly 
situated states to follow in addressing their own infrastructure needs 
and lack of funding?
    Response. To provide new sources of investment capital to finance 
our Nation's transportation infrastructure, SAFETEA-LU expands bonding 
authority for private activity bonds by adding highway facilities and 
surface freight transfer facilities as eligible activities for tax 
exempt facility bonds, up to a national cap of $15 billion.
    Within the $15 billion cap, the Department of Transportation has 
approved a $700 million allocation of authority to issue Private 
Activity Bonds for the Missouri Safe and Sound Bridge Improvement 
Project. The allocation will be made available to two shortlisted 
bidders who are competing for a contract to bring 802 of Missouri's 
lowest rated bridges up to satisfactory condition by December 2012 and 
keep them in that condition for at least 25 years. Bidders will compete 
largely on the basis of the lowest net present value of annual 
``availability payments'' they will accept to carry out the project. 
Missouri DOT will use Federal-aid formula funds to support the 
availability payments.
    This innovative financing approach will allow Missouri to make the 
most effective use of its Federal-aid formula funds and complete these 
much needed bridge improvements more quickly. Other States are 
examining this approach; we believe this is a useful model for other 
States to emulate.

    Senator Boxer. Thank you.
    Senator Warner, I would like to ask you for an opening 
statement because we were hoping you would do that.
    Senator Warner. Madam Chair, no, it is OK. Thank you.
    Senator Boxer. OK.
    Sir, welcome.

STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Chairman Boxer, Ranking Member Inhofe and 
members of the Committee, thank you for the opportunity to 
testify today on the Federal Highway Administration's National 
Bridge Inspection Program.
    The collapse of the Interstate 35W bridge in Minneapolis 
has heightened concern about the safety of our bridges 
nationwide. Along with the President and the Secretary of 
Transportation, I saw the wreckage firsthand, and I join with 
you and the Nation in mourning the lives that were lost.
    While it is the responsibility of NTSB to determine the 
probable cause of the Minneapolis collapse, my testimony today 
will focus on overall bridge safety inspection and is based on 
work done by our audit and engineering staffs over the past 3 
years including a detailed report issued last year. Our work in 
this area is continuing.
    I would like to briefly highlight three major issues. 
First, Federal oversight of bridge inspections and funding for 
bridge rehabilitation and replacement are and will remain 
significant challenges for DOT.
    Second, Federal Highways must continue its efforts to 
develop an approach to bridge oversight that is driven by data 
and based on risk assessment. This should allow better 
identification and targeting of those bridges most in need of 
attention.
    Finally, FHWA can take action now, today, that will 
strengthen the National Bridge Inspection Program.
    First, oversight and funding: The safety of our Nation's 
bridges which has been a high priority issue for 40 years 
depends upon a complex web of local, State and Federal 
activities. States are ultimately responsible for the safety of 
their bridges while FHWA oversees the States and provides 
expertise and guidance related to inspection, repair and 
maintenance.
    Bridges that are part of the national highway system, and 
there about 116,000, carry over 70 percent of all bridge 
traffic nationwide. About 5 percent of these or 6,100 are 
currently categorized as structurally deficient. The term 
``structurally deficient'' does not necessarily mean dangerous, 
however, since many bridges in this category can continue to 
operate safely if they are properly inspected and their maximum 
load limits are correctly calculated and posted.
    Our written statement includes a listing by State of the 
number of structurally deficient bridges in the national 
highway system.
    Congress has long provided States with funding to correct 
structural deficiencies. In 2006, $21.6 billion was authorized 
through 2009. However, the need for funding is great. The FHWA 
report issued in January of this year estimated that about $65 
billion could be invested immediately to address current bridge 
deficiencies.
    We will be evaluating funding issues as part of our ongoing 
comprehensive review of the Agency's oversight of the bridge 
program.
    Second, the importance of a data-driven, risk-based 
approach: As we reported last year, based on a statistical 
projection, more than 10 percent of the highway system's 
structurally deficient bridges may have had inaccurate load 
ratings. To combat such issues, we recommended that FHWA 
develop a data-driven, risk-based approach to address bridge 
problems most in need of attention.
    FHWA has initiated specific action to improve oversight of 
structurally deficient bridges which we commend. These include 
updating guidance to its engineers in its Bridge Program 
Manual, implementing new inventory reports intended to identify 
problem areas in load rating data and promoting greater use of 
computerized bridge management systems. Yet more is needed.
    As these initiatives advance, it is essential that FHWA, as 
part of its overall risk management process, ensure that its 
State Division Offices conduct rigorous and thorough 
assessments of potential risks related to load rating and 
posting practices. As of September 12, 10 Division Offices had 
identified load rating and posting practices as a high risk 
area. The Agency must now quickly follow up and ensure that 
actions to mitigate these risks are taken without delay.
    In addition, FHWA needs to reexamine the responsibilities 
and time constraints of its Division Office bridge engineers. 
In many cases, we found that the time that these engineers 
devote to bridge oversight is limited.
    Third, FHWA can immediately take action to strengthen the 
bridge inspection program. The Agency needs to be more 
aggressive as it moves forward. The success of its initiatives 
rests with its 52 Division Offices, and FHWA will have to 
monitor their progress closely.
    Actions that FHWA can begin to take now include:
    First, finalize and distribute the revised Bridge Program 
Manual to Division Offices as soon as possible and ensure that 
bridge engineers make better use of existing Federal and State 
data during compliance reviews.
    Second, identify and target those structurally deficient 
bridges most in need of recalculation of load ratings and 
postings, using a data-driven, risk-based approach.
    Third, as directed last February, ensure that division 
offices conduct rigorous, thorough assessments of potential 
risks associated with structurally deficient bridges and define 
how FHWA will respond to identified high priority risks.
    Fourth, identify and implement a process to determine the 
amount of Federal funds expended on structurally deficient 
bridges.
    Finally, our audit work on these issues will continue in a 
comprehensive way, focusing first on assessing the corrective 
actions that FHWA has taken in response to our March 2006 
report. Second, we will study several aspects of Federal 
funding for bridge repair including how effectively these funds 
are being used and what the funds are being used for, and, 
third, reviewing FHWA's oversight activities for ensuring the 
safety of National Highway System bridges.
    Chairman Boxer, this concludes my statement. I would be 
happy to respond to questions.
    [The prepared statement of Mr. Scovel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   Responses from Calvin L. Scovel III, to Additional Questions from 
                             Senator Cardin
    Question 1. In your testimony you assert that the Federal Highway 
Administration needs to develop ``a data-driven, risk-based approach to 
bridge oversight.'' I agree. Are there other programs within DOT that 
use such a risk-based, data-driven methodology? Are you familiar with 
efforts in other nations that may use such an approach?
    Response. Other modes in the Department have undertaken a data-
driven, risk-based approach. For example, our audit results since 1998 
have identified the need for the Federal Railroad Administration (FRA) 
to adopt a data-driven, risk-based approach to assist in targeting 
inspection and enforcement activities where they are most needed. In 
response to recommendations for a more data-driven approach in our 
February 2005 report on FRA's enforcement of railroad safety 
regulations, FRA launched its National Inspection Plan in May 2005. The 
Plan is an inspection and allocation program that uses predictive 
indicators to assist FRA in allocating inspection and enforcement 
activities within a given region by railroad and by state. We testified 
in May 2007, that since the plan was implemented in March 2006, it is 
too soon to tell exactly how effective these measures will be in the 
long term.
    The Federal Aviation Administration (FAA) has made progress in 
developing a data-driven, risk-based approach through the use of its 
Air Transportation Oversight System (ATOS). ATOS permits FAA inspectors 
to proactively use data (e.g., air carrier maintenance problems and 
past FAA inspections) to assess air carrier systems, determine where 
inspections should be focused, and shift resources in response to 
changing conditions, such as financial distress. As of October 18, 
2007, FAA had implemented ATOS at 110 air carriers; however, 8 carriers 
still need to be converted to the new system. FAA plans to complete 
this transition by the end of calendar year 2007.

    Question 2. Could you please tell the Committee what you think is a 
reasonable timeframe for FHWA to develop such an approach?
    Response. This will be a challenging undertaking for FHWA so it is 
difficult to estimate specific time frames. By way of comparison, the 
implementation of FAA's Air Transportation Oversight System (ATOS) has 
taken 9 years thus far. FAA plans to complete this transition by the 
end of calendar year 2007. One of the challenges has been providing 
adequate data analysis training to the inspector workforce to 
facilitate the transition from the traditional oversight approach to 
effectively using the ATOS approach.
    In particular, FHWA's challenge involves implementing an array of 
new initiatives and a change in FHWA's previous approach to oversight. 
To its credit, since last year, FHWA has taken steps to address 
deficiencies we had previously found. In April 2006, for example, FHWA 
convened a working group to evaluate options and make recommendations 
for action. Based on the work of this group, FHWA has initiated several 
specific efforts to improve oversight of load ratings and postings, 
such as directing Divisions Offices to incorporate an assessment of 
load rating and posting practices into FHWA's most recent risk 
management cycle. However, FHWA must be more aggressive in implementing 
initiatives that it has identified as being critical to improving its 
oversight of structurally deficient bridges, as well as identifying any 
other needed changes.
    In particular, FHWA needs to ensure the effectiveness of these new 
risk management initiatives and assess what other actions it could 
take:
    <bullet> As part of FHWA's risk management process, Division 
Offices are given the latitude to analyze, prioritize, and manage 
identified risks across their program areas. FHWA needs to take 
aggressive action to ensure that the Division Offices are conducting a 
rigorous and thorough assessment of potential risks associated with 
load rating and posting practices of structurally deficient bridges as 
part of the risk assessment process. FHWA should also ensure that these 
evaluations are completed by Division Offices and done in a rigorous 
and thorough manner.
    <bullet> Further, FHWA needs to ensure that, if a high-risk area is 
identified, the Division Office follows up with an in-depth review and 
conducts it in a timely and rigorous manner. The recent bridge collapse 
in Minneapolis has increased the urgency of making sure that any 
potential risks are identified and corrective actions taken 
expeditiously.
    Shortly after the August 1, 2007 collapse of the Interstate 35W 
Bridge, the Secretary of Transportation asked us to undertake an 
independent review of the National Bridge Inspection Program. As we 
evaluate the Program, we will make recommendations where appropriate 
for implementing a data-driven, risk-based approach.
                                 ______
                                 
  Response from Calvin L. Scovel III, to an Additional Question from 
                           Senator Lieberman
    Question. In your testimony, you argue that the FHWA should 
identify and target those structurally deficient bridges most in need 
or improvement and recalculation of load ratings and postings, using a 
``data-driven and risk based approach.'' All of the testimony here 
indicates that we must try to devise some sort of prioritization scheme 
for bridge and infrastructure repair. Can you provide the Committee 
with more details about your vision for a prioritization process? In 
other words, what variables do you think should be included in a risk-
based formula? How will the FHWA identify high-priority risks?
    Response. Examples of possible variables to consider for 
identifying bridges most in need of attention include bridges that have 
not had weight limits posted when warranted and bridges with 
deteriorating conditions from one inspection to the next, but have not 
had their load rating calculation updated. We will know more about what 
variables to include in a data-driven, risk-based approach as we 
perform our review of the National Bridge Inspection Program. The 
overall objective of our audit work is to make recommendations for 
improvement in order to provide assurance that FHWA is doing everything 
that should be done to ensure bridge safety. As part of this effort, we 
will conduct a comprehensive review of the National Bridge Inspection 
Program and develop a better understanding of what variables should be 
considered when implementing a data-driven, risk-based approach.
                                 ______
                                 
   Responses from Calvin L. Scovel III, to Additional Questions from 
                             Senator Inhofe
    Question 1. There is debate of whether we should give states 
greater flexibility in allocating resources, or increase the federal 
control of state programs. Do you think the current level of state 
flexibility is appropriate? How would the risk assessment model effect 
state flexibility?
    Response. Taking a risk-based approach does not necessarily affect 
state flexibility or require an increase in Federal control. It simply 
helps FHWA maximize the time and resources it spends overseeing bridges 
under the current National Bridge Inspection Program. Prioritizing 
resources in a risk-based manner is critical given the thousands of 
bridges that FHWA oversees and the limited time its engineers have 
available. A data-driven approach would help FHWA bridge engineers 
address the bridge problem areas most in need of attention. FHWA has 
undertaken several initiatives to make greater use of such an approach, 
although more aggressive action must be taken going forward.
    We will review the roles and responsibilities of FHWA and the 
states in the National Bridge Inspection Program as part of our 
comprehensive review of the Program. Another phase or our audit work 
involves a study of Federal funding provided to states for bridge 
rehabilitation and replacement. We will assess FHWA's management and 
tracking of such funding, the extent to which states effectively and 
efficiently use these funds to repair or replace deficient bridges, and 
whether states are using bridge funding for other purposes. We will 
take the results of these reviews into consideration when formulating 
any recommendations for improvements.

    Question 2. How do we improve the bridge rehabilitation and bridge 
inspection program to address the immediate needs of our nation's 
bridges?
    Response. Our review of the National Bridge Inspection Program 
includes several phases. One phase of our audit work will focus on 
assessing the corrective actions taken by FHWA to address the 
recommendations made in our March 2006 report related to load ratings 
and weight postings for structurally deficient bridges. Since last 
year, FHWA has initiated several specific efforts to improve oversight 
of structurally deficient bridges, including load ratings and postings. 
Another phase will involve evaluating FHWA's management of funding 
related to bridges. For example, we will be evaluating FHWA's efforts 
to develop a process to use National Bridge Inventory and financial 
management systems data to identify the amount of federal funds spent 
on structurally deficient bridges. We also plan to conduct a 
comprehensive review of the National Bridge Inspection Program. Going 
forward, we will be make recommendations for improvements in FHWA's 
oversight of the Nation's bridges as warranted.
    However, as noted in the written testimony, there are actions that 
FHWA can take immediately. FHWA should:
    <bullet> Identify and target those structurally deficient bridges 
most in need of recalculation of load ratings and postings, using a 
data-driven, risk-based approach.
    <bullet> Finalize and distribute the revised Bridge Program Manual 
to the Division Offices as quickly as possible and ensure that FHWA 
engineers make greater use of existing bridge data as part of the 
annual National Bridge Inspection Standards compliance review process.
    <bullet> Ensure that each of the 52 Division Offices conduct 
rigorous and thorough assessments of any potential risks associated 
with structurally deficient bridges, as directed in February 2007, and 
define how it will respond to any specific high-priority risks that 
Division Offices have identified.
    <bullet> Identify and implement a process to determine the amount 
of federal funds expended on structurally deficient bridges.

    Question 3. Could you offer recommendations on how to improve The 
Emergency Relief program?
    Response. Currently, we are not evaluating the program. Our audit 
work is focusing specifically on the National Bridge Inspection 
Program. However, in the aftermath of Hurricane Katrina, we assessed 
some aspects of FHWA's Emergency Relief program. In our 2006 audit of 
the Mississippi Department of Transportation's award of selected 
Hurricane Katrina emergency repair contracts, we recommended that FHWA 
revise and strengthen its Emergency Relief Manual and related Federal 
regulations to better assist states in awarding emergency repair 
contracts. We found that FHWA's Manual and related Federal regulations 
provide only limited guidance to states that need to award emergency 
repair highway construction contracts. Specifically, the Manual did 
not:
    <bullet> Prioritize each of the contracting methods available to 
states from the lowest risk (most preferred) to extremely high-risk 
(least preferred) as follows competitively bid, negotiated, cost-plus 
and negotiated, lump-sum contracts.
    <bullet> Identify the risks associated with each contracting method 
and develop essential criteria that state officials should consider 
before making emergency repair award decisions.
    <bullet> Advise states to limit the use of high-risk negotiated, 
lump-sum contracts and first consider less risky negotiated cost-plus 
contracts, if competition can not be reasonably developed.
    <bullet> Advise states of the procurement procedures that should be 
followed in order for FHWA to consider negotiated contracts eligible 
for Federal reimbursements.
    <bullet> Encourage states to use pre-negotiated emergency contracts 
that would allow state transportation agencies to issue task orders 
immediately in response to natural disasters and other unexpected 
occurrences.
    In addition, the Manual needs to be strengthened to adequately 
address the responsibility of FHWA's Division Offices during emergency 
circumstances. As written, the Manual does not clearly define the role 
of the Division Offices or describe the steps they will take to assess 
the reasonableness of negotiated contract prices or review the 
supporting documentation to justify Federal reimbursements for 
emergency repairs. Furthermore, the Manual does not describe how FHWA 
will minimize its participation in negotiated contracts if prices are 
not deemed reasonable.

    Question 4. Recognizing that bridge program money is distributed to 
states by a formula based on the number and level of bridge repairs 
needed; do you think that states may be ``gaming'' the system, to 
maximize their portion of bridge program money?
    Response. We have not performed sufficient audit work to determine 
whether or to what extent states are ``gaming'' the system to maximize 
their portion of the bridge program money. However, in one phase of our 
audit work we will evaluate FHWA's management of funding related to 
bridges. For example, we will be evaluating FHWA's efforts to develop a 
process to use National Bridge Inventory and financial management 
systems data to identify the amount of federal funds spent on 
structurally deficient bridges. As part of this effort, we will develop 
a better understanding of the roles played by FHWA and the states in 
the allocation of bridge program money and make recommendations for 
improvements if warranted.

    Question 5. What role is the Department of Transportation's Office 
of Inspector General playing at the site of the I-35W Bridge collapse?
    Response. We responded to the I-35W Bridge collapse in a manner 
similar to when we responded to Hurricane Katrina and the collapse of 
ceiling panels in a Central Artery/Tunnel Project tunnel. We sent OIG 
personnel to offer assistance to state and local authorities. For 
example, on August 2, 2007, the day after the bridge collapse, we sent 
an investigator to the accident site to make contact with local and 
Federal authorities.
    On August 3, 2007, in response to a request from the Secretary of 
Transportation, we outlined our planned audit work to review the 
National Bridge Inspection Program. Our work will be separate and 
distinct from the National Transportation Safety Board's investigation, 
which will focus specifically on the events and conditions that led to 
the Minneapolis bridge collapse.
    We have also received a request dated October 5, 2007 from 
Congressman Oberstar, Chairman of the House Transportation and 
Infrastructure Committee, to review the process used by the Minnesota 
Department of Transportation (MNDOT) in selecting a winning bid for the 
contract to rebuild the I-35W Bridge. On September 19, 2007, MNDOT 
announced that Flatiron Constructors, Inc./Manson Construction, a joint 
venture, had been selected as the apparent bid winner for the I-35W 
bridge project. Congressman Oberstar asked that our office provide a 
briefing on the results of our review no later than 45 days after the 
date of the request letter.

    Question 6. Could you provide any additional details on the status 
of FHWA's legal review of revisions to the Bridge Program Manual?
    Response. FHWA is revising the Bridge Program Manual to provide 
better guidance to Division Office bridge engineers conducting annual 
compliance reviews. The FHWA Bridge Program Manual has been revised to 
specifically define FHWA's expectations for the bridge engineers' 
reviews of load ratings and postings, including defining the minimum 
level of review. In particular, the revised manual states that bridge 
engineers should independently review Federal and state bridge data to 
determine how well load rating policies and procedures are being 
implemented.
    The Office of Bridge Technology is in the process of forwarding 
revised chapters of the Manual to FHWA legal staff for review in 
accordance with the Office of Management and Budget's Good Guidance 
Practices. This process began in July 2007. It is critical that this 
manual be finalized and distributed to Division Offices as quickly as 
possible to ensure that FHWA engineers have the guidance necessary to 
make greater use of existing bridge data.

    Senator Boxer. Thank you so much.
    Senator Inhofe has to leave early, so I have agreed that he 
can open up the questions.
    Senator Inhofe. OK, and I will make them quick. I won't use 
all my time. I only have three questions to start with 
Secretary Peters.
    I didn't read my entire opening statement for the sake of 
time, but in there I pursued a question I would like to have 
you give your attention to, and that is there are a lot of 
proposals right now that are on the table in terms of taxing 
CO<INF>2</INF> or cap and trades. Given that the infrastructure 
material--cement, asphalt, steel--they have been skyrocketing 
in the last decade, are you concerned as to what effect this 
might have on these materials and it could make the funding 
crisis even worse?
    Ms. Peters. Senator, that is a very good point.
    In fact, one of the advantages of the Missouri program 
which was talked about a few minutes ago is that we will build 
today, with today's dollars at costs that are substantially 
increasing over time, the improvements to those bridges. But, 
yes, sir, we remain concerned about the rapid escalation of the 
cost of construction materials and equipment.
    Senator Inhofe. I would like just for the record to have 
you go into some detail on this Missouri thing. I was listening 
intently to Senator Alexander. I am not really familiar with 
what they are doing. I think it is something we need to look 
at.
    Mr. Scovel, we talk about the bridge inspection. Of course, 
I have a major concern here because I said in my opening 
statement where Oklahoma ranks and we are concerned about that. 
Do you think that the divisional offices are really equipped to 
perform in a way that they should perform in accordance with 
your examination?
    Mr. Scovel. Sir, if I can look back to our March 2006 
report, we found that bridge inspections, the inspections 
themselves which are the responsibility of the States, were 
generally performed adequately, completely and accurately. It 
was the followup actions, some completed by the States and 
under the oversight of Federal Highway Administration Division 
Office bridge engineers, that led us to have concerns.
    We started with three individual States. We expanded our 
survey nationwide, and we concluded that bridge engineers in 
Division Offices had greatly limited time. In fact, one bridge 
engineer in one large State stated to us that he had perhaps 
only 15 percent of his time available to actually supervise the 
bridge inspection program. That should be a cause for concern, 
and we have recommended to the Federal Highway Administration 
that they reassess the prioritization of duties for their 
bridge engineers.
    Senator Inhofe. Well, those recommendations, I think, are 
very significant. I remember when we started out with three and 
then you were going to expand that nationwide.
    Last, Secretary Peters, you heard Senator Lieberman and 
several of us talk about prioritizing, and that is a tough one 
there. Do you have anything further that you did not mention in 
your opening statement about prioritizing?
    I would say that for either one of you but starting with 
Secretary Peters.
    Ms. Peters. Senator Inhofe, what I would recommend and I 
think it is the topic of what I have asked the Inspector 
General to look at very thoroughly is not only the inspection 
of bridges and when I am talking about bridges specifically but 
then how the data that is obtained from those inspections is 
used to prioritize bridge funds and whether or not recission is 
one of the tools that is used. Bridge funds are taken with a 
recission or transferred or diverted to other purposes.
    I would be interested in saying that those funds could not 
be diverted until the bridges were brought up to appropriate 
condition.
    Senator Inhofe. That is good.
    Any comments on that, Mr. Scovel?
    Mr. Scovel. Thank you, Senator.
    It is a matter of concern, we think. Two items 
specifically, first, that Federal Highways currently doesn't 
have a financial management system that can track Federal 
dollars to be spent on structurally deficient bridges. In 
response to the tragedy of August 1st and followup questions 
from my office and the Secretary and many other sources, 
Federal Highways is in the process of instituting that.
    Senator Inhofe. Very good, very good, very good.
    Well, just finally, Secretary Peters, judging from the way 
you performed in your immediate attention in Minnesota and what 
you did in Oklahoma, you are doing a great job, and I applaud 
you for it.
    Ms. Peters. Thank you, sir.
    Senator Inhofe. Thank you, Madam Chairman.
    Senator Boxer. Secretary Peters, I can now publicly thank 
you for coming to the East Bay area when we had our tragic 
overpass collapse as a result of a truck--you remember that--
crashing in such a way that the fire actually melted the 
infrastructure, a miracle in terms of the time and so on. But 
you came out there, and really I think the State and Federal 
Government worked together really well and got that up and 
running. It was again an example of your being very cool in a 
crisis and very supportive, and I appreciate that.
    In your testimony, you stated, we do not have a bridge 
safety crisis--that is what you said and that is what you 
wrote--and the Department of Transportation will not put the 
public at risk because ``We would limit the use of a bridge or 
close a bridge rather than let the public safety be put at 
risk.''
    Now the people who traveled across I-35W were put at risk 
and 13 people died. So what do you tell the American people?
    You are making a very clear statement: ``We would limit the 
use of a bridge or close a bridge rather than let the public 
safety be put at risk.''
    You didn't do that. So what are your plans? Do you have any 
plans to close bridges, to limit traffic?
    How can you say that everything is rosy when 13 people 
died? I don't get it.
    Ms. Peters. Chairman Boxer, you make a valid point.
    Senator Klobuchar said on the morning after the tragedy 
occurred, as we stood near the site, that bridges in America 
should just not fall and they should not.
    Every bit of data that we had prior to this tragedy 
indicated that there was not a safety issue with that bridge. 
That is precisely why I have asked the Inspector General to 
very thoroughly look at our bridge inspection program and how 
that data is used.
    Chairman Boxer, as I said, we don't----
    Senator Boxer. How was that bridge rated?
    Ms. Peters. That bridge was rated structurally deficient. 
It was rated an overall four, as Senator Klobuchar indicated 
earlier, and it was scheduled for----
    Senator Boxer. Four out of?
    Ms. Peters [continuing]. Four out of ten. I am sorry, nine, 
four out of nine.
    Senator Boxer. OK.
    Ms. Peters. In any event, Madam Chairman, we don't know 
what happened there. We have no indication to date that it was 
lack of inspection or lack of routine maintenance that caused 
the collapse, but again I do not want to speculate about what 
happened. We need to know.
    Senator Boxer. When do you think we will know?
    Ms. Peters. We will know within a year according to the 
NTSB, approximately a year. But, as I indicated in my written 
testimony, I am in close contract with Chairman Rosenker and 
NTSB and when they have given us data that would indicate that 
we need to act out an abundance of caution, I have done so.
    I have asked States to reinspect all similar bridges to 
this, and I have also asked States to be sure that if they are 
doing construction on these bridges to be mindful of the added 
weight, to calculate the load values, and that is an issue that 
the Inspector General mentioned. In conducting the inspections, 
you should also recalculate the load carrying capability of 
bridges following these inspections, and that is an area that 
he mentioned that we are putting emphasis on now today as well.
    Senator Boxer. As we sit here today, you haven't taken any 
action to do what you said you would do in your testimony. You 
said we would limit the use of a bridge or close a bridge 
rather than let the public safety be put at risk, and up to now 
you haven't found any bridge at risk so that you have to limit 
it or close it, is that correct?
    Ms. Peters. Chairman Boxer, I am sorry if I misinterpreted 
or missaid that. No, that is not correct.
    There are bridges today that are load-limited. There are 
bridges today that have been closed because they did calculate 
to a point that we felt that we either had to limit the loads.
    Senator Boxer. Could you do me a favor? Could you send me a 
list of the bridges since this horrific tragedy that you have 
either closed or limited and let me know each bridge? I am very 
interested to know the action you have taken.
    Ms. Peters. Madam Chairman, some of those bridges may have 
been closed or load-limited prior.
    Senator Boxer. I am talking about since the accident, the 
tragedy, the collapse.
    Ms. Peters. Will do.
    Senator Boxer. As you mentioned in your testimony, the 
Department of Transportation has estimated that $65 billion 
could be invested right now in a cost-effective way to repair 
current bridge deficiency. Where do you suggest we get that 
funding?
    Ms. Peters. Madam Chairman, that figure came from a report 
to Congress, the Condition Performance Report, the 2006 report, 
and it covered, it estimated the investment backlog to be $65.2 
billion for all levels of government. This estimate, while it 
is our most current, is based on data from 2004, stated in 2004 
dollars, and both the backlog and the bridge inventory have 
changed since that time.
    I would be happy to get you updated figures as near as we 
have them.
    Madam Chairman, I think what we need to do, as I said in my 
written testimony and in my oral statement, is we need to 
reprioritize where we are spending money today. Today, beyond 
the roughly six core programs that are devoted to highway and 
bridge use. We have overall some 40 programs where moneys are 
diverted away from these core needs and perhaps for very 
meritorious purposes.
    Senator Boxer. Could you send the Committee a list?
    I am asking you where we are going to find the money. You 
said $65 billion, not you but your Department found that in a 
study. I assume you are not attacking your own Department's 
study. So, if that is accurate, where do we get the funding?
    Now the 65 billion is all sources, so it is not all Fed 
funds. Let us assume it is about 50 percent Fed funds or a 
little more than that usually. It is about 80-20, wouldn't you 
say?
    Ms. Peters. Normally speaking, overall funding is about 40 
percent Federal and 60 percent State.
    Senator Boxer. OK, so 40 percent is what we have to look 
at. Where would you get it?
    You talked about the gas tax. I don't support raising the 
gas tax, so I don't know who you were aiming that at. But if 
there is a way to fix our infrastructure without money, I would 
like to know what it is short of having a Jimmy Carter-like 
organization come and get everybody together to do it and even 
that would require contributions.
    I will tell you something about this place that is really 
extraordinary. To get money for Iraq [snaps fingers] like that. 
To get money for Iraq's infrastructure [snaps fingers] like 
that. To get money for our infrastructure, for our people so 
they don't have to die on a road, oh, well, we really have to 
just prioritize.
    You cannot prioritize your way out of a problem. You cannot 
prioritize a way for this infrastructure. We need to do it. We 
are growing. So it is not just a question of a static 
situation.
    You yourself said it costs more. The contractors charge us 
more because the costs go up.
    Therefore, I guess what I need to tell you is that I just 
hope, I just pray that as a result of the Administration's 
attitude which appears to be now we can just prioritize our way 
out of it.
    You know someone actually said in my State: Here is the way 
we get out of this. We just take away structurally deficient. 
Don't use that term anymore. It scares people.
    I would like to ask Mr. Scovel. Is that going to solve our 
problem if we suddenly say that these bridges are not deficient 
and we use a new word? Would you support that, sir?
    Mr. Scovel. I would not support doing away with the term, 
``structurally deficient.'' It is a term of art used by bridge 
engineers and has a very specific meaning to categorize bridges 
that need special attention.
    I think it is confusing and somewhat misleading to the 
average American citizen who thinks structurally deficient 
equates to----
    Senator Boxer. Structurally deficient.
    Mr. Scovel. Yes, a bridge on the verge of collapsing and 
can barely support a bicycle.
    Senator Boxer. Well, you are looking at something over 
there. Structurally deficient? We don't know. Maybe it was 
caused by something else. We really don't know that. That is 
true. We will know soon.
    But the fact is if somebody tells me my home is 
structurally deficient, it might or might not be a four, a 
five, a nine, a one, or a two. It needs to be fixed.
    This is America in the 21st Century, so I think we just 
need to face reality here and not be willing to spend all our 
money in another country. That is as simple as it gets.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Secretary Peters, I just got here from the State Senate, 
but as Chairman of our State Senate Transportation Committee I 
attended a conference that you had at the White House actually 
in the Indian Treaty Room in, I think it was, February probably 
on the U.S. transportation system. We talked a lot about the 
Highway Trust Fund, some concerns we had in terms of its fiscal 
viability after 2009 or 2010.
    Different States have different needs. I look at that and 
say to myself, does it make sense to create a stand-alone 
bridge program when States already have some flexibility to 
prioritize, whether it is a bridge replacement or interstate 
pavement needs, and what is the best way to proceed?
    Ms. Peters. Senator, thank you for your attendance at the 
conference. I think what that conference highlighted for us are 
some problems, some systemic and fundamental problems with the 
way we fund infrastructure in the United States today, and I 
think that is partially the reason that we do have a backlog of 
maintenance needs.
    As was said earlier, I think Senator Carper said it, I have 
never seen anyone get misty-eyed cutting a ribbon on a 
maintenance project. Most people don't even want to show up at 
a maintenance project at all, and that is part of the problem.
    I think what we have to do is diversify the way we are 
collecting funds to support transportation in the future. The 
gas tax, while it has served us very well for the last 50 
years, I do not, in all honesty, believe it is viable, reliable 
nor sustainable for the future. So what we need to do is bring 
in new sources of funding.
    I truly believe that we will continue to need a level of 
public funding, especially for low population, high geographic 
area States like your State and like others as well. There are 
some cases where public-private partnerships, tolling or things 
like that simply will not work. So there has to be a measure of 
public funding.
    But I believe that there is a tremendous opportunity, as 
California has done, as my home area has done in the Phoenix 
area and others, to bring new revenues to the table--increment 
taxes, tax increment financing, taxes like they have in 
California to bring additional revenues to the table. In some 
cases, there are developer fees or a variety of ways to do that 
and to supplement the public funding, but I also believe there 
is tremendous, tremendous opportunity to track into private 
sector funding that is available to help us with our 
infrastructure needs.
    Senator Barrasso. Thank you.
    Ms. Peters. Thank you.
    Senator Barrasso. No further questions, Madam Chairman.
    Senator Klobuchar [Presiding]. Senator Carper.
    Senator Carper. Thank you, Chairwoman Klobuchar.
    Senator Klobuchar. That sounds nice for the next hour.
    [Laughter.]
    Senator Carper. It didn't take you too long to get there 
either. Eight months and you are running the show.
    Secretary Peters, you alluded to my earlier comments. You 
said that not many people get misty-eyed as a highway repair 
project or bridge repair project is undertaken.
    In my last year as Governor, I was running for the U.S. 
Senate. My last year as Governor and the year before that, we 
actually closed I-95 from Wilmington to the Pennsylvania line. 
We closed initially the northbound lanes, closed for about a 
month, and then we reopened them and closed the southbound 
lanes and diverted traffic.
    The folks that gathered around were very misty-eyed during 
that period of time because they thought that any chance I ever 
had for being elected to the U.S. Senate was being dissipated 
and that it was going to create such a calamity and traffic 
catastrophe that they would run me out of the State. As you can 
tell, it just never happened. Looking back, it was one of our 
proudest moments. I am very proud of it.
    Another thing that, frankly, people don't get misty-eyed 
over is when we raise the gas tax. Senator Alexander talked 
about raising the gas tax and his State is ready for some major 
transportation improvement projects. It has enabled them to 
attract a lot of automotive jobs in the auto assembly business.
    We raised the gas tax too. I am one who believes whether it 
is a gas tax or whether it is a user fee or whether it is a 
toll, roads, highways, bridges, transit, if they are worth 
having, we have to pay for them.
    I think that one of the things we need in order to be 
competitive in the 21st Century is strong infrastructure, and I 
also think for us to be strong in the 21st Century we need to 
pay for things that we believe that we need, so we don't just 
end up borrowing money from those folks over in China or Japan 
or South Korea, which is what we are doing these days.
    I have a couple of questions I would like to pose to 
Secretary Peters.
    Ms. Peters. I get the sense that you travel a lot in your 
job, is that true?
    Ms. Peters. I do, yes.
    Senator Carper. I have a friend who works for a company 
where he travels a lot too, and I asked him once. I knew his 
family lived in Connecticut. I said, where do you live, and he 
said I live in Seat 17B.
    My sense is that you probably have some weeks where you 
feel like you do that too. That is where you live. We 
appreciate your service. Thanks for coming back to the 
Administration.
    A question really for both you and Mr. Scovel: When a 
bridge is labeled as structurally deficient, that covers I 
believe a wide range of conditions. Could you just describe for 
me that range from the best to the worst conditions, please?
    Ms. Peters. Certainly, I will take the first cut at it and 
then, Cal, you can get more technical than I probably will.
    The ratings, Senator, rate from zero to nine or one to 
nine, rather in terms of the bridge and with nine being a good 
bridge, a bridge that is in very, very good condition and, of 
course, a one being a bridge that is very deficient. If a 
bridge falls below a rating of four, it is either load-
controlled or closed, in many cases, closed.
    Bridges begin to show signs of wear almost immediately 
after they are put into service. So when we say that a bridge 
is structurally deficient, it ranges somewhere within that 
criterion, and it means that it needs to be inspected more 
often. It needs to be repaired frequently. It needs to be 
monitored very, very closely. It does not mean, as was 
indicated earlier, that it is unsafe, but it does mean that it 
requires more attention.
    Our Federal Highway Administrator, Rick Capka, used shoes 
as an example. Perhaps if I use his example, it would make it 
easier to explain.
    Senator Carper. Another mode of transportation.
    Ms. Peters. Yes, yes. When a pair of shoes is brand new, it 
is a nine. It is in very good condition.
    But as soon as you begin to walk on those shoes, they begin 
to show some signs of repair or wear, rather, and will 
eventually need to be resoled or have things done to them in 
order to keep that pair of shoes wearable over time. They will 
still be wearable albeit you need to pay attention to them.
    If they are functionally obsolete, it means they are out of 
style. It doesn't mean there is anything wrong with them. It 
just means they are out of style. They don't meet current 
standards at all.
    Bridges, while categorized either structurally deficient or 
functionally obsolete, can be very, very serviceable and can be 
over a period of time, but they do need to be inspected. They 
do need to be repaired and monitored much more closely.
    Senator Carper. All right, thank you.
    Mr. Scovel. Thank you, Senator.
    Senator Carper. I don't know if it is possible to improve 
on that shoe example.
    Mr. Scovel. I don't think I can top that, and the Secretary 
gave an excellent response in terms of the rating system.
    If I could emphasize just a couple of points, and that is 
when a bridge is classified as a category four or below, its 
overall condition is poor. That means it is structurally 
deficient. That means, as the Secretary said, that additional 
inspections may be needed. In fact, in Minnesota for the I-35W 
bridge, that bridge was being inspected on an annual basis as a 
result of its structurally deficient status.
    When that occurs, certain followup steps after those 
inspections are required, and those are the load rating 
calculations properly conducted, of course, and repairs, 
posting to limit the maximum weight of vehicles on the bridge 
and perhaps even closing if neither of those methods will 
support safety interests.
    Senator Carper. All right, thank you.
    One last quick question if I could, in Congress and in the 
Administration, we segment governmental programs and duties 
into different committees and into different departments out of 
necessity, but sometimes because we do that we fail to see the 
whole pictures. That is why the Infrastructure Commission that 
Senator Voinovich and I have introduced along with the support 
of our colleagues, Senator Klobuchar and Senator Coleman and 
others, and why we look at all federally funded infrastructure.
    Here is my question: By way of example, what is the impact 
of roads and bridges on our stormwater system?
    Is there a way to build road to reduce that impact and that 
cost? If so, why isn't it standard practice or required by the 
Federal Government which often has to pay for the impacts of 
roads and bridges on our stormwater system?
    Ms. Peters. Senator, the impacts are calculated. When 
looking at improving or building a new road or a new bridge, 
the impacts on the flows are calculated and taken into 
consideration. In some cases, retention basins or detention 
basins are built to accommodate some of the flows or the 
runoffs.
    That is probably exhausting my knowledge on that specific 
topic, but I would be happy to get our structural engineer back 
to you on the record.
    Senator Carper. Mr. Scovel, do you want to add anything to 
that? Thank you.
    Mr. Scovel. I cannot, sir. We don't have any current work 
on those subjects.
    Senator Carper. We look forward to your written response 
and thank you for being here, testifying today. Thank you for 
your stewardship.
    Senator Klobuchar. Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Klobuchar. You are welcome.
    Senator Alexander. Thank you, Madam Secretary and Mr. 
Scovel for coming. I wanted to ask you about what Missouri is 
doing.
    Now, as I understand it, Missouri has about 800 bridges 
that are structurally deficient or functionally obsolete, and 
it would take about 20 years to bring all those bridges up to 
date, I am told, or up to standard.
    The Missouri Legislature approved a plan in August to let a 
single bid for all of those to be fixed over a 30-year 
contract. The bridges have to be repaired in 5 years, but the 
winning contractor then has to maintain those bridges for 
another 25 years. The contractor doesn't get paid until all the 
bridges are fixed. That is after 5 years.
    The cost, they estimate, is 400 to 600 million dollars, I 
am told. The Missouri Legislature believes that they can take 
about one-third of the Federal transportation dollars Missouri 
would receive over the next 5 years and pay that bill 5 years 
from now.
    Now if that turns out to be true, that would mean Missouri 
could fix, repair its structurally deficient or functionally 
obsolete bridges in 5 years instead of 20. That certainly helps 
in terms of safety for people who are served.
    I would also suspect that it would save a lot of money. You 
just mentioned the increasing cost of materials. There is the 
cost of use of four to six hundred million dollars over the 15 
years that it doesn't have to wait.
    I have some experience in Tennessee with this where we 
allowed a private contractor to build a building to 
specification without us interfering with it, and then he gave 
it. We bought it from him, in effect, got it done in about half 
the amount of time and a lot less cost.
    We have had the same experience at Oak Ridge National 
Laboratory where the government has allowed it, reluctantly, to 
have a private company build a building and then basically sell 
it to the government, according to specification.
    What is your thought about the Missouri plan and does it 
offer any promise for the rest of the Country and are there 
impediments in the Federal law or procedure that would make it 
difficult to do?
    Ms. Peters. Senator Alexander, thank you for the question.
    The project is called Missouri Safe and Sound Improvement 
Project and, as you indicate, it has a competition with a 
single award to bring 802 of Missouri's lowest rated bridges up 
to satisfactory condition. That would have to occur by December 
2012 and then keep them in that condition for at least 25 
years. The contractor, as you said, won't be paid until all 802 
bridges have been approved, and that again could be up to 5 
years out when they do that.
    What Missouri did was applied to us for a $600 million 
allocation of private activity bonds for this program to assist 
them in paying the successful contractor at the time. They will 
be paid what is called an availability payment, meaning the 
money will be paid to them as it is available through Federal 
and other revenues, to pay the contractor. The award is being 
based on the lowest cost of availability payment.
    We are allowing the State of Missouri to manage their 
cashflow in a manner that is beneficial to them.
    Senator Alexander. Before my time is all up, have you 
approved what they are doing?
    Ms. Peters. We have, and we think this is a very innovative 
idea. I am going to check, Senator. I believe that we were able 
to approve everything they did under existing statute. We may 
have used the SEP-15 process to move this forward, and I will 
check on that and get back to you, but I think it is marvelous.
    Senator Alexander. It is. The main advantage of this is 
that they don't have to be penalized by the inefficiency of the 
U.S. Congress in appropriating money. A big problem for States 
is that we mess around here and don't appropriate dollars, and 
they can't let their contracts. Is that right?
    So, in this case, they are able to go ahead and fix a price 
and tell the contractor: Here is the job. Have it done in 5 
years. If you do, we will pay you.
    Is that the main advantage?
    Ms. Peters. That is correct, and sir, they are using this 
private activity bond allocation as a line of credit, if you 
will. So if the Federal dollars aren't available when they need 
them exactly, they will have the wherewithal to pay the 
availability payments.
    But, at the end of the day, managing their cashflow in this 
manner, building the projects today or over the next 5 years 
instead of over the next 20 years can be done so significantly 
less costly and, as you said, the State then enjoys the 
improved bridges.
    Senator Alexander. Madam Chairman, I would like to ask, if 
I may, for the Inspector General to comment and then I am 
finished.
    I also would like to ask the Secretary to report back to 
Chairman Boxer and the Committee about the pluses and the 
minuses of this because if it turns out to work, the idea that 
we could fix all of the structurally deficient or functionally 
obsolete bridges within 5 years or so with one-third of the 
Federal transportation dollars that we already would spend 
would be very important for this Committee to know, and I think 
most taxpayers would like to know it as well.
    Ms. Peters. We will do so.
    Senator Alexander. Thank you.
    Mr. Inspector General and thank you, Madam Chairman.
    Senator Lautenberg. Madam Chairman, we are under time 
constraints here.
    Senator Klobuchar. If you could be quick, Inspector 
General, so that Senator Lautenberg can ask his questions.
    Senator Alexander. I will stay and watch your time, Senator 
Lautenberg, too.
    Senator Lautenberg. Shall I go ahead and let you continue 
your questions.
    Senator Alexander. All right, I will be glad to do that.
    Senator Lautenberg. Thank you very much.
    Senator Alexander. I will be glad to interrupt you when 5 
minutes is up.
    Senator Klobuchar. Senator Lautenberg.
    Senator Lautenberg. The rule is generally that we extend 
courtesy to one to another when we have a 5-minute time limit. 
I don't enjoy extending my time and I don't enjoy your 
extending yours.
    Senator Alexander. Madam Chair, his time hasn't started 
yet.
    Senator Klobuchar. Senator Lautenberg, I think Senator 
Alexander agreed to have the Inspector General answer his 
question when you have completed your questions, so if you 
could begin.
    Senator Lautenberg. Thank you.
    Secretary Peters, last week the Senate passed an 
appropriations bill funding all of your Department's Federal 
transportation programs including $6 billion in funds for our 
Nation's bridges and all of the DOT employee salaries. Now, 
when that bill is sent to the President's desk, are you going 
to recommend that he signs it?
    Ms. Peters. Senator Lautenberg, I have to look at the bill 
more thoroughly and analyze it, and we are in the process of 
doing so right now. We are in the process of finalizing the 
statement of administrative position, and that position will 
give you the opinion of the Administration on the overall bill.
    Senator Lautenberg. How long will that take?
    Ms. Peters. It won't take long, sir. I don't know exactly, 
but it will not take long.
    Senator Lautenberg. Madam Secretary, in your statement, 
there was a digression to discuss ways perhaps of reducing the 
bridge traffic and that is to support $800 million worth of 
funds to the Country's largest cities to fully explore the 
concept of electronic tolling. Does this come as a higher 
priority than bridge repairs?
    Ms. Peters. Senator, if I may, the conditions of the 
Nation's infrastructure, the physical condition of the 
infrastructure has improved slightly over the last decade or 
so. The actual operation of that infrastructure has declined 
significantly during that same period of time.
    For example, since 1993, we have doubled funding for 
transportation infrastructure adjusted for inflation. We have 
seen the condition of our bridges, the condition of our 
pavement, the ride quality of our pavements all improve albeit 
slightly but improved during that period of time, but we have 
seen the system performance, as measured by congestion, 
significantly decline--decline by an increase of 300 percent in 
congestion during that same period of time, and that was just 
validated by the Texas Transportation Institute report that was 
issued Tuesday of this week.
    So, yes, sir, I do think it was a high priority to use 
those discretionary dollars within the requirements of the 
statute for every dollar of those funds to award in a 
competition to five cities, urban partnership agreements to 
test concepts, innovative concepts for substantially improving 
the performance of our Nation's infrastructure.
    Senator Lautenberg. Madam Secretary, though we have a 
reduction in the number of bridges of concern, are we out of 
risk?
    Ms. Peters. Senator, I do not believe that we are in danger 
of a bridge collapsing, but as I said earlier I don't know what 
happened in Minneapolis. We don't know yet. We will find out, 
but we are continuing to improve those.
    Senator Lautenberg. Your statement is that we are out of 
danger of a bridge collapse.
    Ms. Peters. Sir, I do not believe that America's 
infrastructure is not safe. I believe America's infrastructure 
is safe, and I have taken steps in consultation with the NTSB 
as soon as I knew anything about what happened on the bridge in 
Minneapolis.
    Senator Lautenberg. Lord, I hope you are right.
    Ms. Peters. I do so.
    Senator Lautenberg. In your testimony that we should be 
taking a risk-based approach to bridge safety, should we 
revisit the Federal formulas as well to ensure that Federal 
funds for bridge repairs get to a system of priority perhaps in 
exchange for the formula structure that is there now?
    Ms. Peters. Senator, I do believe there are many ways we 
could improve the Federal funding formula and program today. As 
I mentioned earlier, in speaking to Chairman Boxer, I do 
believe that bridge funds should not be able to be diverted for 
other purposes unless a State can demonstrate that they have 
made or have a plan to make all of their bridges conform to the 
requirements and to the standards.
    Senator Lautenberg. Madam Chairman, consistent with the 
rules, I will finish with this and just note that the record 
should be kept open for written questions.
    Senator Klobuchar. The record will be kept open. Thank you, 
Senator.
    Senator Alexander, you and I discussed the fact you would 
have another 2 minutes to finish your questions.
    Senator Alexander. Thank you.
    If Senator Lautenberg is not through, I will be glad to 
wait until he does finish. I have time.
    Senator Lautenberg. No, thank you, kind sir.
    Senator Alexander. Thank you.
    Mr. Inspector General, I just wanted to make sure you had a 
chance to also comment on the Missouri plan. If it is 
appropriate for you to do so, when the Secretary reports to the 
Committee in writing about the strengths and the weaknesses of 
the plan, its progress, things we should know about it as we 
think about it in terms of other States, it would be helpful to 
us also to have your thoughts. Do you have any now?
    Mr. Scovel. Thank you, Senator.
    As the Secretary mentioned, she has asked us to undertake a 
comprehensive review of the entire bridge program. We are in 
the process of doing that. One phase of that will include 
funding, both Federal funding and questions like how 
effectively and efficiently States are using their funds and 
the ability of States to flex or divert funds from one program 
to another.
    We have not yet had an opportunity to study in detail the 
Missouri plan. However, we will do so, and we will be happy to 
provide information on it to you and the Secretary.
    Senator Alexander. Well, that would be a great help.
    I am not sure we Senators realize how much problems we 
cause States and I assume your Agency by not appropriating 
money on schedule. I hear from our Governor and our contractors 
in Tennessee that our failure here in Congress to appropriate 
dollars on schedule creates gross inefficiencies in the ability 
of the State to spend money wisely.
    If it is actually true that by doing what Missouri is doing 
we could take one-third of the money that we are appropriating, 
approximately, for Federal transportation purposes and fix 
every functionally obsolete or structurally deficient bridge, 
we should know that not just for this purpose but in terms of 
how we appropriate dollars here because that is a big waste of 
money. A big waste of Federal dollars. By our lackadaisical 
approach to the appropriations process, we create such gross 
inefficiencies in the spending of Federal highway dollars.
    So, thank you very much for your testimony.
    Thank you, Madam Chairman, for the extra 2 minutes.
    Senator Klobuchar. Thank you. Thank you, Senator.
    I will take a few questions here myself and then we are 
going to go on to our next panel.
    I want to thank you again, Secretary Peters and Inspector 
General Scovel, for coming to Minnesota so quickly and for 
working with us with so much detail about the quick response 
and the emergency response. As I said that day, bridges 
shouldn't fall in the middle of America, but when they do fall 
we have to rebuild them, and I appreciate your work.
    I was listening as some of the other Senators were asking 
you questions, Secretary Peters, about the categorization and 
the functionally obsolete versus the structurally deficient. 
You noted, I believe in response to some recent questions, that 
under four, you close a bridge. Is that correct?
    Ms. Peters. I am sorry, could close a bridge. Let me check 
with the staff if I could, please, to make sure I answer your 
question accurately.
    Madam Senator and Madam Chairman, two or below would mean 
that the bridge would have to be closed. A three would mean it 
would have to be load-controlled, meaning the load limits on it 
would be adjusted based on what the load capacity would be. A 
four means that it needs to be monitored more frequently, 
inspected more frequently, maintained more frequently.
    Senator Klobuchar. So the Minnesota bridge was one above 
having those load limits because we were a four.
    Ms. Peters. That is correct.
    Senator Klobuchar. Is that correct?
    Ms. Peters. That is correct.
    Senator Klobuchar. Do you know how many are fours versus 
threes?
    Ms. Peters. I will check and see if staff has that data. If 
not, we will get back to you on the record.
    Senator Klobuchar. I completely understand.
    Ms. Peters. Let us get back to you on the record if I 
might.
    Senator Klobuchar. All right.
    You understand my concern here. We all agree that not every 
structurally deficient bridge has to be fixed immediately but 
as we look at those numbers and we think of the word, load, and 
what that meant in this case. You have already issued some 
warnings across the Country about looking at the way the loads 
are balanced on the bridge. Would that be a fair way to say it?
    I am just so concerned that we were so close in looking at 
the system that is place, that we are doing everything we can 
to warn States and citizens when these bridges are on the verge 
of collapse.
    Ms. Peters. Senator, as I mentioned, we have taken data 
that I have received from the NTSB and discussions with the 
Inspector General and taken some immediate steps such as the 
advisories that went out, but I drove over that bridge just a 
few weeks prior. I know your home is in that neighborhood, and 
many people you know use that bridge. We need to find out what 
happened, and we are disturbed that we don't know that yet.
    Senator Klobuchar. I understand why it would take a while, 
and we want to do a thorough job.
    I do believe that some of the information, and I don't know 
why this happened or what the cause was, but there was clearly 
some concern at our department of transportation. There have 
been a lot of newspaper reports about this, Inspector General, 
about people trying to work on this and the idea that when they 
heard a bridge collapse, that many of them thought it was most 
likely this bridge.
    My questions are just about this inspection process and a 
little more thorough detail if you could give me on that. Is it 
sometimes just a visual inspection? What is the most refined we 
can get in terms of inspecting these bridges?
    I have had engineers in our State talk to me about can you 
put sensors in the girders so you can better figure out when 
there are problems and what can we do to improve this 
inspection process.
    Mr. Scovel. We are in the process of examining that. I will 
note for the record, I am not an engineer by training or 
education, so I am not personally qualified to speak to these 
matters. However, from the work of my staff, and we do have 
resident engineers on our staff, and have worked with the Army 
Corps of Engineers on prior bridge studies.
    They say that there is no substitute for eyes on the 
bridge. There are some technical aids that can be employed. You 
mentioned sensors. There are other very high tech 
methodologies, which the House T&I Committee has explored in a 
very recent hearing as well, to include seismic methodologies 
and so forth.
    All competent bridge engineers will tell you that what they 
need to do is walk the bridge themselves sometimes with some 
seemingly simple or perhaps even seemingly primitive methods. 
For instance, one that came to my attention recently was simply 
dragging a chain along the surface of the bridge in order to, 
by sound, detect differences in steel and deck structure and so 
forth.
    All of those methods put together will enable the bridge 
engineer to rate the bridge and what follows thereafter is 
critical. Our report in March 2006 found across the country 
that the inspections themselves were accurate and complete. 
Where we found deficiencies, however, were with the load 
ratings and postings.
    A moment ago you were discussing with the Secretary the I-
35W situation specifically and its structural deficiency rating 
of four. In fact, its load rating, I am told, was most recently 
calculated in December 1995. We don't know whether that was 
reexamined. Presumably the condition of the bridge deteriorated 
at least somewhat in the years after 1995, but I am sure that 
this is a matter that NTSB will want to examine and I don't 
want to tread on their territory.
    Senator Klobuchar. But as you look at this overall review 
that you are doing of the inspection process that the Secretary 
asked you to do, is the load rating part of this, that you are 
looking at improving that or making changes to that?
    Mr. Scovel. Absolutely, and I will note and commend Federal 
Highways already for its attention to this matter. They have 
instituted a number of processes to include the Bridge Program 
Manual and more data-driven approaches in order to focus on 
load ratings and postings. I trust that they are making 
progress in this area. However, the very first phase of our 
audit for the Secretary will examine Federal Highways' efforts 
along these regards.
    Senator Klobuchar. As we look at all the structurally 
deficient bridges, is there a better way to prioritize as you 
look at this going forward, which bridges should be fixed 
first? Is that part of what you are going to be looking at?
    Mr. Scovel. Yes, it will.
    Senator Klobuchar. One thing, Secretary Peters, you 
mentioned was that since 1994 the percentage of our national 
bridges that are classified as structurally deficient has 
declined from 18.7 percent to 12 percent. Is that right and 
what do you believe is the cause of that decline?
    Ms. Peters. I believe the cause of that is both additional 
funding that has been made available through the last two acts 
as well as devoting more funding to these specific bridges. 
That is part of what the Inspector General discussed earlier of 
a risk-based approach that we have been asking the Federal 
Highways division offices to undertake over a period of time.
    So their attention to this as well as the States having 
some additional money in the bridge program have allowed that, 
I believe, to improve and, certainly, we need to stay on top of 
that in the future.
    Senator Klobuchar. Do you think it is going to be possible 
to keep in that trajectory in the right direction when you are 
looking at the presumed Fiscal Year 2009 Highway Trust Fund 
deficit?
    Ms. Peters. Senator Klobuchar, you bring up such a good 
point, and that is something that I am concerned about. We know 
that the highway account of the Highway Trust Fund will go into 
deficit by Fiscal Year 2009. If we don't remedy that in the 
near term, that will result in a substantial reduction in 
payments to the States that they will have to use for 
infrastructure.
    I think it is both important that we remedy that in the 
near term but also that we look at the fundamental failures, 
the policy failures of the program as it exists today and make 
changes in the 2009 authorization that will position the 
program to be viable for the future.
    Senator Klobuchar. I appreciate that you are looking at 
that in a reinventing government way of ways to do better with 
the money that we have, and I think that is critical. But as we 
look at this deficit, I also think it is critical that we talk 
about the funding.
    You heard our colleagues up here talking about Senator 
Alexander and what they are doing in Missouri, other Senators 
talking about potential bonding programs that we are working 
on. I know that you have mentioned or maybe members of either 
party have mentioned toll roads before. Someone told me that is 
only 5 percent, is that true, of the funding right now.
    I just wonder as you see this deficit, no matter how you 
reprioritize and change these, make this work better, if you do 
see some need to funding if we have this deficit coming up.
    Ms. Peters. I do. I do believe that we have to increase the 
overall availability of funds for infrastructure across the 
broad range in our Country, and certainly my area of expertise 
is the transportation infrastructure, but I also very much 
believe that we have to diversity the type of funds that we 
bring in and move away from almost a total dependence on the 
gas tax. That is something that I very much look forward to 
working with you all on during the next year as we approach the 
next authorization period, about how we can bring varying 
sources of funding to the table.
    It is true that today only about 5 percent of overall 
funding is provided by the private sector. There is available 
substantially more money than that, but it won't work, as I 
said earlier, everywhere. It has to work where there are high 
volume and high levels of congestion, and we just need to look 
at diversifying from a variety of sources, not just one or the 
other.
    Senator Klobuchar. Thank you very much, and that is a good 
segue to our next panel where we are going to talk a little bit 
more about funding. We have a vote starting at 11:55, but 
hopefully we can maybe get through the testimony and then come 
back for questions or at least get through one of our 
witnesses.
    I thank the both of you. If we could call up our two 
remaining witnesses, Kirk Steudle who is the Director of the 
Michigan Department of Transportation and then also Mr. Andy 
Herrmann.
    Mr. Steudle, we will start with you. Did I pronounce your 
name correctly?
    Mr. Steudle. Actually, it is Steudle.
    Senator Klobuchar. Steudle, thank you.
    Mr. Steudle. I have grown up with that pronunciation.
    Senator Klobuchar. Believe me, with my name, I have had 
several mispronunciations. My favorite is what my own relatives 
say which is Klobutcher.
    [Laughter.]
    Senator Klobuchar. Mr. Steudle, you are with the Michigan 
Department of Transportation. You are testifying on behalf of 
the American Association of State Highway and Transportation 
Officials. So, please go ahead.

   STATEMENT OF KIRK T. STEUDLE, DIRECTOR AND CEO, MICHIGAN 
    DEPARTMENT OF TRANSPORTATION ON BEHALF OF THE AMERICAN 
   ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS

    Mr. Steudle. Thank you. Madam Chairwoman and Senators, 
thank you for allowing me the opportunity to testify today 
regarding the state of our bridges.
    As was noted, my name is Kirk Steudle. I am the Director 
and the Chief Executive Officer of the Michigan Department of 
Transportation. I also am a professional engineer, and I am 
here today on behalf of the American Association of State 
Highway and Transportation Officials, my colleagues across the 
Country.
    First, I would like to express my sympathy to the families 
who suffered because of the tragic bridge collapse in your back 
yard. Believe me when I say that as transportation 
professionals we take a tragedy like this to heart because we 
know that it could happen. Any of us could be in Minnesota's 
shoes and having to respond.
    Your work was done last week or you started it by voting to 
increase funding for the Federal Highway Bridge Program by a 
billion dollars, and we appreciate that. SAFETEA-LU increased 
funding for the Highway Bridge Program by a modest 6 percent, 
but the cost for steel, concrete, fuel and asphalt jumped 46 
percent from 2003 through 2006.
    More funding for bridges clearly is needed, but funding 
should be combined with long term data-driven management 
practices to give States the flexibility to maintain their 
network of bridges. I emphasize that because the rules that 
govern Federal Highway Bridge Program funding are not 
compatible with a comprehensive management approach.
    Now let me jump right to the recommendations and then come 
back to some of the whys. Specifically, we suggest that the 
Federal Highway Bridge Program be revised to allow full 
expenditure of bridge funds under a comprehensive management 
approach.
    First, eliminate the 10 year rule that prevents State DOTs 
from using Federal bridge funds on a bridge more than once in 
10 years so that they can pursue less expensive repairs that 
preserve the bridge before it deteriorates.
    Second, eliminate the 100 point sufficiency rating and the 
arbitrary cutoffs for eligibility. If a State has a bridge 
management program in place, it should be able to use the 
Federal funds on projects that it identifies as most 
efficiently preserving the bridge network.
    Now, if you need to keep this sufficiency rating, at least 
give us more flexibility. For example, the formula generates 
the sufficiency rating does not place much value on deck 
condition. As a result, States are not allowed to use Federal 
bridge funds to improve a poor deck if other elements such as 
the superstructure or substructure are in good condition.
    More than a third of my States' 608 structurally deficient 
are ineligible for Federal bridge funds because they have poor 
decks, and the deck alone is not able to qualify for the 
Federal funding. It is kind of like saying you can't spend 
money to fix the shingles on your roof until the moisture has 
damaged the drywall or cracked the foundation.
    Now here is why we make these recommendations. Many States 
find the funds so restrictive that they transfer some of their 
Federal bridge apportionment to other more flexible programs or 
use apportionment from other programs on bridges. For example, 
in the past 2 years, Michigan has spent less than 90 percent of 
our Federal bridge funds not because we weren't investing in 
bridges but because the rules for those funds were too 
restrictive.
    We set strategic goals for road and bridge preservation. We 
manage the bridge network by slowing the deterioration of good 
and fair bridges with capital preventative maintenance, and we 
have had to look beyond the Federal Highway Bridge Program for 
funding. MDOT added $75 million annually just for bridge 
preservation.
    We invest $190 million in bridges in the State of Michigan 
per year. A hundred million of that is Federal funds. Ninety 
million of that are State funds. So while we turn Federal 
bridge funds back, we substitute that and add on top of it, 
State funds.
    In fact, most States spend more money on bridges than is 
provided by the Federal Bridge Program. In 2004, the Federal 
Bridge Program provided just over $5 billion, but the total 
investment in bridges that year was well over $10 billion. 
State and local governments have made up the difference.
    More money is definitely needed but so is a new approach. 
In 1998, Michigan improved just over 100 structurally deficient 
bridges while at the same time we added 162 bridges to that 
list. Clearly, fixing the worst bridges first wasn't a winning 
proposition for us.
    We can keep bridges from deteriorating while systematically 
upgrading those in poor condition. As an example, today, 10 
years later, we have completely reversed those numbers. We are 
improving 145 bridges per year while we only add 86 to that 
structurally deficient bridge list as well.
    So, in conclusion, let me say funding for bridges is a 
great start, but it is only a start. The rules need to be 
revised, and we need to remember that bridges don't operate in 
a vacuum. Many structurally deficient bridges are on major 
freeways that also need a repair.
    Often, we cannot fix the bridges without doing major 
roadwork as well, and funding for all that roadwork is 
uncertain. Inflation has eroded our buying power, and the 
Federal Highway Trust Fund, as has been noted, is expected to 
have a shortfall of $4.3 billion in 2009.
    Additional bridge funding is certainly welcome, but please 
do not lose sight of the entire transportation funding picture. 
The same challenge exists for highways, railroads, airports, 
buses, ports.
    Thank you, Madam Chairman, Senators, for bringing this 
important discussion into the forefront for all of us to 
consider.
    [The prepared statement of Mr. Steudle follows:]

      Statement of Kirk Steudle, Director, Michigan Department of 
 Transportation and Member, American Association of State Highway and 
                        Transportation Officials
    Madam Chairwoman, Senators, thank you for allowing me the 
opportunity to testify today regarding the state of our bridges.
    My name is Kirk Steudle, and I am Director and Chief Executive 
Officer at the Michigan Department of Transportation (MDOT).
    First, I'd like to express my sympathy to the families who have 
suffered because of the tragic collapse of the I-35 W bridge. When a 
tragedy like this occurs, it ripples across the transportation 
industry. Believe me when I say that, as transportation professionals, 
we all take it very much to heart.
    The State Departments of Transportation (State DOTs) consider 
bridge safety and bridge preservation to be one of our highest 
priorities, and we take this responsibility to preserve the safety and 
mobility of the traveling public very seriously.
    Every state conducts a thorough and continual bridge inspection and 
rehabilitation program. America's bridges are inspected every two years 
by trained and certified bridge inspectors, conditions are carefully 
monitored, and, where deterioration is observed, corrective actions are 
taken.
    Of the almost 600,000 bridges across the country, roughly 74,000 
(or 12.4%) are classified as ``structurally deficient.'' This means 
that one or more structural conditions requires attention. This may 
include anything from simple deck repairs to reinforcement of support 
structures.
    Classifying a bridge as ``structurally deficient'' does not mean 
that it is unsafe. But it does mean that work is needed. The 
terminology of ``structurally deficient'' is not a description of the 
safety and strength of the bridge, it is a description created for the 
purpose of allocating federal bridge funds based on need.
    Last week, you and your Senate colleagues voted to increase funding 
for the Highway Bridge Program by $1 billion. While more funding for 
bridges is clearly needed, that alone will not get us where we need to 
be. Additional funding should be combined with sound long term data 
driven bridge management practices.
    I emphasize that, because federal road and bridge funding programs 
have not kept pace with the state of the practice of bridge management, 
and the rules that govern use of those funds are not always compatible. 
For example, in the past two years, MDOT spent less than 90 percent of 
its federal bridge funds, not because we weren't investing in bridges, 
but because the rules for those funds are too restrictive. They are not 
compatible with MDOT's asset management approach.
    AASHTO recently surveyed its members regarding what, if any, 
Federal government rules or regulations are standing in the way of 
states utilizing available federal funding for bridge preservation, 
maintenance or repair?
    The responses received from 35 states and the U.S. Forest Service 
indicate, in order of magnitude, the concerns:
    <bullet> Environmental (waterway and other)
    <bullet> HBP funds are too restrictive
    <bullet> Environmental (washing)
    <bullet> Ten-year rule
    <bullet> Environmental (painting and sanding)
    <bullet> Historic structure
    <bullet> Lack of local match
    <bullet> HBP funds needed for other bridge work
    <bullet> Inability to program funds from prior years
            michigan's asset management approach to bridges
    As part of its asset management approach, MDOT inspects its bridges 
more thoroughly and more often than required by federal law. We set 
strategic goals for road and bridge preservation. We manage our network 
of bridges, slowing their deterioration with capital preventive 
maintenance.
    In order to achieve our bridge goals, we had to look outside the 
Federal Highway Bridge Program. We made the choice to dedicate an 
additional $75 million annually in state funds, just for bridge 
preservation.
    An asset management approach keeps bridges from deteriorating, and 
systematically upgrades those in poor condition. In 1998, Michigan had 
21 percent poor bridges and we improved just over 100 structurally 
deficient bridges each year, and added about 162 other bridges a year 
to that list. Fixing the ``worst first'' was a losing proposition, 
because as we focused all our attention on the worst bridges, the other 
bridges were still deteriorating. We were in a hole we could not easily 
get out of.
    But today, as a result of our data driven asset management choices, 
we are making progress. We have completely reversed those numbers, 
improving about 145 bridges a year off the structurally deficient list, 
and adding only about 86 bridges a year to that list and are now down 
to 14 percent poor. This is a 30 percent improvement in bridge 
condition at a time when many of our original interstate bridges were 
approaching 50 years old.
                       greater flexibility needed
    Speaking specifically from MDOT's experience, I would like to 
recommend that you revise the Federal Highway Bridge Program to allow 
more flexibility for the expenditure of bridge funds using a bridge 
management system approach. To do this will require some specific 
changes:
    <bullet> First, eliminate the ``ten year rule'' that prevents state 
DOTs from using federal bridge funds on a bridge more than once in ten 
years, so they can pursue less expensive preventive maintenance and 
bridge repairs that preserve the bridge before it deteriorates.
    <bullet> Second, eliminate the 100 point sufficiency ratings and 
the arbitrary cutoff points for bridge fund eligibility. If a state has 
a management program in place, it should be able to use federal funds 
on the slate of bridge projects it identifies as most efficiently 
preserving the bridge network.
    <bullet> If you have to keep the sufficiency rating, at least give 
us more flexibility. For example, today states are not allowed to use 
federal bridge funds to improve a structurally deficient bridge deck if 
other elements, such as superstructure and substructure, are still in 
good condition. Let me give you a specific Michigan example. We have 
608 bridges listed as structurally deficient, 223 are due to the 
bridges having poor bridge decks--43 are very poor. This is over \1/3\ 
of the list and these are not eligible for highway bridge program 
funds. From a bridge management standpoint, this simply does not make 
sense, because a structurally deficient bridge deck actually 
accelerates the deterioration of other bridge elements. It's like 
saying you can't spend money to replace the shingles on your leaky roof 
until the moisture has destroyed the drywall or cracked the foundation.
                  state investment exceeds hbp funding
    I would like to use this opportunity to dispel a myth. Simply 
because states do not use Highway Bridge Program apportionments or 
because states transfer these apportionments to other more flexible 
Federal programs does not mean we are neglecting our bridges or that we 
will not make good use of additional bridge funding.
    In part for the reasons stated above, many states find the Highway 
Bridge Program to be so restrictive that they transfer some of there 
apportionments to other more flexible Federal programs, or simply use 
apportionments from other Federal programs so that funding can be spent 
on bridges in an effective manner.
    In the past years Michigan has indeed used apportionments from 
other Federal programs that offer more flexibility, such as Interstate 
Maintenance, National Highway System, and Surface Transportation 
Program to repair and maintain our bridges.
    Data indicates that states do spend dramatically more money on 
bridges than is provided under the federal Bridge Program.
    <bullet> In 2004 the federal Highway Bridge Program provided some 
$5.1 billion to the states.
    <bullet> That year, states actually spent $6.6 billion in federal 
aid for bridge rehabilitation. State and local funding added another 
$3.9 billion for bridge repairs.
    <bullet> As the FHWA reports, in 2004, a total of $10.5 billion was 
invested in bridge improvements by all levels of government.
    <bullet> This pattern was the case in the years prior to and since 
2004.
                   structural deficiencies declining
    The U.S. Department of Transportation reports that states have 
reduced, by almost half, the number of structurally deficient bridges 
on the nation's highway system since 1990. In 1990, there were 137,865, 
and in 2007, there are 72,264. This is a nation wide reduction in 
structurally deficient bridges from approximately 24 percent to 12 
percent--despite the fact that traffic has grown markedly on Interstate 
and other arterials over the past decade and the fact that the nation's 
bridges are aging. According to the National Bridge Inventory, 173,000 
bridges are more than 50 years old, and 359,000 are 30 to 50 years old. 
The great preponderance of deficiencies occur on these aging bridges.
    The reduction in structural deficiencies nationwide reflects a 
long-term commitment of the state and federal governments to bridge 
safety, and we are proud that this progress has been made. The 
reduction in deficient bridges has even outpaced improvements in 
congestion, safety, and pavement deficiencies. However, a huge backlog 
still remains.
    Preserving the condition of the nation's bridges also reflects the 
preventative maintenance programs that have been implemented by the 
states. The Safe, Accountable, Flexible and Efficient Transportation 
Equity Act--a Legacy for Users (SAFETEA-LU) requires that states must 
undertake systematic bridge preservation in order to use HBP funding 
for preventative maintenance. However, that requirement has been 
applied inconsistently by federal officials in terms of what is 
required of the states.
    Responding to the AASHTO survey question ``Does your state have an 
FHWA approved systematic preventative maintenance program for 
bridges?'' more than half indicated that such a plan was either 
approved or under development.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Note--of the 15 states that stated that they did have a federally 
approved bridge maintenance plan, three (3) stated that they still used 
state funds exclusively for bridge maintenance, and four (4) states 
only use HBP funds for joint replacement and/or bridge painting.
    are current bridge funding levels adequate for the job at hand?
    According to U.S. DOT's 2006 Conditions and Performance Report, the 
backlog of needed repairs on National Highway System bridges alone 
total over $32 billion, which includes over $19 billion needed on 
Interstate Highway System bridges. Structurally deficient bridges on 
the National Highway System only represent one-tenth of the total 
number of structurally deficient bridges on the U.S. road network. As 
wear and tear on our nation's infrastructure continues, it will only 
continue to increase the needs in coming years.
    The Safe, Accountable, Flexible and Efficient Transportation Equity 
Act--a Legacy for Users increased guaranteed spending levels for 
transportation by 38 percent over the previous bill. For the Highway 
Bridge Program, SAFETEA-LU gradually increased annual funding levels 
for the Highway Bridge Program by a modest 6 percent over the life of 
the bill (from FY 2005 to FY 2009).
    Far outpacing that increased funding have been dramatic increases 
in materials costs for steel, concrete, fuel, asphalt. States report 
that prices jumped 46 percent over the years from 2003-2006. In 
addition, the Conditions and Performance report attributes increases in 
the ``cost to maintain highways'' to the rising cost of construction in 
large urbanized areas due to environmental mitigation and construction 
strategies (such as night work) intended to reduce the impacts of work 
zones on users.
    Aside from the well-documented dramatic increases in construction 
costs, there have been equally dramatic increases in traffic, 
especially heavy trucks, on the nation's major highways. Today, the 
average mile of Interstate highway carries 10,500 trucks per day. By 
2035, that number is expected to more than double to 22,700 trucks per 
day.
    Thus, we are left with a system that has challenges to meet, and a 
program that does not have enough funding to overcome the current 
backlog.
    In conclusion, let me say that a short-term infusion of funding 
into the bridge program is a good start, but I strongly encourage you 
to remember that the same challenges that exist for the bridge program 
exist for the entire transportation system. They just have not been as 
visibly and tragically demonstrated.
    Bridges are tied to the roads they connect. Many structurally 
deficient bridges are on major freeways that also need repair. In many 
cases, we can not just fix the bridge without doing major road work as 
well.
    And funding for that road work is uncertain. Inflation has eroded 
the buying power of the federal motor fuel tax. The Federal Highway 
Trust Fund is expected to have a shortfall of $4.3 billion in 2009. As 
you consider the need for bridge funding, I encourage you not to lose 
sight of the entire transportation funding picture.
    Thank you, Chairwoman Boxer, for bringing this important and 
necessary debate on the state of our bridges to the forefront.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Responses by Kirk T. Steudle to Additional Questions from Senator 
                                 Cardin
    Question 1. In your written testimony you mention that a number of 
AASHTO members have identified ``environmental issues'' as a concern. 
Specifically, you mention compliance with the Clean Water Act, the 
Clean Air Act, and the Resource Conservation and Recovery Act (RCRA). 
You write ``It is questionable if these [Clean Water Act] actually 
help.'' That is a serious assertion. Do you have any data to suggest 
that regulations relating to the Clean Water Act are not helpful?
    Response. Please allow me to clear up any misunderstanding that may 
have prompted these two questions. The statements about the Clean Water 
Act (CWA) and the Clean Air Act (CAA) to which Senator Cardin refers 
were included in my written testimony as an attachment provided by the 
American Association of State Highway and Transportation Officials 
(AASHTO). The attachment provided a sampling of comments from other 
AASHTO member states, offered in response to a survey conducted in 
early September with regard to the use of bridge funds and the 
impediments thereto. The two sample comments regarding the CWA and CAA 
requirements did not come from my department.
    The Michigan Department of Transportation (MDOT) does not see the 
requirements of the CWA and the CAA as barriers to the use of federal 
bridge funds in Michigan. MDOT firmly follows appropriate practices in 
response to the environmental regulation, and works well with its 
partner agencies on those issues.
    However, to ensure that Senator Cardin's questions are 
appropriately addressed, AASHTO has provided the following:
    The American Association of State Highway and Transportation 
Officials (AASHTO) fully supports the Clean Water Act (CWA), the Clean 
Air Act (CAA), and other environmental regulations. For example, 
because of CAA, the materials and coatings now used on structural steel 
have substantially improved so as to minimize the volatile organic 
compounds (VOCs) that might have previously been released during 
painting operations. In addition, AASHTO has a structural steel coating 
testing program underway to evaluate new products to determine their 
service life and suitability for bridges in an effort to help states 
achieve better and longer-lasting protection for bridge structures.
    However, at times these regulations have had unintended 
consequences which create an inability to efficiently address needs 
within the transportation system. Certain maintenance activities that 
are currently prohibited by environmental restrictions may have, at 
most, a minimal negative effect on the environment.
    For example, bridge washing programs, which are conducted in 
several states, have been documented to preserve the long-term 
structural capacity of bridges by helping to prevent the onset of rust 
and corrosion due to such things as the accumulation of bird guano on 
steel bridge superstructures, as well as to remove residual deicing 
agents used to control snow and ice on bridges, all of which would 
eventually find its way into a waterway below a bridge regardless of 
whether the bridge is washed or not. It should be noted that rust and 
corrosion can have a deleterious effect on water quality, so this early 
prevention can have a long-term positive effect both on the bridge 
itself as well as to the river or stream that flows beneath it.
    AASHTO and other organizations are currently involved in research 
and educational efforts to improve the state of the practice with 
regard to bridge washing and painting. However, a balance must be 
struck between strict environmental requirements and the safety 
considerations that ensure the proper maintenance of our nation's 
bridge infrastructure. AASHTO would recommend revisiting the CAA and 
CWA regulations related to bridge washing and painting and working to 
provide for more practical and reasonable applications of these 
requirements based on individual situations, including such 
considerations as the age of the bridge, the material that is being 
applied or washed, and the likelihood that VOCs and other contaminants 
may get into the water or air. From an oversight perspective, it is 
often easier to apply blanket restrictions across the board instead of 
looking at individual cases, but in this case the restrictions are 
creating significant delay and expense where it is unnecessary.

    Question 2. In a similar vein, you suggest that Clean Air Act 
requirements during bridge painting operations are of little utility. 
Again, that is a serious assertion. Do you have any data to suggest 
that the release of tons of volatile organic compounds during painting 
operations are not a factor in the formation of smog?
    Response. Please allow me to clear up any misunderstanding that may 
have prompted these two questions. The statements about the Clean Water 
Act (CWA) and the Clean Air Act (CAA) to which Senator Cardin refers 
were included in my written testimony as an attachment provided by the 
American Association of State Highway and Transportation Officials 
(AASHTO). The attachment provided a sampling of comments from other 
AASHTO member states, offered in response to a survey conducted in 
early September with regard to the use of bridge funds and the 
impediments thereto. The two sample comments regarding the CWA and CAA 
requirements did not come from my department.
    The Michigan Department of Transportation (MDOT) does not see the 
requirements of the CWA and the CAA as barriers to the use of federal 
bridge funds in Michigan. MDOT firmly follows appropriate practices in 
response to the environmental regulation, and works well with its 
partner agencies on those issues.
    However, to ensure that Senator Cardin's questions are 
appropriately addressed, AASHTO has provided the following:
    The American Association of State Highway and Transportation 
Officials (AASHTO) fully supports the Clean Water Act (CWA), the Clean 
Air Act (CAA), and other environmental regulations. For example, 
because of CAA, the materials and coatings now used on structural steel 
have substantially improved so as to minimize the volatile organic 
compounds (VOCs) that might have previously been released during 
painting operations. In addition, AASHTO has a structural steel coating 
testing program underway to evaluate new products to determine their 
service life and suitability for bridges in an effort to help states 
achieve better and longer-lasting protection for bridge structures.
    However, at times these regulations have had unintended 
consequences which create an inability to efficiently address needs 
within the transportation system. Certain maintenance activities that 
are currently prohibited by environmental restrictions may have, at 
most, a minimal negative effect on the environment.
    For example, bridge washing programs, which are conducted in 
several states, have been documented to preserve the long-term 
structural capacity of bridges by helping to prevent the onset of rust 
and corrosion due to such things as the accumulation of bird guano on 
steel bridge superstructures, as well as to remove residual deicing 
agents used to control snow and ice on bridges, all of which would 
eventually find its way into a waterway below a bridge regardless of 
whether the bridge is washed or not. It should be noted that rust and 
corrosion can have a deleterious effect on water quality, so this early 
prevention can have a long-term positive effect both on the bridge 
itself as well as to the river or stream that flows beneath it.
    AASHTO and other organizations are currently involved in research 
and educational efforts to improve the state of the practice with 
regard to bridge washing and painting. However, a balance must be 
struck between strict environmental requirements and the safety 
considerations that ensure the proper maintenance of our nation's 
bridge infrastructure. AASHTO would recommend revisiting the CAA and 
CWA regulations related to bridge washing and painting and working to 
provide for more practical and reasonable applications of these 
requirements based on individual situations, including such 
considerations as the age of the bridge, the material that is being 
applied or washed, and the likelihood that VOCs and other contaminants 
may get into the water or air. From an oversight perspective, it is 
often easier to apply blanket restrictions across the board instead of 
looking at individual cases, but in this case the restrictions are 
creating significant delay and expense where it is unnecessary.
                                 ______
                                 
    Responses by Kirk Steudle to Additional Questions from Senator 
                               Lieberman
    Question 1. In your testimony, you observed that the problem we 
face is bigger than just bridges. As you said, bridges are connected to 
roads. We tend to focus on bridges because of the large catastrophic 
consequences if one structure fails. But I would ask you to expand your 
remarks on the wider strategy of financing transportation 
infrastructure. We are looking towards a new highway bill in 2009, and 
work on that bill will begin shortly. Can you give us some guidance 
about how we should think about reforming our federal transportation 
infrastructure system?
    Response. Thank you for your focus on the critical question of how 
best to address our overall transportation infrastructure needs. We 
clearly need to focus on the needs of the 21st century, which will 
entail adopting a compelling national vision for surface 
transportation. That vision must include all modes, highways, transit, 
and rail systems. Congress must have had a similar notion, which led to 
the creation of the Surface Transportation Policy and Revenue Study 
Commission in the Safe, Accountable, Flexible, and Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU).
    We could suggest many reforms to the federal program, both large 
and small, that could have a beneficial impact on the states' ability 
to deliver an increasingly better transportation system. Instead, I 
would like to draw attention to one issue that most, if not all, states 
are facing--identifying funding for mega projects. In Michigan, as in 
other parts of the country, mega projects are in metropolitan areas 
and/or are intended to enhance the capacity and versatility of the 
freight infrastructure.
    In Michigan, we have four different mega projects currently in some 
stage of development. As of today, the cost of each of these projects 
range between $450 million to $1.3 billion and combined they could cost 
as much as $3.4 billion. To put these figures into proper perspective, 
consider that our average annual capital investment level in our five-
year highway program (covering FY 2008 through FY 2012) will be $935 
million, for a five-year total of $4.7 billion.
    Like all other states, we have been struggling with skyrocketing 
prices for commodities that are essential to transportation 
infrastructure, such as steel, concrete, petroleum, and asphalt. The 
Federal Highway Administration's (FHWA's) most recent data shows that 
between 2004 and 2006, the index of prices for structures, surfaces, 
and excavation in their ``Price Trends for Federal-Aid Highway 
Construction'' series shows a price increase of more than 43 percent 
over that three-year period alone. If these price trends continue, the 
cost of our mega projects, and all other capital projects, will likely 
grow at a similar rate.
    While our costs have increased due to commodity price increases, 
our financial resources have dwindled. Over the same three-year period 
in which FHWA's construction cost index increased by over 43 percent, 
the combined state revenue and federal obligation authority available 
to the Michigan Department of Transportation actually dropped by 4.4 
percent. Finding cost savings and efficiencies has become as big of a 
part of our culture now as it has ever been. With the backdrop of 
increasing prices and limited growth in revenue, it is easy to see why 
many states are struggling not only to find the resources to maintain 
the quality of roads and bridges, but to pay for mega projects.
    We feel there are several key areas where the federal program could 
be improved to facilitate states in our efforts to deliver mega 
projects. These key areas are outlined below.
    Funding Flexibility.--In my testimony to the Environment and Public 
Works Committee on the conditions of our nation's bridges, I emphasized 
how regulatory barriers often impede the states' ability to manage 
bridge infrastructure in ways they deem most efficient and effective. 
Speaking for Michigan, we have systematically improved the condition of 
bridges even while building large balances of Highway Bridge Program 
(HBP) apportionments. Similar regulatory and legislative barriers exist 
in other programs as well. It is time to re-examine all federal-aid 
highway programs and accompanying regulations to see if they are 
achieving their intended purposes, and whether each is distinct enough 
to warrant continuing as a discrete program.
    Funding Tools.--The past three authorizing statutes have looked 
unremarkably similar with regard to funding and financing tools. Each 
created tools to assist in either leveraging existing funding or 
reducing the cost of borrowing to facilitate the construction of 
transportation infrastructure, and each straddled the fence with regard 
to tolling new and existing capacity. While we certainly think tools 
such as state infrastructure banks, credit assistance offered through 
the Transportation Infrastructure Finance Innovation Act, and private 
activity bonds have been helpful, there are limits to their use and 
applicability. The same applies to tolling. However, the difference is 
that while innovative financing techniques are roundly embraced, states 
are sent mixed signals with regard to tolling. Faced with significant 
funding challenges and increasing congestion, states all over the 
country have been either building new tolled facilities or considering 
that option. Meanwhile, the same pilot programs seem to perpetually 
appear in authorizing legislation (or tolling provision relating to 
specific states or projects), creating uncertainty on the part of 
states who have formally or informally considered the option. Regarding 
our infrastructure needs, we do not believe that tolling is the 
panacea. However, we do think that it is time to get off the fence and 
either embrace and expand tolling options or identify sufficient 
resources to ease the financial pressure all state transportation 
systems are under. A consistent and permanent tolling policy or 
program, for which all states qualify, will be particularly beneficial 
to many mega projects, particularly some that we are developing.
    Funding Reforms.--With the dramatic increases in construction costs 
noted earlier and the structural imbalance between revenue collection 
and authorized funding levels enacted in SAFETEA-LU, Congress will 
likely be required to identify additional revenue during the next 
reauthorization in order to simply maintain, let alone increase, 
transportation funding. It has never been more critical that each and 
every available dollar is put to its best use. We feel that the 
earmarking of federal funding does not put every dollar to its most 
efficient use. Many projects for which funds are earmarked may well be 
good projects; and if so, these good projects will eventually be 
discussed, debated, and may be approved at the state and/or local level 
through well established planning requirements. Of course, there are 
other projects that add little or nothing to our transportation system 
and despite an earmark may never be built. In addition, earmark funding 
comes with its own onerous regulatory requirements that drive up the 
cost of administering our program. Consider that in FY 2008, more 
federal program dollars will go to earmarked projects (roughly $4.8 
billion) than is apportioned to states through the HBP ($4.2 billion). 
We have done some careful analysis of projects earmarked in Michigan 
and have determined that despite our best efforts, there will remain 
approximately $63 million of earmark funding that is unobligated. This 
represents more than 17 percent of our total project earmark funding 
from SAFETEA-LU. If other states find themselves in a similar 
situation, 17 percent of the approximately $22 billion in total earmark 
funding in SAFETEA-LU would equal nearly $4 billion, which comes with 
an enormous opportunity cost. Redirecting funding toward mega projects 
that might otherwise be earmarked would be a great start at identifying 
the necessary funding for these important projects.
    Funding Increase.--Of course, the greatest impact would come from a 
combination of reforms, such as those mentioned above, and increased 
revenue. To be specific, AASHTO has recommended to the National Surface 
Transportation Policy and Revenue Commission that it consider the 
equivalent of a 10 cent gas tax increase and indexing to allow highways 
to grow from $43 billion in 2009 to $73 billion in 2015. States and 
locals will need to increase their investments in line with their 
historical share, which is 55 percent of capital investment. Likewise, 
transit funding could double in that same period. That would offset 
losses in purchasing power, which will cost the program 70 percent of 
its purchasing power by 2015. In addition, we have recommended funding 
from outside the highway trust fund through tax credits, tax credit 
bonds, and possible container fees or customs fees for rail and freight 
initiatives.

    Senator Klobuchar. Thank you very much, Mr. Steudle.
    Mr. Herrmann.

STATEMENT OF ANDREW HERRMANN, P.E., MANAGING PARTNER, HARDESTY 
    AND HANOVER, ON BEHALF OF THE AMERICAN SOCIETY OF CIVIL 
                           ENGINEERS

    Mr. Herrmann. Madam Chairwoman and members of the 
Committee, good morning.
    My name is Andrew Herrmann. I serve on the Board of 
Directors of the American Society of Civil Engineers, and I am 
the Managing Partner of Hardesty and Hanover, a transportation 
consulting and engineering firm headquartered in New York City. 
During my 34-year career, I have been responsible for many of 
the firm's major bridge projects.
    I want to thank you for holding this hearing. I can say 
there are few infrastructure issues of greater importance to 
Americans today than bridge safety.
    ASCE is the Country's oldest national civil engineering 
organization representing more than 140,000 civil engineers.
    More than four billion vehicles cross bridges in the United 
States every day and, like all manmade structures, bridges 
deteriorate. Deferred maintenance accelerates deterioration and 
causes bridges to be more susceptible to failure.
    In 2005, ASCE issued its latest report card for America's 
infrastructure which stated that as of 2003, 27.1 percent of 
the Nation's bridges were structurally deficient or 
functionally obsolete which was an improvement from the 28.5 
percent in the year 2000. In fact, over the past 12 years, the 
number of deficient bridges has steadily declined from 34.6 
percent in 1992 to 25.8 in 2006. However, this improvement is 
contrasted with the fact that one in three urban bridges were 
classified as structurally deficient or functionally obsolete 
which is much higher than the national average.
    For a better perspective, the 10 year improvement rate from 
1994 to 2004 was a decrease of 5.8 percent in deficient 
bridges. Projecting this rate forward from 2004 yields an 
estimate of 46 years at that rate to remove all deficient 
bridges. But, unfortunately, the rate of deficient bridge 
reduction from 1998 on to 2006 is actually decreasing with a 
current projection from 2006 estimated at 57 years for the 
elimination of all deficient bridges.
    While progress has made in the past in removing these 
deficient bridges, our progress is slipping or leveling off. 
There is clearly a demonstrated need to invest additional 
resources in our Nation's bridges.
    The National Bridge Inspection Standards in place since the 
early seventies require biennial safety inspections for bridges 
to be performed by qualified inspectors. Approximately 83 
percent of our bridges are inspected once every 2 years.
    Standard condition evaluations are documented for 
individual bridge components as well as ratings for the 
functional aspects of the bridge. These ratings are weighted 
and combined into an overall sufficiency rating for a bridge on 
a 0 to 100 scale. A bridge's sufficiency rating can define it 
as structurally deficient or functionally obsolete, both of 
which trigger the need for remedial action.
    A structurally deficient bridge may be restricted to light 
vehicles and reduced speeds because of its deteriorated 
structural components. While not necessarily unsafe, these 
bridges are at the condition where replacement or 
rehabilitation is necessary.
    A bridge classified as functionally obsolete is safe to 
carry traffic but has less than the desirable geometric 
conditions required by current standards and may not safely 
accommodate current traffic volumes and vehicle sizes. These 
restrictions not only contribute to traffic congestion but also 
pose such major inconveniences as lengthy detours for school 
buses or emergency vehicles.
    Bridges and their components are structurally load rated at 
inventory and operating levels of capacity in their present 
inspected physical condition. The inventory rating is the 
design level for a bridge for normal traffic.
    The operating rating level with a reduced factor of safety 
is intended to define infrequent overload vehicle permits and 
generally describes the maximum permissible live load to which 
the bridge may be subjected. Allowing unlimited numbers of 
vehicles to use a bridge at the operating level may shorten the 
life of the bridge.
    Bridge inspection services should not be considered a 
commodity. Currently, NBIS regulations do not require bridge 
inspectors to be professional engineers but do require 
individuals responsible for load rating the bridges to be 
professional engineers.
    ASCE believes that non-licensed bridge inspectors and 
technicians may be used for routine inspection procedures and 
records, but the pre-inspection evaluation and the actual 
inspection, ratings and condition evaluations should be 
performed by licensed professional engineers experienced in 
bridge design and certified as bridge inspectors.
    ASCE strongly supports the establishment of a dedicated 
funding source to repair, rehabilitate or replace structurally 
deficient bridges on the national highway system as a 
complement to the current FHWA bridge program. Recent House and 
Senate initiatives would be the first steps in addressing the 
long term needs of the Nation. However, these efforts should 
not detract from the investment needs debate during the 
reauthorization of SAFETEA-LU in 2009.
    The requirement to distribute funds based on a formula 
which takes into account public safety and needs is an 
excellent step in creating a program that addresses public 
safety first. As reported by the Texas Transportation Institute 
this week, traffic congestion costs the economy $78.2 billion 
annually in lost productivity and wasted fuel.
    The Nation's transportation infrastructure is not alone in 
the need for funding. There are more than 3,500 unsafe dams in 
the Nation, and the cost to address all dam safety needs is $10 
billion.
    Unfortunately, 35 years after the enactment of the Clean 
Water Act, there is an estimated funding gap of as much as $500 
billion over the next 20 years to address the needs of our 
wastewater systems. The Nation is facing the very real 
possibility that we will wind up with lesser water quality than 
existed prior to the Clean Water Act's passage in 1972.
    Successfully and efficiently addressing the Nation's 
infrastructure issues will require a long term comprehensive 
nationwide strategy including identifying potential financing 
methods and investment requirements.
    For the safety and security of our families, we as a Nation 
can no longer afford to ignore this growing problem. Aging 
infrastructure represents a growing threat to the public 
health, safety and welfare as well as to the economic well 
being of our Nation.
    It is time that Congress and the Administration hears our 
message. We must renew Federal investment in our Nation's vital 
public works infrastructure or risk reversing the public 
health, environmental and economic gains of the past 50 years.
    Thank you, Madam Chairman. That concludes my statement. I 
would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Herrmann follows:]

  Statement of Andrew Herrmann, P.E., Managing Partner, Hardesty and 
     Hanover, on behalf of the American Society of Civil Engineers
    Chairman Boxer, Senator Inhofe and Members of the Committee:
    Good morning. I am Andrew Herrmann, a Board Member of the American 
Society of Civil Engineers (ASCE)\1\, and the Managing Partner of 
Hardesty & Hanover, LLP, a transportation consulting engineering firm 
headquartered in New York. I am a licensed Professional Engineer in 26 
states. During my 34 year career I have been responsible for many of 
the firm's major fixed and movable bridge projects. My experience 
covers inspection, rating, design, rehabilitation, and construction of 
bridges.
---------------------------------------------------------------------------
    \1\ ASCE, founded in 1852, is the country's oldest national civil 
engineering organization. It represents more than 140,000 civil 
engineers in private practice, government, industry, and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501(c) (3) non-profit educational and 
professional society.
---------------------------------------------------------------------------
    Let me start by thanking you for holding this hearing. As someone 
who has worked in this field for many years, I can say that there are 
few infrastructure issues of greater importance to Americans today than 
bridge safety.
    I am pleased to appear today to be able to lend ASCE's expertise to 
the problem of the nation's crumbling infrastructure that was 
highlighted by the tragic events of August 1, 2007 when the I-35W 
Bridge in Minneapolis collapsed into the Mississippi River.
                          i. bridge conditions
    More than 4 billion vehicles cross bridges in the United States 
every day and, like all man-made structures, bridges deteriorate. 
Deferred maintenance accelerates deterioration and causes bridges to be 
more susceptible to failure. As with other critical infrastructure, a 
significant investment is essential to maintain the benefits and to 
assure the safety that society demands.
    In 2005, ASCE issued the latest in a series of assessments of the 
nation's infrastructure. Our 2005 Report Card for America's 
Infrastructure found that as of 2003, 27.1% or 160,570 of the nation's 
590,753 bridges were structurally deficient or functionally obsolete, 
an improvement from 28.5% in 2000. In fact, over the past 12 years, the 
number of deficient bridges (both structurally deficient and 
functionally obsolete categories) has steadily declined from 34.6% in 
1992 to 25.8% in 2006.
    However, this improvement is contrasted with the fact that one in 
three urban bridges (31.2% or 43,189) were classified as structurally 
deficient or functionally obsolete, much higher than the national 
average.
    In 2005, the FHWA estimated that it would cost $9.4 billion a year 
for 20 years to eliminate all bridge deficiencies. In 2007, FHWA 
estimated that $65 billion could be invested immediately in a cost 
beneficial manner to address existing bridge deficiencies.
    The ten year improvement rate from 1994 to 2004 was 5.8% (32.5%-
26.7%) less deficient bridges. Projecting this rate forward from 2004 
would require 46 years to remove all deficient bridges. Unfortunately 
the rate of deficient bridge reduction from 1998 on to 2006 is actually 
decreasing with the current projection from 2006 requiring 57 years for 
the elimination of all deficient bridges. Progress has been made in the 
past in removing deficient bridges, but our progress is now slipping or 
leveling off.
    There is clearly a demonstrated need to invest additional resources 
in our nation's bridges. However, deficient bridges are not the sole 
problem with our nation's infrastructure. The U.S. has significant 
infrastructure needs throughout the transportation sector including 
roads, public transportation, airports, ports, and waterways. As a 
nation, we must begin to address the larger issues surrounding our 
infrastructure so that public safety and the economy will not suffer.
                     ii. bridge inspection program
    The National Bridge Inspection Standards (NBIS), in place since the 
early 1970s, require biennial safety inspections for bridges in excess 
of 20 feet in total length located on public roads. These inspections 
are to be performed by qualified inspectors. Structures with advanced 
deterioration or other conditions warranting closer monitoring are to 
be inspected more frequently. Certain types of structures in very good 
condition may receive an exemption from the 2-year inspection cycle. 
These structures may be inspected once every 4 years. Qualification for 
this extended inspection cycle is reevaluated depending on the 
conditions of the bridge. Approximately 83 percent of bridges are 
inspected once every 2 years, 12 percent are inspected annually, and 5 
percent are inspected on a 4-year cycle.
    Information is collected documenting the conditions and composition 
of the structures. Baseline composition information is collected 
describing the functional characteristics, descriptions and location 
information, geometric data, ownership and maintenance 
responsibilities, and other information. This information permits 
characterization of the system of bridges on a national level and 
permits classification of the bridges. Safety, the primary purpose of 
the program, is ensured through periodic hands-on inspections and 
ratings of the primary components of the bridge, such as the deck, 
superstructure, and substructure. This classification and condition 
information is maintained in the National Bridge Inventory (NBI) 
database maintained by FHWA. This database represents the most 
comprehensive source of information on bridges throughout the United 
States.
    Two documents, the American Association of State Highway and 
Transportation Officals' (AASHTO) Manual for Condition Evaluation of 
Bridges and the Federal Highway Administration's (FHWA) Recording and 
Coding Guide for the Structure Inventory and Appraisal of the Nation's 
Bridges, provide guidelines for rating and documenting the condition 
and general attributes of bridges and define the scope of bridge 
inspections. Standard condition evaluations are documented for 
individual bridge components as well as ratings for the functional 
aspects of the bridge. These ratings are weighted and combined into an 
overall Sufficiency Rating for the bridge on a 0-100 scale. These 
ratings can be used to make general observations on the condition of a 
bridge or an inventory of bridges.
    The factors considered in determining a sufficiency rating are: S1-
Structural Adequacy and Safety (55% maximum), S2-Serviceability and 
Functional Obsolescence (30% maximum), S3-Essentiality for Public Use 
(15% maximum), and S4-Special Reductions (detour length, traffic safety 
features, and structure type--13% maximum).
    In addition to the sufficiency rating, these documents provide the 
following criteria to define a bridge as structurally deficient or 
functionally obsolete, which triggers the need for remedial action.
    Structurally Deficient.--A structurally deficient (SD) bridge may 
be restricted to light vehicles because of its deteriorated structural 
components. While not necessarily unsafe, these bridges must have 
limits for speed and weight, and are approaching the condition where 
replacement or rehabilitation will be necessary. A bridge is 
structurally deficient if its deck, superstructure, or substructure is 
rated less than or equal to 4 (poor) or if the overall structure 
evaluation for load capacity or waterway adequacy is less than or equal 
to 2 (critical). Note a bridge's structural condition is given a rating 
between 9 (excellent) and 0 (representing a failed condition). In a 
worse case scenario, a structurally deficient bridge may be closed to 
all traffic.
    Functionally Obsolete.--A bridge that is functionally obsolete (FO) 
is safe to carry traffic but has less than the desirable geometric 
conditions required by current standards. A bridge is functionally 
obsolete if the deck geometry, underclearances, approach roadway 
alignment, overall structural evaluation for load capacity, or waterway 
adequacy is rated less than or equal to 3 (serious). A functionally 
obsolete bridge has older design features and may not safely 
accommodate current traffic volumes, vehicle sizes, and vehicle 
weights. These restrictions not only contribute to traffic congestion, 
but also pose such major inconveniences as lengthy detours for school 
buses or emergency vehicles.
    Structural Capacity.--Components of bridges are structurally load 
rated at inventory and operating levels of capacity. The inventory 
rating level generally corresponds to the design level of stresses but 
reflects the present bridge and material conditions with regard to 
deterioration and loss of section. Load ratings based on the inventory 
level allow comparisons with the capacities for new structures. The 
inventory level results in a live load which can safely utilize an 
existing structure for an indefinite period of time. The operating 
rating level generally describes the maximum permissible live load to 
which the bridge may be subjected. This is intended to tie into permits 
for infrequent passage of overweight vehicles. Allowing unlimited 
numbers of vehicles to use a bridge at the operating level may shorten 
the life of the bridge.
Bridge Engineers and Bridge Inspectors
    Bridge inspection services should not be considered a commodity. 
Currently, NBIS regulations do not require bridge inspectors to be 
Professional Engineers, but do require individuals responsible for load 
rating the bridges to be Professional Engineers. ASCE believes that 
non-licensed bridge inspectors and technicians may be used for routine 
inspection procedures and records, but the pre-inspection evaluation, 
the actual inspection, ratings, and condition evaluations should be 
performed by licensed Professional Engineers experienced in bridge 
design and inspection. They should have the expertise to know the load 
paths, critical members, fatigue prone details, and past potential 
areas of distress in the particular type of structure being inspected. 
They must evaluate not only the condition of individual bridge 
components, but how the components fit into and affect the load paths 
of the entire structure. The bridge engineer may have to make immediate 
decisions to close a lane, close an entire bridge, or to take trucks 
off a bridge to protect the public safety.
            iii. increased funding for bridge rehabilitation
    ASCE has long supported the creation of trust funds for 
infrastructure improvement. Unfortunately, the passage of SAFETEA-LU 
left a significant gap in funding the well-documented needs of our 
nation's surface transportation programs. During the SAFETEA-LU debate, 
it was estimated that $375 billion was needed for the surface 
transportation program, but only $286 billion was authorized in the 
law.
    ASCE strongly supports funding levels in H.R. 3074, the 
``Transportation, Housing and Urban Development, and Related Agencies 
Appropriations Act, 2008,'' as passed by the Senate, including the 
Murray amendment to increase the Federal-aid Highway Program obligation 
limitation by one billion dollars ($1 billion) in additional bridge 
program funding.
    ASCE has been supportive of legislation being drafted by House 
Transportation and Infrastructure Committee Chairman James Oberstar 
that would address the public safety issues posed by the National 
Highway System's structurally deficient bridges. This is a promising 
display of support that has often been lacking for the problem of our 
nation's crumbling infrastructure. However, it is essential to remember 
that this legislation, while a good first step, is not the sole 
solution.
    ASCE strongly supports quick action to enact the NHS Bridge 
Reconstruction Initiative which would create a dedicated fund to 
repair, rehabilitate, and replace structurally deficient bridges on the 
NHS. This is accomplished through four components:
    <bullet> Improving bridge inspection requirements;
    <bullet> Providing dedicated funding for structurally deficient NHS 
bridges;
    <bullet> Distributing funds based on public safety and need; and
    <bullet> Establishing a bridge reconstruction trust fund.
    A thorough review of the current bridge inspection requirement 
seems appropriate and there must be greater emphasis on the steps 
needed to address a structurally deficient bridge once it has been 
classified. ASCE strongly supports a requirement that bridge 
inspections be performed by licensed professional engineers who are 
certified bridge inspectors. The initiative's compliance reviews of 
state bridge inspection programs and increased emphasis are good steps 
to improving the states bridge programs. These efforts, however, must 
emphasize bridge safety not bureaucracy.
    A dedicated funding source to repair, rehabilitate, and replace 
structurally deficient bridges on the NHS would be a good complement to 
the current FHWA bridge program because of the emphasis on NHS bridges. 
NHS bridges carry a large percentage--more that 70 percent--of all 
traffic on bridges. Of the 116,172 bridges on the NHS, 6,175 are 
structurally deficient of which 2,830 are part of the Interstate 
System. The investment backlog for these deficient bridges is estimated 
to be $32.1 billion.
    The requirement to distribute funds based on a formula which takes 
into account public safety and needs is an excellent step in creating a 
program that addresses public safety first. ASCE's Cannon of Ethics 
states clearly that public safety, health, and welfare should be the 
engineer's primary concern. Any bridge safety program should be based 
on providing for public safety first.
    The Oberstar initiative would be a first step in addressing the 
long term needs of the nation. However, this effort should not detract 
from the investment needs debate during the reauthorization of SAFETEA-
LU in 2009.
                 iv. asce's policies regarding bridges
    Funding programs for transportation systems, i.e., federal 
aviation, highways, harbors, inland waterways, and mass transit as 
documented by the U.S. Department of Transportation, need to be 
increased, to provide orderly, predictable, and sufficient allocations 
to meet current and future demand. The Highway Trust Fund is in danger 
of insolvency (as other trust funds may be in the future) and must 
receive an immediate boost in revenue to ensure success of multi-modal 
transportation programs. In fact, the Office of Management and Budget 
estimates that in FY 2009 the Highway Account of the Highway Trust Fund 
will be in the red by as much as $4.3 billion.
    The safety, functionality, and structural adequacy of bridges are 
key components necessary to support and ensure the safe, reliable, and 
efficient operation of transportation infrastructure and systems which 
provide mobility of people and the movement of goods and services. 
Federal policy establishes the minimum bridge safety program components 
necessary for both public and private bridges to ensure an adequate and 
economical program for the inspection, evaluation, maintenance, 
rehabilitation, and replacement of our nation's bridges.
    Continued neglect and lack of adequate maintenance will ultimately 
result in higher annual life-cycle costs of bridges due to shortened 
service life. Therefore, investment to improve the condition and 
functionality of the nation's bridges will reduce the required 
investment in the future.
Bridge Safety
    For the continued safety of the nation's bridges, ASCE advocates 
that a bridge safety program for both public and private bridges be 
established, fully funded, and consistently operated to upgrade or 
replace deficient bridges and to properly maintain all others. This 
program should preserve full functionality of all bridges to support 
the operation of safe, reliable and efficient transportation systems, 
and to allow these systems to be utilized to their full capacity. Such 
programs should include as a minimum:
    <bullet> Regular programs of inspection and evaluation that 
incorporate state-of-the-art investigative and analytical techniques, 
especially of older bridges which were not designed and constructed to 
current design loading and geometric standards;
    <bullet> Posting of weight and speed limits on deficient 
structures;
    <bullet> Implementing and adequately funding regular system-wide 
maintenance programs that are the most cost-effective means of ensuring 
the safety and adequacy of existing bridges;
    <bullet> Establishing a comprehensive program for prioritizing and 
adequately funding the replacement of functionally obsolete and 
structurally deficient bridges;
    <bullet> Setting a national goal that fewer than 15% of the 
nation's bridges be classified as structurally deficient or 
functionally obsolete by 2010; and
Transportation Funding
    Adequate revenues must be collected and allocated to maintain and 
improve the nation's transportation systems and to be consistent with 
the nation's environmental and energy conservation goals. A sustained 
source of revenue is essential to achieve these goals.
    ASCE recommends that funding for transportation system 
improvements, associated operations, and maintenance be provided by a 
comprehensive program including:
    <bullet> User fees such as motor fuel sales tax;
    <bullet> User fee indexing to the Consumer Price Index (CPI);
    <bullet> Appropriations from general treasury funds, issuance of 
revenue bonds, and tax-exempt financing at state and local levels;
    <bullet> Trust funds or alternative reliable funding sources 
established at the local, state, and regional levels, including use of 
sales tax, impact fees, vehicle registration fees, toll revenues, and 
mileage-based user fees developed to augment allocations from federal 
trust funds, general treasuries funds, and bonds;
    <bullet> Refinement of the federal budget process to establish a 
separate capital budget mechanism, similar to many state budgets, to 
separate long-term investment decisions from day-to-day operational 
costs;
    <bullet> Public-private partnerships, state infrastructure banks, 
bonding, and other innovative financing mechanisms as appropriate for 
the leveraging of available transportation program dollars, but not in 
excess of, or as a means to supplant user fee increases;
    <bullet> The maintenance of budgetary firewalls to eliminate the 
diversion of user revenues for non-transportation purposes, and 
continuing strong effort to reduce fuel tax evasion.
               v. national infrastructure outlook is poor
    Two years ago, ASCE released its most recent assessment of the 
condition of the nation's public works systems. Our 2005 Report Card 
for America's Infrastructure was a grim review taken as a whole of the 
state of America's roads, bridges, navigable waterways, dams, airports, 
water treatment plants, and other facilities. We gave the nation a 
cumulative grade of ``D.''
    <bullet> Federal, state, and local governments have made a 
significant investment in improvements in wastewater-treatment 
infrastructure throughout the country since 1972. But many problems 
remain. The Environmental Protection Agency estimates that the 
investment ``gap'' for wastewater treatment will total approximately 
$390 billion through 2020.
    <bullet> America faces a shortfall of $11 billion annually to 
replace aging facilities and comply with safe drinking water 
regulations. Federal funding for drinking water remains at about $800 
million, less than 10 percent of the total national investment need.
    <bullet> The U.S. Army Corps of Engineers estimates that at least 
half of the 257 locks on the nation's 12,000 miles of inland waterways 
are functionally obsolete. It will take billions to replace or upgrade 
these locks.
    <bullet> Since 1998, the number of unsafe dams has risen by 33 
percent to more than 3,500. While federally owned dams are in good 
condition and there have been modest gains in repair, the number of 
dams identified as unsafe is increasing at a faster rate than those 
being repaired. $10.1 billion is needed over the next 12 years to 
address all critical non-federal dams--dams which pose a direct risk to 
human life should they fail.
    <bullet> America shortchanges funding for much-needed road repairs. 
Traffic congestion costs the economy $78.2 billion annually in lost 
productivity and wasted fuel. Passenger and commercial travel on our 
highways continues to increase dramatically. The Texas Transportation 
Institute's 2007 Urban Mobility Report notes that congestion causes the 
average peak period traveler to spend an extra 38 hours of travel time 
and consume an additional 26 gallons of fuel, amounting to a cost of 
$710 per traveler. The American Association of State Highway and 
Transportation Officials (AASHTO) estimates that capital outlay by all 
levels of government would have to increase by 42 percent to reach the 
projected $92 billion cost-to-maintain level, and by 94 percent to 
reach the $125.6 billion cost-to-improve level.
                             vi. conclusion
    Successfully and efficiently addressing the nation's infrastructure 
issues, bridges and highways included, will require a long-term, 
comprehensive nationwide strategy--including identifying potential 
financing methods and investment requirements. For the safety and 
security of our families, we, as a nation, can no longer afford to 
ignore this growing problem. We must demand leadership from our elected 
officials, because without action, aging infrastructure represents a 
growing threat to public health, safety, and welfare, as well as to the 
economic well-being of our nation.
    Thank you, Madam Chairwoman. That concludes my statement. I would 
be pleased to answer any questions that you may have.
                               __________
       Responses by Andrew Herrmann to Additional Questions from 
                             Senator Cardin
    Question 1. In your testimony you highlight the need for key 
elements of the bridge inspection program to be implemented by licensed 
Professional Engineers. Do you have any data that you can provide to 
the Committee that gives as a sense that we have the right people 
conducting these bridge inspections? That applies to both state and 
federal inspection programs.
    Response. Currently, NBIS regulations have the first option to have 
a Professional Engineer with the requisite experience and training to 
perform bridge inspections but they do have other lesser options which 
do not require bridge inspectors to be Professional Engineers. ASCE 
believes that non-licensed bridge inspectors and technicians may be 
used for routine inspection procedures and records, but the pre-
inspection evaluation, the actual inspection, ratings, and condition 
evaluations should be performed by licensed Professional Engineers 
experienced in bridge design and inspection. The NBIS regulations 
should be changed to require just Professional Engineers with 
appropriate experience such as the expertise to know the load paths, 
critical members, fatigue prone details, and past potential areas of 
distress in the particular type of structure being inspected as the 
lead bridge inspector. They must have the ability to evaluate not only 
the condition of individual bridge components, but how the components 
fit into and affect the load paths of the entire structure. The bridge 
engineer may have to make immediate decisions to close a lane, close an 
entire bridge, or to take trucks off a bridge to protect the public 
safety.
    I do know that in New York, the state where my firm has a 
significant amount of experience inspecting bridges, the requirements 
for Team Leader and Quality Control Engineer are very strict including 
the PE license, bridge experience, and NY inspection training. Other 
owners may use in-house staff that may or may not have these 
requirements. The fact that the NBIS regulations have lesser bridge 
requirements that may be substituted for the PE is what should be 
addressed. We could suggest a survey of state and other bridge owners 
as to their current requirements for bridge inspectors.

    Question 2. In your view, do we have enough licensed Professional 
Engineers in this county! What should we be doing to assure the nation 
of an adequate supply of these critical personnel?
    Response. In my view, we don't have enough Professional Engineers 
and engineering graduates in the country. Incentives may be needed 
similar to those provided to students pursuing a teaching career to 
entice and hold more students in the engineering profession. Engineers 
have to have the recognition required of a profession building and 
maintaining the nation's infrastructure. They also need commensurate 
levels of compensation to compete with the financial and information 
industries.
    Our present educational system is not meeting the needs of our 
increasingly technical society. Focuses have shifted in our educational 
system and many students are not being adequately exposed to math and 
science. Education in these areas is not identified or promoted as 
necessary for all students, particularly those wishing to pursue 
technical careers. Consequently, too few highly qualified students are 
pursuing careers in civil engineering.
    There is a need and an opportunity to provide math and science 
education at all levels of our educational system, to promote the 
pursuit of math and science oriented careers, to guide qualified 
students toward civil engineering careers and to require and assist in 
ongoing career guidance activities in civil engineering.
    Ultimately, ASCE believes that it is critical to provide all 
students, no matter what careers they ultimately pursue, with a strong 
background in basic mathematics and science to enable them to 
participate in our increasingly technical society. We must prepare 
those students who want to pursue careers based in mathematics and 
science with the necessary skills in these subjects. And finally, we 
must encourage highly qualified students to pursue careers based in 
mathematics and science and more specifically in civil engineering.
    Over half of the economic growth today can be attributed directly 
to research and development in science, engineering and technology. Our 
ability to maintain this economic growth will be determined largely by 
our nation's intellectual capital. The only means to develop this 
resource is education.
    Recent assessments by the U.S. Department of Education of the 
progress of students' performance in various subject areas, including 
science, math, engineering and technology education, have concluded 
that the grasp of science and math by U.S. students is less than that 
of their international peers. It is also notable that over half of U.S. 
graduate students in science and math are foreign-born.
    For these and other reasons, the implementation of the 
recommendations of the NSB in their report on math and science 
education is critical. The proposal to coordinate and facilitate STEM 
programs through a National Council for STEM Education has merit and 
should be supported by Congress. Other recommendations to focus 
attention on STEM education in federal agencies also have merit.
                                 ______
                                 
       Responses by Andrew Herrmann to Additional Questions from 
                           Senator Lieberman
    Question 1. I would like to ask you about one observation you made 
in your written statement. Currently, NB1S regulations do not require 
bridge inspectors to be Professional Engineers. Your organization, the 
American Society of Civil Engineers, believes that non-licensed bridge 
inspectors and technicians can perform routine inspections. but the 
actual inspection and ratings should be performed by a licensed 
Professional Engineer.
    Can you tell me why you think NEIS regulations should be changed to 
require Professional Engineers to conduct inspections and formulate 
ratings? Currently, is it the case that most of our bridge inspections 
are actually being performed by individuals without a formal 
educational background in civil engineering? How critical is it for the 
Department of Transportation to change this regulation, in your 
opinion?
    Response. Currently, NBIS regulations have the first option to have 
a Professional Engineer with the requisite experience and training to 
perform bridge inspections but they do have other lesser options which 
do not require bridge inspectors to be Professional Engineers. ASCE 
believes that non-licensed bridge inspectors and technicians may be 
used for routine inspection procedures and records, but the pre-
inspection evaluation, the actual inspection, ratings, and condition 
evaluations should be performed by licensed Professional Engineers 
experienced in bridge design and inspection. The NBIS regulations 
should be changed to require just Professional Engineers with 
appropriate experience such as the expertise to know the load paths, 
critical members, fatigue prone details, and past potential areas of 
distress in the particular type of structure being inspected as the 
lead bridge inspector. They must have the ability to evaluate not only 
the condition of individual bridge components, but how the components 
fit into and affect the load paths of the entire structure. The bridge 
engineer may have to make immediate decisions to close a lane, close an 
entire bridge, or to take trucks off a bridge to protect the public 
safety.

    Question 2. Your organization is supportive of the bridge 
rehabilitation legislation Chairman Oberstar is working on in the House 
Transportation Committee. In fact, you testified in your written 
statement the legislation is a ``good first step.'' But, you also 
commented that ``it is not the sole solution'' Can you tell us why the 
proposed legislation is not the ``sole solution'' to the problem we 
face? What improvements could be made? In your opinion, what are we 
missing that we should pay more attention to? What should we keep in 
mind specifically as we move towards the reauthorization of SAFETEA-LU 
in 2009?
    Response. Congressman Oberstar's proposed legislation is a good 
first step in that it addresses the structurally deficient bridges on 
the NHS which accounts for only about 10% of the structurally deficient 
bridges in the US. Further steps are needed to address the remaining 
90% of our nation's roughly 73,000 structurally deficient bridges and 
also to address the roughly 80,000 functionally obsolete bridges. 
Bridge needs have been identified and consideration for the 
reauthorization of the SAFETEA-LU should include increasing and 
maintaining a dedicated user fees such as a gas tax and addressing 
other funding means. Adequate revenues must be collected and allocated 
to maintain and improve the nation's transportation systems and to be 
consistent with the nation's environmental and energy conservation 
goals. A sustained source of revenue is essential to achieve these 
goals.
    ASCE recommends that funding for transportation system 
improvements, associated operations, and maintenance be provided by a 
comprehensive program including:
    a. User fees such as motor fuel sales tax;
    b. User fee indexing to the Consumer Price Index (CPI);
    c. Appropriations from general treasury funds, issuance of revenue 
bonds, and tax-exempt financing at state and local levels;
    d. Trust funds or alternative reliable funding sources established 
at the local, state, and regional levels, including use of sales tax, 
impact fees, vehicle registration fees, toll revenues, and mileage-
based user fees developed to augment allocations from federal trust 
funds, general treasuries funds, and bonds;
    e. Refinement of the federal budget process to establish a separate 
capital budget mechanism, similar to many state budgets, to separate 
long-term investment decisions from day-to-day operational costs;
    f. Public-private partnerships, state infrastructure banks, 
bonding, and other innovative financing mechanisms as appropriate for 
the leveraging of available transportation program dollars, but not in 
excess of, or as a means to supplant user fee increases;
    g. The maintenance of budgetary firewalls to eliminate the 
diversion of user revenues for non-transportation purposes, and 
continuing strong effort to reduce fuel tax evasion.

    Question 3. I have a question about the timing of preventative 
maintenance. Based upon your professional experience as an engineer, 
when should preventative maintenance start on a bridge? When a bridge 
is rated a 6? Or a different rating? Could we save more money by 
investing when small problems are diagnosed and recognized?
    Response. Preventive maintenance should start being scheduled in 
year two of a bridge's life if just to clean joints, drainage systems, 
and bearings to remove the debris (and in northern states road salts) 
from bridge components to prevent rusting and deterioration. 
Accumulated debris can hold moisture against bridge components and 
leaking drainage can concentrate contaminated run-off onto bridge 
components, both accelerating deterioration. Beyond year two, 
preventive maintenance should be performed with consideration for deck 
and overlay repairs before they have expanded into deck replacements 
and for items such as coating maintenance on steel structures before 
rusting and ``lost section'' has occurred. It could be analogous to 
changing the oil in your car to increase the engine's longevity.

       Responses by Andrew Herrmann to Additional Questions from 
                             Senator Inhofe
    Question 1a. How would you compare the relative needs of bridges as 
compared to the other needs on our nation's highways?
    Response. Highway needs cover roadway conditions and safety for the 
traveling public. Bridge needs are more critical due to the expenses of 
repairs per mile and the inconvenience to the traveling public due to 
the difficult requirements for detours involving maintaining traffic 
during repairs or replacements. In 2005, the FHWA estimated that it 
would cost $9.4 billion a year for 20 years to eliminate all bridge 
deficiencies. In 2007, FHWA estimated that $65 billion could be 
invested immediately in a cost beneficial manner to address existing 
bridge deficiencies.

    Question 1b. Is the data in the existing bridge inventory 
sufficiently detailed to tell us where the greatest bridge needs are?
    Response. In 2005, highway capital investment was $75 billion, $33 
billion or 45 percent of the total in Federal assistance, and $42 
billion from the state and local level. According to the U.S. DOT 2004 
Conditions and Performance Report based on 2002 data, the ``Cost to 
Improve'' our Nation's Highways is estimated at $118.9 billion. This 
need for more investment is compounded by the increased costs of 
construction. Between 1993 and 2015, construction costs will have 
increased more than 70 percent.
    The present bridge sufficiency ratings provide comparative bridge 
conditions for our nation's bridge inventory. Perhaps it could be taken 
further to consider preventive maintenance options and funding to 
address bridge ratings and conditions before the structures get to the 
structurally deficient category.

    Senator Klobuchar. Thank you very much.
    Senator Barrasso, I don't think the vote has started yet, 
so we can get started.
    Senator Barrasso. Thank you very much, Madam Chairman. I 
think it started at 11:59 according to my little bulletin here.
    Senator Klobuchar. Well, you are just on top of things. 
That was very impressive.
    Senator Barrasso. They let the two kids in charge. Our 
cumulative stay here is less than 1 year.
    [Laughter.]
    Senator Klobuchar. All right, well, I think it may be 
better to go vote and then come back or would you like to ask 
your questions?
    Senator Barrasso. I just have one question.
    Senator Klobuchar. OK, go ahead.
    Senator Barrasso. Just listening to Mr. Herrmann's comments 
and then reading through your testimony, you talk about 
problems with wastewater treatment, safe drinking water, locks 
on inland waterways, dams, road repairs. How do we as a Nation 
prioritize some of these things in terms of doing the risk-
benefit analysis for how we spend our money?
    Mr. Herrmann. That is a very good question.
    ASCE put together a report card to sort of differentiate 
between all the different categories of infrastructure, and we 
gave them letter grades. That sort of sets a priority for which 
areas are in the worst condition, but it still shows that the 
whole Country got a very bad grade overall.
    Mr. Herrmann. We could probably spend the rest of the day 
debating how we do that and compare it to other places in the 
world, but I know we have other things to do.
    Madam Chairman, I will just turn it to you.
    Senator Klobuchar. You know what? I am going to come back 
after the vote, and I just have a few questions. If you could 
just wait for 10 minutes, I will go and vote and come right 
back. All right?
    Thank you. We will temporarily adjourn and then come back.
    Thank you very much.
    [Recess.]
    Senator Klobuchar. I first wanted to apologize for the 
witnesses as we reconvene this hearing. I had no idea we had 
two votes. We thought we had one, and so it took much longer 
than we thought, and I am sure you are hungry for lunch.
    But, as you can imagine, this is a very important issue to 
the people of my State. I have really appreciated the testimony 
that you gave, and I wanted to follow up on a few of the things 
that you said.
    First of all, Mr. Steudle, you were talking about how the 
money is difficult for bridges right now because of the cost of 
the raw materials. I think you said there has been something 
like a 46 percent increase for steel and asphalt. How does that 
equate to the cost of a bridge? What percentage of the bridges' 
cost are raw materials?
    Mr. Steudle. You know I don't have a specific to tell you 
that it is 30 percent or 50 percent, but both of those two, the 
concrete, the spikes and the cement in the last couple of years 
and steel are the two main ingredients. The biggest chunk of a 
bridge is material.
    I am going to rough guess it is probably half. The material 
cost is half. The labor cost is half.
    Senator Klobuchar. Mr. Herrmann.
    Mr. Herrmann. I think Mr. Steudle is correct. There is a 
lot of labor cost in it also, but steel and concrete are a 
large portion of the bridge.
    Senator Klobuchar. Now, Mr. Steudle, this is from my memory 
before when you testified before we voted, but I think you said 
90 percent of the Federal bridge funds, you weren't using in 
Michigan because of these delays and the obstacles.
    Mr. Steudle. Actually, we spend less than 90 percent. It is 
about 89 percent. So there is about 10 percent that we do not 
use.
    Senator Klobuchar. Ten percent that you aren't spending.
    Mr. Steudle. Now that Federal funding doesn't come back 
here to Washington. We make sure that it stays in Michigan, and 
we spend it on other Federal programs as well. We recognize 
that is about 10 to 15 million dollars, but we invest 90 
million into bridges, of State money, on top of that.
    Yes, we do turn some of that money back, but the reason is 
because they are too restrictive and we use our State funds to 
do what we need to do from a preventative maintenance 
standpoint, to keep a good bridge in good condition.
    Senator Klobuchar. Could you talk about what those State 
obstacles are that you have encountered?
    I know you mentioned briefly your ideas for improving the 
system. Could you give me a little more detail on what the 
obstacles are to States in trying to work through the morass 
and the red tape of the Federal program?
    Mr. Steudle. You know a big piece of it is the 
interpretation. I think SAFETEA-LU gives some flexibility 
there, but a lot of it is then driven by local interpretation 
to what does that mean. What does it mean to have a bridge 
system in place so that you are allowed to use the money for 
preventative maintenance? That really is the big piece.
    If you have a bridge system in place, and it is approved by 
the Federal Highway Administration, you can then use money for 
preventative maintenance treatments. Now even with our 
extensive program, we can't use that money for repairing bridge 
decks if the other elements are good as well. So there is a lot 
of nuances within that program that we bump into a lot of 
times.
    Really, the crux of what we are saying is if we have a 
comprehensive system that looks at the entire network of 
bridges--the new ones, the middle age ones and the old ones--
and we manage each of them separately with their independent 
lives, we should have the flexibility to invest Federal funding 
where it is most appropriate.
    Senator Klobuchar. OK, very good.
    I had some questions about our own bridge collapse in 
Minnesota, and I know you don't know all the details about it, 
but we were talking before with the Inspector General, Mr. 
Herrmann, about the inspection process.
    Our bridge was rated as a four, and I understood from 
Secretary Peters that bridges below that number qualify for 
being closed. When they are a two, they are automatically 
closed. When they are a three, they put load limitations on 
them. Our bridge was at a four, and there is some concern of 
the balance of the loads and things like that.
    I guess my first question to you would be if you can add 
any improvements to that system, do you think that would make 
it better from an engineering perspective, Mr. Herrmann?
    Then the second just the inspection process. I had asked 
the Inspector General about using sensors of sort of high tech 
equipment, and he mentioned that sometimes the most rudimentary 
things are better measured, but I wonder your perspective on 
the high tech equipment.
    So my two questions are what you think can be done better 
with inspections and then if you think there can be some 
improvements to this process of identifying the problems with 
the bridges and the numerical values given to the status of the 
bridges.
    Mr. Herrmann. Thank you, Senator.
    The first question, better for the inspection, as I stated 
in my oral testimony, ASCE recommends that professional 
engineers be used for the bridge inspections. We are also 
saying that non-licensed bridge inspectors and technicians 
could be used for routine inspection procedures, but the pre-
inspection evaluation, the actual inspection, the ratings, the 
condition evaluation should be performed by licensed 
professional engineers experienced in bridge design and 
inspection.
    The reason we are saying this is because the person out 
there in the bridge inspection should have the expertise to 
know the load paths, the critical members, the fatigue-prone 
details and the past areas of potential distress in the 
particular type of structure being inspected. They have to know 
this.
    They have to make evaluations in the field. They have to 
know how the components fit in and affect the load paths of the 
entire structure. They may have to make an immediate decision 
to close a lane, close an entire bridge or to take trucks off a 
bridge to protect the public safety.
    One thing that was said earlier was in the discussion of 
structurally deficient and functionally obsolete, some bridges 
are posted. Well, that is very important that bridges are 
posted, but the most important thing is that posting is 
enforced. There is a problem across the Country, I believe, 
with enforcing that because there may not be sufficient law 
enforcement to keep the bigger trucks off the bridges that may 
be posted for lower ratings.
    The other question on high tech, the Inspector General is 
right. A good pair of eyes and a chipping hammer and a good 
light is a very good way to inspect a bridge.
    You have to get up into that structure, be it all the 
equipment that is used: snooper trucks to bring you over the 
side, bucket trucks, rigging the bridge to get out there. 
Sometimes more money is spent in providing the equipment to get 
those eyes to the structure than the actual inspectors on the 
bridge.
    But you need someone who has educated eyes, who knows what 
he is looking for and knows the importance of what he sees. He 
has to know the past details, items that on a certain bridge 
age may cause cracks, may cause problems. As we have gone 
through the decades, we have learned a lot. We have made 
changes in our design procedures, but there are some bridges 
that before we knew it have these details still in place, and 
that has to be known and has to be watched.
    As for high tech devices, there are a number of things that 
are available that would aid once those eyes find something or 
aid once those educated eyes know an area to look. We have 
ultrasonic devices which at least in my experience are usually 
part of the bridge inspector's team, where if they find losses 
in a member, it is an ultrasonic device that can tell you how 
much thickness is left in that steel member if you are looking 
at a steel structure.
    There have been things said about the chain-dragging. That 
actually does work. You do find voids in concrete decks with 
chain-dragging. Some of these things may sound primitive, but 
they do work.
    There are a number of high tech strain gauges, 
electrochemical, electric devices that can be placed on 
bridges, but you have to know where to put them and you have to 
monitor them.
    Senator Klobuchar. Mr. Steudle, before when I was talking 
to Secretary Peters, we talked about how, and I think this is 
in line with what you are saying, the program could be 
administered better so there is some more flexibility for 
States. But then we also raised with her--I did and some of the 
other Senators--the fact that when there is a projected deficit 
of I think you said $4 billion for the bridge repair funding 
for 2009, that even no matter how efficient we become with how 
we administer these funds and what better tools we can put in 
place to allow States some flexibility, that we are going to 
have some major issues.
    I wondered--and you probably heard discussion since you 
have been sitting for this very lengthy hearing, about some 
funding mechanisms with bonds and I think Senator Boxer was 
talking about reprioritizing some of our funding in Congress--
what your ideas are for funding.
    Mr. Steudle. First of all, the 4.3 is in the Highway Trust 
Fund. So that is all of the different assets--roads, bridges, 
all of them together--and we as States are very concerned about 
that. We are planning our programs, anticipating that the 
Highway Trust Fund is fully solvent and we can continue with 
the record repairs and the programs that we had through 
SAFETEA-LU.
    Looking at how do we fill that gap, I think every rock 
needs to be overturned to see what is under it.
    When you add all the innovative pieces all up, you still 
end up with the biggest lion's share of what needs to be done 
and the money that needs to be raised is through motor vehicle 
fuel taxes. You add all the other pieces, and they are going to 
help, but we are not going to get away from that, I don't 
think, in the very near future. There is not enough of all 
those other pieces.
    The innovative financing, the tax incremental financing 
will work well and maybe it works for a new freeway or a new 
road that goes through.
    But what about the road that has been there for 50 years or 
60 years that has been free? Do we now put a toll on a road 
that has been free? Frankly, it is a road that our parents or 
grandparents already paid for. They put it in place.
    When you go further than that, what about the local street, 
the city street, the county secondary road? It is almost 
impossible to put a toll on a subdivision street. There still 
has to be a mechanism, and it may not be at the Federal level 
that pays for a subdivision street, but there has got to be 
something through that that generates funding to take care of 
those roads as well.
    Senator Klobuchar. Thank you.
    Do you want to add anything, Mr. Herrmann?
    Mr. Herrmann. Yes, thank you. ASCE has a number of 
policies, and they have one on transportation funding.
    ASCE recommends that funding for transportation system 
improvements, associated operations and maintenance--
maintenance, I would like talk about that a little bit--be 
provided by a comprehensive program including user fees such as 
motor fuel sales tax, user fee indexing to the consumer price 
index, appropriation from general treasury funds;
    Issuance of revenue bonds and tax exempt financing at State 
and local levels; trust funds or alternate reliable funding 
sources established at the local, State and regional levels 
including the use of sales tax, impact fees, vehicle 
registration fees, toll revenues, mileage-based user fees 
developed to augment allocations from Federal trust funds, 
general treasury funds and bonds;
    Refinement of the Federal budget process to establish a 
separate capital budget mechanism similar to many State budgets 
to separate long term investment decisions from day to day 
operational costs;
    Public-private partnerships, State infrastructure banks, 
bonding and other innovative financing mechanisms as 
appropriate for the leveraging of available transportation 
program dollars but not in excess of or a means to supplant 
user fee increases.
    Those are a number of things that ASCE has come out as a 
policy for finding funding for transportation.
    The thing on maintenance I brought up as I was going 
through the list, I think it was Senator Carper who said there 
are a lot of people who come out, all the television and media 
come out when you cut a ribbon for a bridge, and I agree with 
him. There are not many people that come out when you cut a 
ribbon because you just painted a bridge or you filled in some 
potholes.
    We need some funding for maintenance or incentive to 
government agencies to do the maintenance because that will 
increase the life of the bridges.
    Senator Klobuchar. Well, thank you very much, and I again 
thank you for staying for this extra hour.
    I think if you see this bridge and what happened to us in 
Minnesota, as you can see, just as much as land as over rivers, 
it was an enormous bridge and affected so many people in our 
State and continues to affect them.
    I appreciate you, on their behalf, staying to answer these 
questions. As we move forward, we look forward to working with 
you and your ideas. Thank you.
    To finish up, I ask unanimous consent that the statements 
of the Associate General Contractors and the American Public 
Works Association be placed in the record, and the record will 
remain open for additional submissions.
    [The referenced material follows on page 106.]
    Senator Klobuchar. The hearing is adjourned. Thank you.
    [Whereupon, at 1:14 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
                              ----------                              

       Statement of Hon. Christopher Bond, U.S. Senator from the 
                           State of Missouri
    Thank you, Madam Chair and Ranking Member Inhofe. I would also like 
to thank Senator Coleman and the other panelists who have joined us 
today to discuss the condition of our nation's bridges.
    I would also like to express my compassion and concern for both 
those who lost their lives and for those who have had to undergo the 
tragic collapse of the I-35W Bridge Minneapolis.
    It is essential that we must continue to develop an efficient and 
sustainable approach to identify and tackle structurally deficient and 
poorly maintained bridge infrastructure.
    In order to ensure that our nation's surface transportation is safe 
and dependable; adequate examinations, assessment, rehabilitation and 
replacement of severe conditioned infrastructure is required to 
preserve safety for our commuters.
    Given that the Highway Trust Fund is facing an estimated deficit of 
$5 billion dollars by fiscal year 2009; Federal, State and local 
leaders must consider innovative options in order to finance many 
bridge and surface transportation programs.
    Out of the 10,000 bridges in Missouri--which is the 7th largest 
total nationwide--there are over 1,000 bridges that are currently rated 
as poor or serious condition.
    In order to address this insufficiency, the Missouri's department 
of transportation, has had a practical approach to develop an 
innovative plan to repair or replace over 800 poorly conditioned 
bridges by 2012.
    Consequently, 80% of our state's most worn-out bridges will be 
rehabilitated to good condition status or replaced within the next five 
years.
    Missouri's Design-Build-Finance & Maintain concept would not only 
improve our state's worst bridges by 2012; but will maintain them for 
at least 25 years. In addition, none of these bridges will become 
tolled bridges. They will remain free.
    This innovative Design-Build, Public-Private Partnership is a great 
example for other states to look at, research and maybe follow.
    While this innovative formula may not be suitable to every state's 
infrastructure priorities, hopefully, it may serve as an example as to 
how federal, state and local governments may pursue favorable, targeted 
investment strategies for bridge and surface transportation 
enhancement.
                               __________
      Statement of Hon. Sheldon Whitehouse, U.S. Senator from the 
                         State of Rhode Island
    First, I want to thank Chairman Boxer for holding this hearing, and 
for her commitment to improving the condition of our nation's aging 
bridges, roads, and highways. The collapse of the I-35W Mississippi 
River Bridge in Minneapolis is a tragic reminder of the need to 
constantly monitor our nation's transportation infrastructure, and to 
take action where necessary to provide for repairs.
    The issue of bridge safety and reliability has special importance 
for Rhode Island, the Ocean State. Although we are the smallest of the 
50 states, our unique geography--the Narragansett Bay bifurcates much 
of our state--requires us to rely on an intricate system of roads that 
includes 748 bridges.
    For Rhode Islanders, bridges are more than just a means of 
transportation--they are a lifeline, and a treasured part of our 
state's history. I, like generations of Rhode Islanders, cherish 
memories of the hair-raising drive over the old Jamestown Bridge, 
finally demolished last year. The relocation of Interstate 195, a major 
artery connecting East Bay communities with Providence and the rest of 
the state, to a new bridge spanning the Bay has presented the city of 
Providence with new opportunities for economic development.
    The city of Newport and the towns of Jamestown, Middletown, and 
Portsmouth are located on islands connected to the mainland by four 
great bridges: the new Jamestown Bridge, the Claiborne Pell Newport 
Bridge, the Mount Hope Bridge, and the Sakonnet Bridge. The loss of a 
single bridge in this network could significantly impact the lives and 
welfare of the 66,000 Rhode Islanders who call the islands of 
Narragansett Bay home.
    Although our bridges are critical to our existence, many of Rhode 
Island's bridges have fallen into disrepair. Our aging bridges are 
increasingly strained by a growing population. According to the Federal 
Highway Administration (FHA), vehicle traffic in our state increased 16 
percent from 1990 to 2002. Increased usage has taken its toll. 
According to data compiled by the FHA, Rhode Island ranks first among 
the states in percentage of deficient bridges. Of our 748 bridges, 53 
percent are rated either ``structurally deficient'' or ``functionally 
obsolete.'' Especially troubling are the 164 bridges that have been 
rated ``structurally deficient.'' This rating means these bridges are 
in poor condition and require repairs or replacement.
    Among these is the Sakonnet Bridge, built in 1956 in the same steel 
deck truss fashion as the failed bridge in Minneapolis. While 
construction on a new bridge has begun, it is not scheduled to be 
completed until 2015. In the meantime, the Sakonnet Bridge needs the 
highest level of inspection and maintenance. The destruction of its 
predecessor bridge by Hurricane Carol in 1954 left thousands of people 
in peril. We cannot let this happen again.
    With the tragedy of the I-35W Bridge fresh in our memory, we must 
reexamine our methods of bridge inspection and reprioritize bridge 
investment. For too long, we have taken our bridges for granted. We 
have been given a warning, and if we take heed, we have the power to 
safeguard the bridges on which our nation so relies. I'm heartened that 
this committee has made strengthening our bridges an urgent priority, 
and I look forward to today's hearing.
                               __________
            Statement of Larry W. Frevert, P.E., President, 
                   American Public Works Association
    Madam Chairwoman and members of the Senate Committee on Environment 
& Public Works, thank you for the opportunity to submit testimony for 
the Oversight Hearing to Examine the Condition of our Nation's Bridges. 
My name is Larry Frevert, President of the American Public Works 
Association (APWA). I submit this statement today on behalf of the more 
than 29,000 public works professionals who are members of APWA, 
including our nearly 2,000 public agency members.
    APWA is an organization dedicated to providing public works 
infrastructure and services to millions of people in rural and urban 
communities, both small and large. Working in the public interest, our 
members design, build, operate and maintain our vast transportation 
network, as well as other key infrastructure assets essential to our 
nation's economy and way of life.
    We join with others in expressing our deepest sympathy to everyone 
affected by the I-35W bridge collapse in Minneapolis on August I. We 
remain saddened by this tragedy and continue to extend our support to 
local, state and federal officials working on recovery and rebuilding.
    The tragic failure of the I-35W bridge is a stark reminder of the 
importance of public infrastructure to the daily lives of all people 
and to the welfare and safety of every community. But this essential 
public asset is aging and deteriorating. It is suffering the effects of 
chronic underinvestment and is in critical need of funding for 
maintenance, repair and improvement.
    Our nation's highway bridges are no exception. The average span 
currently is more than 40 years old. More than one in every four is 
rated structurally deficient or functionally obsolete and in need of 
repair, improvement or replacement. Of the more than 594,000 publicly-
owned bridges on which we depend for personal mobility and movement of 
freight, more than 158,000 are rated deficient, with more than 77,700 
classified as structurally deficient and more than 80,600 as 
functionally obsolete.
    Local governments own in excess of 300,000 bridges, more than half 
of publicly-owned bridges in the U.S. Of the total local inventory 
nationwide, 29 percent is rated structurally deficient or functionally 
obsolete.
    Standards have been in place since the early 1970s requiring safety 
inspections every two years for all bridges greater than 20 feet in 
length on all public roads. Some bridges may be subject to more 
frequent inspections, and some structures in very good condition may 
receive an exemption from the two-year cycle and be inspected once 
every four years. These inspections, carried out by qualified 
inspectors, collect data on the condition and composition of bridges.
    Structurally deficient bridges are characterized by deteriorated 
conditions of significant bridge elements and reduced load-carrying 
capacity. Functional obsolescence results from changing traffic demands 
on the structure and is a function of the geometries of the bridge not 
meeting current design standards. Neither designation indicates a 
bridge is unsafe. But they do indicate a need for repair, improvement 
or replacement.
    We cannot ignore the underinvestment in bridge maintenance, 
rehabilitation and replacement. It is a major contributing factor 
undermining efforts to adequately address deficiencies. Nationwide, the 
backlog of bridge investment needs is now estimated to total $65.2 
billion.
    As a nation, we are failing to meet the needs of a transportation 
system increasingly overburdened by rising travel, a growing population 
and more freight. Additional traffic volumes and heavier loads are 
placing ever greater stress on bridges often designed for lighter 
loads. The U.S. Department of Transportation reports that the funding 
backlog could be invested immediately in a cost-beneficial fashion to 
replace or otherwise address currently existing bridge deficiencies.
    Local governments' ability to fund necessary bridge improvements 
has eroded significantly over the years. They have limited financial 
means to adequately address deficiencies and typically do not have the 
capacity to do major repairs or capital work on the magnitude of a 
bridge replacement without funding support.
    Sharp increases in the costs of construction materials and supplies 
in the past few years are compounding the funding challenge for local 
government. In Washington State, for example, escalating material and 
supply costs and one of the largest construction programs in the nation 
have had a severe impact on delivering local agency projects. It is not 
unusual to take 10 years or more from the time funding can be secured 
and replacement done. And with the recent industry cost index 
increases, the gap is growing and will continue to grow.
    Immediate action to increase investment is crucial to accelerating 
local bridge repair and replacement programs. Most bridges on local 
roads were either built to older standards or are so old they are in 
urgent need of repair or replacement. It is not uncommon that bridges 
have gone for years, even decades, without the appropriate action to 
repair or replace, due to lack of funds. This is particularly true in 
more rural areas.
    In many cases, locally-owned bridges were often designed to carry 
traffic volumes and loads less than present conditions demand. As 
congestion increases on the Interstate System and state highways, local 
roads become diversion routes, supporting ever increasing levels of 
usage. Freight volumes, too, have increased faster than general-purpose 
traffic, adding demands on all parts of the system. Automobile 
technology allowing for greater speeds has made many bridge geometries 
substandard.
    Deficient bridges are rated, prioritized and repaired or replaced 
as funding is available. When funding is insufficient, deferred 
maintenance, increased inspections, weight limits and closures are 
often the only options.
    APWA has been and will continue to be an advocate for the 
development of public policies which ensure the safe and efficient 
management and operation of our public infrastructure. As Congress 
considers the needs of our bridge system, we urge you to consider the 
following recommendations.
    APWA supports a determined, comprehensive national effort to 
increase investment to eliminate the bridge funding backlog needed to 
repair, rehabilitate and replace all publicly owned bridges--including 
local bridges--as part of a zero bridge deficiencies goal. Such an 
effort, however, should not stop there. It needs sustained and 
sustainable funding to ensure ongoing system preservation and 
maintenance at a level necessary to prevent future deficiencies of all 
publicly-owned bridges.
    APWA also supports updating bridge inspection standards and 
strengthening data collection and reporting procedures; evaluating 
active bridge monitoring systems; and strengthening inspector 
qualifications and training and inspection technologies, research and 
procedures for all publicly-owned bridges. including those on our local 
system. We believe that a program to strengthen research, technology, 
procedures and standards must be supported by full federal funding 
necessary to carry out and sustain it.
    In conclusion, our nation's bridge system is aging, deteriorating 
and suffering the effects of decades of underinvestment. The result is 
the unacceptably high levels of deficiencies we see today. APWA 
believes that working together in partnership with local, state, 
federal and private sector partners, we can and must take immediate 
action to address our bridge needs. But it will take funding and 
leadership. Increased investment to repair or replace deficient bridges 
is vital to achieve a safer and more efficient transportation network. 
A strengthened inspection program can help ensure that we make wise 
investments to maintain and preserve all bridges.
    Madam Chairwoman, we thank you for holding this hearing and are 
especially grateful to you and Committee members for the opportunity to 
submit this statement. APWA and our members stand ready to assist you 
and the Committee as we move forward to address our nation's bridge 
needs.
                               __________
       Statement of The Associated General Contractors of America
    The Associated General Contractors of America (AGC) issued the 
following statement at a press conference in late July 2007: ``There is 
a funding crisis, congestion crisis, and safety crisis looming . . . 
It's now time to make the tough choices that will carry our nation 
forward for the next 50 years.'' Today the Senate Environment and 
Public Works Committee will hear diverse opinions on how to handle the 
bridge crisis and begin to chart the course for the next 50 years. AGC 
is pleased to submit this statement regarding the condition of bridges 
in the United States.
    On August 1, 2007, a span of the 1-35 bridge in Minneapolis 
collapsed during the evening rush hour bringing national attention to 
the state of our nations aging infrastructure. However, this tragedy 
was but one symptom of a deeper problem we face: a national 
infrastructure crisis. For the past two decades, AGC has been 
highlighting this crisis. While some steps have been taken to address 
the concern, Congress has not yet provided the comprehensive, well-
funded response necessary to prevent further deterioration of our 
various infrastructure systems, including surface transportation, 
aviation, rail, ports, wastewater, drinking water, flood control, 
navigation, and others. U.S. bridges are a vital link in the nation's 
transportation network, connecting communities and regions of the 
country. Many are 50 years old or more and are carrying loads far 
beyond what they were designed to carry. Bridges are a significant 
component of the intermodal system that supports our $14 trillion 
economy.
    On September 5, 2007, AGC submitted testimony to the House 
Transportation and Infrastructure Committee regarding the status of the 
nation's structurally deficient bridges, as well as on Chairman James 
Oberstar's National Highway System Bridge Reconstruction Initiative. 
While this initiative is an appropriate response to this tragic event 
and addresses the most pressing and high profile part of the nation's 
surface transportation needs--structurally deficient bridges--other 
network needs exist and require solutions to alleviate congestion, 
improve pavement conditions, enhance safety, provide seamless freight 
mobility, and promote economic development opportunities. AGC supports 
efforts to dedicate additional funding towards the nation's bridge 
needs: however, AGC recommends that the needs of the nation's entire 
surface transportation system be addressed as well.
    Highway and bridge inadequacies are exacting a significant toll on 
cars, trucks, and the economy. The U.S. Department of Transportation 
estimates that the backlog of unfunded system-wide needs, including 
highways and bridges, exceeds $460 billion, costing Americans according 
to various sources, $67 billion a year in extra vehicle operation and 
maintenance costs, $63 billion a year in wasted time and fuel costs, 
and $230 billion a year in costs related to motor vehicle crashes. 
Despite the obvious economic benefits, 26 percent of America's bridges 
are structurally deficient or functionally obsolete, 33 percent of U.S. 
roads are in poor or mediocre condition, and 36 percent of our urban 
highways are congested.
    It is clear that the network is aging and in need of investment at 
all levels of government to maintain and improve the condition and 
performance of the system, including the reconstruction of the most at-
risk bridges. Currently, the federal commitment to the nation's bridges 
is through the Highway Bridge Rehabilitation and Replacement Program. 
The program apportions approximately $4.5 billion a year in contract 
authority to the states, or about 10 percent of all apportionments. In 
recent years, states have obligated annually over $4.1 billion of their 
bridge apportionments, more than 13 percent of their total obligations.
    Under ISTEA, states were provided the flexibility to transfer up to 
40 percent of their annual bridge apportionment to the Surface 
Transportation and National Highway System core programs; TEA-21 
allowed transfers up to 50 percent. From the period 1992-2003, 
approximately $3.4 billion in contract authority was transferred from 
the bridge program to these other programs, although less was 
transferred under TEA-21 (1998-2003).
    AGC supports flexibility within the federal-aid highway program to 
allow states to meet their unique transportation needs; however, in 
response to this significant and pressing safety problem, states should 
be encouraged to use all available funding to address bridges that 
present the most significant safety concerns. States should not be 
rewarded for past neglect. For this reason, AGC recommends revisiting 
the existing transfer flexibility provisions in current law and 
proposes a readjustment to ensure that existing bridge funds are 
directed towards their critical intended purpose.
    To assure further that this vital national concern is addressed 
immediately, AGC also recommends that any specific bridge 
reconstruction initiative that may be considered by the Committee 
include a ``maintenance of effort'' provision in any formula developed 
to distribute funds to the states. Such a provision would judge whether 
states have shifted money out of their existing bridge program 
apportionments to other non-bridge needs. Furthermore, AGC recommends 
that states be required to spend any new funding for bridge 
reconstruction exclusively towards structurally deficient bridges and 
that they not be permitted to shift more than 20 percent of their 
regular bridge apportionments to other priorities during the period of 
any new program. AGC also recommends that states be required to 
generate new state revenues to match the new federal share and not 
shift resources from their existing transportation infrastructure 
accounts.
    As the Committee considers the possibility of supplemental surface 
transportation investment and in preparation for the reauthorization of 
SAFETEA-LU, AGC suggests including a prohibition on earmarking funds. 
It is important that the public fully recognize the value of any 
increased investment and support it. Unfortunately, there has been too 
much cynical coverage in the media portraying federal infrastructure 
initiatives as ``pork barrel'' spending, implying that these various 
funding measures are nothing more than political patronage.
    For years, AGC and our transportation allies have called for 
``putting trust back'' into the Highway Trust Fund. That became a 
reality in TEA-21 when firewalls were enacted requiring that Highway 
Trust Fund user fee revenue be used for its intended purpose: improving 
the transportation system. Public support in the short term, and in the 
long term, as we address SAFETEA-LU reauthorization, is vital to our 
success. Infrastructure must be above reproach and the steps should be 
taken to ensure that all funds are invested in the most strategic way 
possible. Overwhelming public support is vital to our long-term efforts 
to address the overall infrastructure funding shortfall.
    To pay for transportation investments, including bridge 
reconstruction, AGC fully supports increasing and/or indexing the 
federal excise tax on gasoline. Other funding sources are being debated 
in other forums to address future transportation infrastructure needs. 
While these other funding sources may provide supplementary funding to 
meet future needs, the excise tax on gasoline continues to be the most 
reliable, fairest, and easiest to administer user tee. Increasing the 
federal excise tax can be implemented quickly and provide the 
additional revenue in a timely fashion. Although we need to continue to 
identify additional financing options for program in the long term, we 
also need to act immediately in the short term. Using an existing and 
successful user fee system now will allow Congress to address a 
infrastructure problem that impacts all Americans.
    In addition, AGC recommends that the federal excise tax on gasoline 
be indexed to account for the expected inflation in construction costs 
that will diminish the purchasing power of this funding increase in the 
future. During TEA-21 reauthorization, AGC recognized the nature of the 
existing gasoline excise tax, imposed as a ``cents per gallon'' fee 
rather than as a percent of the cost, presented long-term problems 
because of the scourge of inflation. At that time, AGC recommended that 
the gas tax be retroactively indexed to account for inflation that had 
occurred since 1993 when the fee was last increased and that the fee be 
indexed from that point forward to undermine the effects of inflation. 
If Congress had enacted AGC's plan during the reauthorization, we would 
be well on our way to erasing the backlog of highway and bridge needs 
in this country.
    Unfortunately, rather than enhancing our nation's infrastructure we 
are losing ground. Since 2003 we have witnessed a 46 percent increase 
in the cost of the basic building materials used in bridge 
construction: steel, asphalt, concrete, and aggregate. The projected 
continuing growth in world demand for these products points to the 
continuing diminishing purchasing power of any revenue provided in 
today's dollars. In addition, the overall increase in the price of 
diesel fuel directly impacts construction costs as it fuels the heavy 
equipment, including cranes, bulldozers, and other machinery used in 
construction.
    As the balance of the highway account of the Highway Trust Fund 
moves towards deficit in fiscal year 2009, the ability of states to 
continue to meet pressing transportation needs, including structurally 
deficient bridges and other critical components of the system, is 
threatened. Congress must act now to provide a necessary infusion of 
investment dollars to meet the immediate threat of bridge failures, 
but, more importantly, must also begin the process of addressing the 
overall transportation infrastructure crisis we face as a nation.
    Again, AGC appreciates the opportunity to submit these comments and 
looks forward to working with the Committee to find solutions to 
address the condition of our nation's bridges and other important 
infrastructure challenges facing the United States.
    Thank you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      

                                  <all>

</pre></body></html>
